APPENDIX

APPENDIX A:

Opinion, Nos. 2019-SC-0058-DG
& 2019-SC-0209-DG, Supreme
Court of Kentucky,
Dec. 17, 2020.................................... 1a

APPENDIX B:

Opinion Reversing and
Remanding, No. 2016-CA000221-MR, Commonwealth of
Kentucky Court of Appeals,
Dec. 21, 2018.................................. 41a

APPENDIX C:

Opinion and Order, No. 10-CI00505, Commonwealth of
Kentucky Franklin Circuit
Court, Feb. 11, 2016 ..................... 72a

APPENDIX D:

Opinion and Order, No. 10-CI00505, Commonwealth of
Kentucky Franklin Circuit
Court, Dec. 23, 2015 ................... 106a

APPENDIX E:

Opinion and Order, No. 10-CI00505, Commonwealth of
Kentucky Franklin Circuit
Court, Nov. 20, 2015 ................... 137a

APPENDIX F:

Opinion and Order, No. 10-CI00505, Commonwealth of
Kentucky Franklin Circuit
Court, Aug. 12, 2015 ................... 157a

APPENDIX G:

Order Denying Petition for
Rehearing, Nos. 2019-SC-0058DG & 2019-SC-0209-DG,
Supreme Court of Kentucky,
Mar. 25, 2021 ............................... 174a

1a
APPENDIX A
RENDERED: DECEMBER 17, 2020
TO BE PUBLISHED

Supreme Court of Kentucky
2019-SC-0058-DG
2019-SC-0209-DG
COMMONWEALTH OF
KENTUCKY, EX REL. J.
MICHAEL BROWN,
SECRETARY OF THE
GOVERNOR’S
EXECUTIVE CABINET

V.

APPELLANT/CROSSAPPELLEE

ON REVIEW FROM COURT OF APPEALS
NO. 2016-CA-0221
FRANKLIN CIRCUIT COURT NO. 10-CI00505

STARS INTERACTIVE
HOLDINGS (IOM) LTD.,
F/K/A AMAYA GROUP
HOLDINGS (IOM) LTD.
AND RATIONAL
ENTERTAINMENT
ENTERPRISES, LTD.

APPELLEES/CROSSAPPELLANTS

OPINION OF THE COURT BY JUSTICE WRIGHT
REVERSING

2a
This case originated as an action in Franklin Circuit
Court brought pursuant to Kentucky’s Loss Recovery
Act, Kentucky Revised Statutes (KRS) Chapter 372. The
trial court granted summary judgment in favor of
Appellant/Cross-Appellee
and
Appellees/CrossAppellants appealed to the Court of Appeals. The Court
of Appeals reversed, holding there was no standing under
the Loss Recovery Act in the present case.
Appellant/Cross-Appellee petitioned this Court for
discretionary review, and we granted the motion.
Thereafter, Appellees/Cross-Appellants filed a crossmotion for discretionary review, which we also granted.
Because we disagree with the Court of Appeals’
construction and interpretation of the Loss Recovery Act,
we reverse its holding that “person” is limited to a natural
person and that the Commonwealth lacked standing to
bring this suit. Since we reverse the Court of Appeals’
holding on this issue, we must address the remaining
issues in the parties’ appeal and cross-appeal.
I. BACKGROUND
In
2010,
Appellant/Cross-Appellee,
the
Commonwealth of Kentucky, through the Secretary of the
Justice and Public Safety Cabinet, John Tilley, filed the
underlying complaint in Franklin Circuit Court against
Pocket Kings, Ltd. and “Unknown Defendants” 1 seeking
Before the trial court, the Commonwealth filed multiple
amended complaints. Because the number of defendants named in
the complaints is extensive, we find it helpful to identify the few that
we will discuss in detail: Oldford is the holding company that owns
PokerStars and the group of subsidiaries that perform various roles
in the PokerStars business. REEL is wholly owned by Oldford and
operates PokerStars. In 2014, Oldford changed its name to Amaya
Group Holdings (IOM) and subsequently Amaya Gaming Group Inc.
1

3a
to recover under Kentucky’s Loss Recovery Act.
In bringing suit, the Commonwealth relied on portions
of the Loss Recovery Act, including KRS 372.020 and
KRS 372.040. KRS 372.020 provides a losing gambler with
a first-party cause of action to recover any losses suffered.
It reads:
If any person loses to another at one (1)
time, or within twenty-four (24) hours, five
dollars ($5) or more, or anything of that
value, and pays, transfers or delivers it, the
loser or any of his creditors may recover it,
or its value, from the winner, or any
transferee of the winner, having notice of
the consideration, by action brought within
five (5) years after the payment, transfer or
delivery. Recovery may be had against the
winner, although the payment, transfer or
delivery was made to the endorsee,
assignee, or transferee of the winner. If the
conveyance or transfer was of real estate, or
the right thereto, in violation of KRS
372.010, the heirs of the loser may recover it
back by action brought within two (2) years
after his death, unless it has passed to a
purchaser in good faith for valuable
consideration without notice.
Id. If a losing gambler fails to bring a recovery action
under KRS 372.020 within six months, KRS 372.040
permits a third-party cause of action to be brought against
the winning gambler by “any other person” and allows for

acquired it.

4a
the recovery of treble damages. It reads:
If the loser or his creditor does not, within
six (6) months after its payment or delivery
to the winner, sue for the money or thing
lost, and prosecute the suit to recovery with
due diligence, any other person may sue the
winner, and recover treble the value of the
money or thing lost, if suit is brought within
five (5) years from the delivery or payment.
Id.
In this case, the Commonwealth of Kentucky filed a
civil lawsuit to recover statutory treble damages for
money lost by its citizens playing real-money poker on an
illegal internet website called PokerStars, which is owned
by Appellees (collectively referred to as PokerStars).
PokerStars does not participate as a player in the realmoney poker games played on its site; instead, a “rake” is
charged. A rake is a portion of the amounts wagered
during the poker game. PokerStars charged a rake on the
poker hands played on its website. Kentuckians lost at
least $290,230,077.94 in the five years prior to the filing of
this lawsuit (representing but a fraction of the amount of
real dollars lost by Kentuckians over the entirety of
PokerStars’ operating history in Kentucky).
In 2001, the criminal syndicate that ran PokerStars
began operation of its internet-based gambling website
from Costa Rica and later moved to the Isle of Man, a
small island in the middle of the Irish Sea. In 2006,
Congress enacted the Unlawful Internet Gambling
Enforcement Act, a powerful tool for prosecution of illegal
internet gambling. 31 U.S.C. §§ 5361-5367. Section 5361
of the Unlawful Internet Gambling Enforcement Act

5a
provides the purpose of the Act, stating in pertinent part:
“(4) New mechanisms for enforcing gambling laws on the
Internet are necessary because traditional law
enforcement mechanisms are often inadequate for
enforcing gambling prohibitions or regulations on the
Internet, especially where such gambling crosses State or
national borders.”
The Commonwealth of Kentucky began investigating
unlawful online gambling and the damage it was doing to
the citizens of the Commonwealth in 2007 during the
administration of then-Governor Ernie Fletcher. In 2008,
during the administration of then-Governor Steve
Beshear, the Commonwealth filed an in rem action in
Franklin Circuit Court targeting the internet domain
names owned and registered by operators of offshore
internet gambling.
In 2010, the Commonwealth of Kentucky filed the
underlying case before the Franklin Circuit Court seeking
recovery of gambling losses by Kentucky citizens along
with treble damages as allowed by KRS 372.040. In April
2011, the U.S. Department of Justice unsealed
indictments against PokerStars, its founder, and others
for criminal violations of the Unlawful Internet Gambling
Enforcement Act, and PokerStars’ deposits of gambling
funds in the United States were frozen. PokerStars had
survived and even flourished under every enforcement
effort until its capital funds were frozen, which finally led
to the cessation of its illegal operations in the United
States.
During the pendency of this matter before the trial
court, PokerStars refused to produce its Kentucky data
for five years. The Commonwealth filed a motion for
summary judgment based on evidence from their expert

6a
witness, an economist. At that point, PokerStars finally
offered to turn over its Kentucky gaming data after the 5year limitation to sue the other winners had expired. The
other winners are the individual players who conspired
with PokerStars to violate the gambling laws and from
whose winnings PokerStars took their rake or percentage
of the winnings. The Franklin Circuit Court entered
partial summary judgment against defendants REEL and
Oldford on liability and a default judgment against
defendants Amaya Group Holdings (IOM) and REEL.
The judgments were based on the actual amount that
Kentucky players lost on PokerStars’ websites. As that
court succinctly—and correctly—stated:
Here, the Defendants reached into
Kentucky in willful violation of its laws, and
for over four and a half years, invited over
34,000 Kentucky players to place over
246,000,000 bets, at least 10 million of which
resulted in losses of five dollars or more. In
part due to the profit earned during that
four-and-a-half-year period. PokerStars
grew to the point that by 2014, it could be
sold to Amaya for $4.9 billion dollars. While
part of the Defendants’ profit came at the
expense of Kentucky players’ calculable
losses incurred while playing the
defendants’ illegal online games, another
part of their profits came at the incalculable
expense of the violation of Kentucky’s laws.
For even when Kentucky players won, the
defendants still took a rake. And with the
money that the defendants took from
Kentucky’s players, it was able to invest and

7a
expand its illicit operations making
themselves all the more profitable.
PokerStars appealed and the Court of Appeals
reversed the trial court, holding the Commonwealth
lacked standing, as it did not qualify as “any other
person.”
The Commonwealth filed a motion for
discretionary review which we granted. PokerStars filed
a cross-motion, raising other issues not addressed by the
Court of Appeals. Specifically, PokerStars now argues:
(1) the Court of Appeals should be affirmed, as the
Commonwealth is not “any other person” under the Loss
Recovery Act; (2) PokerStars could not be sued under the
statute, as they were not the “winner” in any of the illegal
real-money poker games; (3) the trial court imposed the
wrong amount of damages for various reasons; (4) the
judgment violates PokerStars’ Due Process rights; (5) the
Commonwealth’s failure to allege specific players, dates,
money lost and players violates required pleading under
Kentucky Rules of Civil Procedure (CR) 8; and
(6) allowing the Commonwealth to sue under the Loss
Recovery Act to recover money lost in gambling goes
against statutory limitations on the state’s forfeiture
powers. We granted PokerStars’ cross motion, and now
reverse the Court of Appeals and reinstate the wellreasoned judgment of the Franklin Circuit Court.
I. ANALYSIS
A. The Commonwealth Qualifies as a ‘Person’
under Kentucky’s Loss Recovery Act.
The Court of Appeals held the Commonwealth of
Kentucky did not qualify as a person under Kentucky’s
Loss Recovery Act. Rather, that court would limit the
term to a natural person. However, this interpretation

8a
does not follow our guideposts of statutory interpretation.
We have held: “the plain meaning of the statutory
language is presumed to be what the Legislature
intended, and if the meaning is plain, then the court cannot
base its interpretation on any other method or source.”
Revenue Cabinet v. O’Daniel, 153 S.W.3d 815, 819 (Ky.
2005) (internal quotation marks and citation omitted).
Further, “we assume that the Legislature meant exactly
what it said, and said exactly what it meant.” Id. (internal
quotation marks and citation omitted). Therefore, “we
must look first to the plain language of a statute and, if the
language is clear, our inquiry ends.” Univ. of Louisville
v. Rothstein, 532 S.W.3d 644, 648 (Ky. 2017). The
language here is clear.
The Loss Recovery Act does not define the word
“person”; however, our general definitional statutes do.
KRS 446.010(33), states “unless the context requires
otherwise . . . ‘person’ may extend and be applied to
bodies-politic . . . .” (Emphasis added.) While the statute
does not require the term “person” extend to political
bodies in all circumstances, the statute gives the
parameters-within its plain language-in which a court may
exercise its discretion: only when the context requires
otherwise. The context does not require otherwise in the
case at bar.
Nothing in the text of KRS 372.040 mentions or even
suggests that the statute is limited to “natural persons.”
On the contrary, the General Assembly chose to modify
the noun “person” with the adjective “any” — “any other
person.” This Court’s predecessor held that the word
“any” means “one indiscriminately of whatever kind or
class; one, no matter what one” and “is an indefinite
pronominal adjective . . . used to designate objects in a

9a
general way without pointing out any one in particular.”
Elliott v. Pikeville Nat’l Bank & Trust Co., 128 S.W.2d
756, 761 (Ky. 1939) (internal quotation marks and citation
omitted). By using the phrase “any other person,” the
General Assembly plainly expressed that it meant to
confer standing on all the kinds and classes of “person[s]”
listed in KRS 446.010(33) without exception.
We have long held, “[i]t is an elementary rule of
construction that effect must be given, if possible, to every
word . . . of a statute.” Hampton v. Commonwealth, 78
S.W.2d 748, 750 (1934) (citing United States v. Standard
Brewery, 251 U.S. 210, 40 (1920)). Giving effect to the
Legislature’s use of the word “any,” there is no
interpretation of this statute that excludes the
Commonwealth from having standing to sue.
The basis for resolving the question of whether the
state is a person under the statute is not a determination
left to the court’s discretion. Courts are required to follow
the clear language of the statute. Interpretation of the
statute and the tools for such interpretation are only used
when the statute is ambiguous. Courts are not free to
interpret the statute according to their own preferences
or inclinations. KRS 446.010 clearly states that a person
may include bodies politic “unless the context requires
otherwise.”
1. Cases in which Statutory Context Compels
Courts to find the State is not a Person
At times, the context of a statute clearly requires the
word “person” to be interpreted to exclude the state.
Some examples of this context include Will v. Michigan
Department of State Police, 491 U.S. 58 (1989);
Omosegbon v. Wells, 335 F.3d 668, 673 (7th Cir. 2003); and

10a
Hamilton v. Knight, 1:17-CV-04714-TWP-TAB, 2018 WL
928287, at *4 (S.D. Ind. Feb.16, 2018). Each of these cases
holds that the state is not a “person” that can be sued
under 42 U.S.C. § 1983. In those instances, the courts
were curtailed from interpreting the word “person” to
include the subject states, because the states had
sovereign immunity; the states’ sovereign immunity could
only be waived if clearly and specifically stated. Since
§ 1983 does not clearly and specifically waive states’
sovereign immunity, the context in those cases required a
determination that the word “state” not be interpreted as
“person” for purposes of the statutes.
Since the
Commonwealth was the plaintiff in the instant action, the
context of KRS 372.020 does not require that the state be
excluded from the definition of “any person” under the
statute.
Further, PokerStars misplaces its support on Will v.
Michigan Department of State Police, 491 U.S. 58, for the
position that “person” does not include the state under
KRS 372.040. We must consider the context of that case
before jumping to such a broad, sweeping conclusion of
law. Will involved § 1983 of the Civil Rights Act of 1871,
and how it “provides a federal forum to remedy many
deprivations of civil liberties”; this put the states’
sovereign immunity at issue in the case. Id. at 66.
The United States Supreme Court explained “[t]he
Eleventh Amendment bars such suits unless the State has
waived its immunity, or unless Congress has exercised its
undoubted power under § 5 of the Fourteenth
Amendment to override that immunity.” Id. (internal
citation omitted). Importantly, it further clarified “if
Congress intends to alter the ‘usual constitutional
balance between the States and the Federal

11a
Government,’ it must make its intention to do so
‘unmistakably clear in the language of the statute’”
Id. at 65 (quoting Atascadero State Hospital v.
Scanlon, 473 U.S. 234, 242 (1985)) (emphasis added).
Finally, it explained “[w]e cannot conclude that
§ 1983 was intended to disregard the well-established
immunity of a State from being sued without its
consent.” Id. at 67.
Much to the contrary, the case at bar does not involve
the Commonwealth’s sovereign immunity (or even
contemplate a case in which the Commonwealth is a
defendant). This case involves the Commonwealth
bringing a civil suit to remedy a wrong done to its peopleand thereby deterring illegal activities. Even if we were
to assume the common usage of “person” does not include
the Commonwealth, our General Assembly has spoken
otherwise in KRS 446.010(33), which allows the
Commonwealth to be considered a “person.”
PokerStars also relies upon other distinguishable
cases in arguing the Commonwealth is not a “person” with
standing to sue under the statute. One such case is
Commonwealth v. Illinois Central Railroad Co., 153 S.W.
459, 462 (Ky. 1913). In Illinois Central, our predecessor
Court determined whether a corporation could be charged
with murder. The Court held that “[m]anifestly, a
corporation cannot be indicted for a form of homicide, the
only punishment for which is death or imprisonment; for,
being an intangible thing, it cannot be subject to such
penalties.” The Court went on to observe that lesser
forms of the crime might include a corporation if the
Legislature were to provide a penalty (at the time, the
Legislature had not yet done so). In the century that has
passed since that case, the Kentucky Legislature has

12a
established corporate penalties for the lesser crimes of
first-degree manslaughter pursuant to KRS 507.030 and
second-degree manslaughter pursuant to KRS 507.040.
In Illinois Central, the context of the statute—the lack of
any penalty that could be imposed on the corporation—
required a determination that the corporation could not be
considered a person under the statute. In the present case
before the Court, the Commonwealth is the plaintiff and
the statute provides an applicable penalty for the
corporation being sued.
Another readily distinguishable case is Vinson v.
Casino Queen, Inc., 123 F.3d 655, 657 (7th Cir. 1997). In
that case, the Seventh Circuit stated: “Loss Recovery
Acts should not be interpreted to yield an unjust or absurd
result contrary to its purpose.” In Vinson, the casino sued
by a losing gambler’s mother was a legally-established
casino under the laws of the state. Loss Recovery Acts
were established to permit suits against illegal gambling
operations. In the case at bar, the suit is against an illegal
internet criminal gambling syndicate, which is clearly
within the purpose of the statute in deterring illegal
gambling.
2. Class of Persons
PokerStars argues we should employ a “class of
persons” analysis and hold the Commonwealth of
Kentucky is not a part of the “class of persons” authorized
to sue under KRS 372.040. In relevant part, KRS 446.070
provides: “[a] person injured by the violation of any
statute may recover.” This statute has been used by the
Commonwealth to create standing when the particular
statute under which the suit was initiated did not provide
a specific cause of action. See Commonwealth ex rel. Keck
v. Shouse, 245 S.W.2d 441 (Ky. 1952). Shouse involved a

13a
penal statute, so the Commonwealth used KRS 446.070 to
have standing and bring the civil suit as a person injured
by the penal violation.
The federal cases cited by PokerStars—United States
v. Kentucky National Insurance Co., 904 F.2d 708 (6th
Cir. 1990) and Purdue Pharma L.P. v. Kentucky, 704 F.3d
208 (2d Cir. 2003)—are inapplicable to this issue as they
are based on a separate statute from the Loss Recovery
Act. In Kentucky National Insurance, the Sixth Circuit
clarified “[the Unfair Claims Settlement Practice Act]
does not provide the aggrieved party with a civil remedy
and therefore KRS 446.070 applies to such a violation.”
904 F.2d 708, *1 (6th Cir. 1990) (emphasis added). Then,
in Purdue Pharma L.P., that Court stated KRS 446.070
“establishes a general private right of action under state
law.” 704 F.3d at 215.
Here, since KRS 372.040 provides its own statutory
remedy for violation of the civil statute, KRS 446.070 is
neither necessary nor applicable.
Therefore, since
“person” is not defined in KRS 372.040, our general
definitions
for
statutes—KRS
446.010—provides
guidance for our Court. As previously noted, pursuant to
that statute, “person” includes the Commonwealth.
3. Commonwealth has Standing as an Extension of
its Power to Prosecute Criminal Cases
Furthermore, the Commonwealth of Kentucky is the
entity that enforces the criminal laws of the
Commonwealth. In the state’s thirteen-year campaign
under four different governors to stop illegal international
internet gambling sites, the only successful effort came
from freezing the money used for illegal gambling.
“The power to charge persons with crimes and to

14a
prosecute those
charges belongs to the executive
department, and by statute, is exercised by the
appropriate prosecuting attorney.”
Gibson v.
Commonwealth, 291 S.W.3d 686, 689-90 (Ky. 2009).
Stated otherwise, the Executive Branch of the
Commonwealth of Kentucky has exclusive jurisdiction to
enforce the criminal laws of the state. In KRS 372.040, the
Legislature expanded the criminal laws against gambling
to allow standing for illegal gambling losers to file civil
lawsuits against the winners to recover the amount they
lost—and then went even further to deter illegal gambling
by allowing “any other person” to bring suit if the loser
had not done so within six months after sustaining the
illegal gambling loss. This expansion of the criminal
statutes against illegal gambling has the effect of
deputizing any person—in effect, every citizen of the
Commonwealth—to help with the enforcement of the
criminal illegal gambling statutes by authorizing the filing
of civil lawsuits to render the illegal gambling
unprofitable.
The Commonwealth (having the sole
authority to enforce the criminal statutes) would not be
excluded from a statute that expanded enforcement
against criminal activity by enabling “any person” to file
civil lawsuits to deter the crime.
While the loser can only recover the amount he or she
lost, “any other person” can recover treble damages. The
fact that any other person may seek triple the recovery of
the person who lost the funds displays the statute’s
intended deterrent effect. It is nonsensical to now
interpret the statute in such a way that the
Commonwealth—when it expanded the deterrent effect of
its criminal laws into the civil realm with this statute—
could not be a proper party to bring a civil lawsuit.

15a
The Court of Appeals assigned greater importance on
recovery by the losing gambler’s family than the
Commonwealth’s recovery of loses and deterrence of
illegal gambling. This purpose, while noble, is not within
the plain language of the statute. Had the Legislature
wished to narrow the class of persons who could recover
treble the gambling losses or place the losing gambler’s
family in a separate class, it certainly could have done so.
However, it did not; instead, it used the expansive
language “any other person.” We disagree with the Court
of Appeals’ conclusion that the context of the statute
requires a ruling that the state lacks standing to render
an illegal international internet criminal gambling
syndicate unprofitable by seeking treble damages for
losses sustained by Kentucky gamblers.
The Court of Appeals’ opinion states that deterrence is
one purpose of the Loss Recovery Act but allowing the
Commonwealth to sue PokerStars “would completely
contravene the other purpose of the Loss Recovery Act—
to allow those ‘losers’ to recover their losses and avoid
becoming destitute as a result of a gambling problem.”
This assumes that the controlling purpose of the Loss
Recovery Act is to prevent losers from becoming
destitute. Under this theory, the state would be prevented
from protecting the other citizens of the Commonwealth
in order to prevent losers—who voluntarily participated
in
illegal
gambling—from
becoming
destitute.
Deterrence would be the logical and stronger purpose of
the statute. This is reinforced by the language in the
statute stating that after six months “any other person”
may bring suit and recover treble damages. Any person
other than the loser may recover treble damages, which
encourages other persons to sue and take the profit out of

16a
illegal gambling. The statute gives a six-month grace
period for losers to sue. It would be wrong of this court to
expand the loser’s preference in a suit beyond what the
Legislature provided. Whatever purpose the statute has,
our interpretation must be guided by the plain language
that says the suit may be brought by “any other person.”
Person includes the state unless the context of the statute
requires otherwise. The context of the statute requires a
determination that the Commonwealth of Kentucky has
standing to bring this lawsuit.
4. The Commonwealth can Sue under Civil Laws
to Protect its Citizens
The Court of Appeals’ opinion in this case states that
“[w]e cannot accept that the Commonwealth must be
incentivized with the promise of treble damages before it
can be expected to bring suit to enforce its own laws.” This
statement seems to attribute a motive of profit in the
Commonwealth’s actions. Any ignoble assumption as to
motive is obviously false, as it ignores several key facts,
such as: the Commonwealth has a right to protect its
citizens; a penalty that takes the profit from illegal
gambling operations is an effective tool to protect
Kentuckians; the Commonwealth started studying this
problem in 2007; the state’s first lawsuit was filed in 2008
to prevent illegal internet gambling by suing to prevent
the use of the domain names of the internet illegal
gambling websites; the website is run from the Isle of
Man, and the founder of the site has been a fugitive from
a federal warrant for nearly a decade. If the federal
government is unable to capture and bring the founder
before the federal justice system, then it is obviously
beyond the ability of the Commonwealth of Kentucky to
bring the illegal gambling criminal syndicate and its

17a
founder before the courts of the Commonwealth of
Kentucky to answer criminal charges. KRS Chapter 372
is the best (and perhaps the only effective) tool for dealing
with this insidious problem.
As our predecessor Court stated in a case involving a
civil action brought by the Commonwealth against a
gambling house, “[t]o say that a court of equity may not
enjoin a nuisance of this sort, when the criminal laws have
proven inadequate, is to say that the commonwealth is
unable to protect its citizens.” Goose v. Com. ex rel.
Dummit, 205 S.W.2d 326, 329 (Ky. 1947) (internal
quotation marks and citation omitted). Just as we refused
to disallow the Commonwealth to protect its citizenry
almost three-quarters of a century ago, we decline to do so
today. The existence of a criminal statute does not
prevent the Commonwealth from suing civilly.
Some criminal entities are so strong, organized, and
insidious that they are almost impossible to deal with
using traditional police tools and methods. Criminal
syndicates operating internet websites from distant
countries are an extremely difficult problem. These
overwhelming problems have led to the state and federal
government adopting new approaches in their statutes.
The federal government passed Title IX of the Organized
Crime Control Act of 1970, better known as the Racketeer
Influenced and Corrupt Organization Act (RICO). The
Supreme Court of the United States has recognized: “[i]t
is the purpose of this Act to seek the eradication of
organized crime in the United States . . . by providing
enhanced sanctions and new remedies to deal with the
unlawful activities of those engaged in organized crime.”
Russello v. United States, 464 U.S. 16, 27 (1983) (citation
and internal quotation marks omitted). In 2006, Congress

18a
enacted the Unlawful Internet Gambling Enforcement
Act, a powerful tool for prosecution of illegal internet
gambling. 31 U.S.C. §§ 5361-5367.
The Commonwealth of Kentucky passed KRS 506.120,
entitled “[e]ngaging in organized crime,” in 1978.
Subsection (4) of that statute provides that:
[a]s used in this section, ‘criminal gang
syndicate’ means three (3) or more persons
acting as a part of or members of a criminal
gang in collaborating to promote or engage
in any of the following on the continuing
basis: . . . (d) any gambling offense as
defined in KRS 411.090, KRS chapter 528,
or section 226 of the Constitution . . . .
Under this statute, the corporate defendant’s fine may be
up to double the defendant’s gain. KRS 500.090(2)
provides that “[m]oney which has been obtained or
conferred in violation of any section of this code shall, on
conviction, be forfeited for use of the state[;]” Kentuckians
lost at least $290,230,077.94 that would be forfeited to the
State under the statutes. If that amount is added to a
potential fine of double the defendant’s gain it would total
$870,690,233.82—the exact amount that the court
awarded in the final judgment in this case. This makes it
clear that the judgment in this case is an appropriate
amount to deter illegal gambling by a criminal syndicate
rather than some incentive for the Commonwealth “to
enforce its own laws.”
5. PokerStars’ Illegal Online Gambling Harms the
Commonwealth
The Court of Appeals’ contention that the Legislature
intended victims’ families—to the exclusion of the

19a
Commonwealth—to recover these treble damages is illconceived. The loser has exclusive rights to sue within six
months of payment of his losses from the winner or his
transferee under the provisions of KRS 372.020. “Any
person entitled to recovery under KRS 372.020 may have
discovery and relief in equity; but when such relief is
obtained, the winner shall be discharged from all penalty
and forfeiture for having won the money . . . .” KRS
372.030. Under the provisions of KRS 372.040, “any other
person may sue the winner” if the loser or his creditor
does not within six months after payment or delivery to
the winner.
If the loser or his creditor sues, then the
Commonwealth’s right to proceed against the winner or
his transferee is extinguished. PokerStars failed to assert
the defense that anyone had ever successfully sued to
recover any money lost on their website in any wager. In
the statute, the Legislature clearly provided for action
against the winner by providing that only the loser could
file a lawsuit against the winner for the first six months.
Any restrictions on who could file after six months is in
clear contradiction with the plain language of the statute.
According to the Court of Appeals’ logic, the statutory
language allows a stranger to the illegal gambling
transaction to recover so long as he or she is a “natural
person.” There is no requirement the triple recovery
benefit anyone who was harmed by the gambling loss. As
noted, the Legislature could have easily limited recovery
to the family of the gambler; however, it did not. As it is,
the Court of Appeals’ decision would restrict a person (the
Commonwealth) who has suffered tangible harm due to
the gambling losses of its citizens from recovering under
the statute.

20a
In Purdue Pharma, 704 F.3d 208, the federal court
recognized the state could sue to recover for damages
done to its citizens. This trend is followed by many states
in attempting to deal with the drug epidemic. The
Commonwealth of Kentucky also received money as
compensation from a federal lawsuit against the tobacco
companies for damages done to its citizens. As this Court
has explained:
To resolve threatened litigation, forty-six
states, six other jurisdictions and several
tobacco companies entered into a Master
Settlement Agreement, (MSA). An element
of the agreement provided that the
Commonwealth of Kentucky would receive
$3.45 billion over a period of twenty-five
years. By the terms of the agreement, the
Commonwealth of Kentucky was required
to file suit naming Phillip Morris, Inc.,
Brown & Williamson Tobacco Corp.
(individually and as successor by merger to
The
American
Tobacco
Company),
Lorillard Tobacco Company, R.J. Reynolds
Tobacco Co., Liggett Group, Inc., and
United States Tobacco Company, (Tobacco
Companies), as defendants. The lawsuit
was filed in the Franklin Circuit Court and
was dismissed by agreement with prejudice
three days later. The Circuit Court entered
a Consent Decree and Final Judgment
approving the M.S.A. and retaining
jurisdiction over the case to ensure
compliance.
Arnold v. Commonwealth ex rel. Chandler, 62 S.W.3d 366,

21a
367-68 (Ky. 2001).
Even assuming the General Assembly’s intent was to
limit recovery to victims, there is no doubt the
Commonwealth of Kentucky is harmed by illegal internet
gambling.
The Commonwealth is the people—and
Kentuckians and their families are harmed by the impact
of illegal gambling, not to mention the government funds
that have been expended to address the societal and fiscal
harm caused by PokerStars.
A report on a 2008 telephone survey conducted by the
University of Kentucky Survey Research Center
indicated there were 9,000 addicted gamblers, 51,000
problem gamblers, and 190,000 who were at risk of
developing a gambling addiction in Kentucky. In fact, the
“social cost to Kentucky from gambling addiction” is a
minimum of $81,000,000 per year. Annual Report,
Kentucky Council for Problem Gambling, Out of the
Shadows, Problem Gambling: From Hidden Addiction to
Public
Awareness
(Dec.
14,
2020),
https://www.kycpg.org/wp-content/uploads/2017/05/20thAnnual-Report-1.pdf. This estimate is based on the
minimum estimated social harm by the 9,000 addicted
gamblers without consideration of any increase caused by
the ease of availability of gambling on PokerStars internet
website or the 51,000 problem gamblers and 190,000 at
risk of developing gambling addiction. The gamblers who
developed an addiction while using the PokerStars
website are likely to be an ongoing cost of the state for
years after PokerStars ceases operations in Kentucky.
In 1996, the United States Senate Committee on
Governmental Affairs held a hearing based on the findings
of the Gambling Impact Study Commission. The Senate
particularly considered the impact of gambling on

22a
teenagers and young adults. “[G]ambling is the fastest
growing teenage addiction, with the rate of pathological
gambling among high school and college-age youth about
twice that of adults.” Id. According to Howard J. Shaffer,
director of the Harvard Medical School Center for
Addiction Studies, “there are more children experiencing
adverse symptoms from gambling than from drugs . . . and
the problem is growing.” Id.
The laws in Atlantic City restrict casino gambling to
people twenty-one years of age or older. In spite of these
laws, a survey of teenagers at Atlantic City High School
revealed that 64% had gambled in a local casino. Even
more shocking, 40% had done so before the age of
fourteen. Id. Atlantic City casino security personnel
report ejecting about 20,000 minors every year. Id. When
you add the attractiveness of quick, easy-access internet
gambling to the fact that the victims of problem gambling
or gambling addiction are younger and younger, you end
up with a recipe for disaster in the Commonwealth.
Problem gamblers and gambling addicts, desperate to
pay off mounting gambling debt, often turn to the
commission of felonious financial crimes such as
“embezzlement, check kiting, tax evasion, and credit card,
loan, and insurance fraud.” Id. The cost to the
Commonwealth just to incarcerate the perpetrators would
be astronomical. A Florida study conducted to evaluate
the impact of legalizing casinos found, “[n]ot counting the
cost of prosecution, restitution, or other related costs,
incarceration and supervision costs alone for problem
gambler criminal incidents could cost Florida residents
$6,080,000,000.” Id.
Often, the state must use its limited resources to help
individuals and their families who have lost funds to illegal

23a
gambling through social welfare programs. From the
bankruptcy or death by suicide of its citizens to otherwise
law-abiding citizens turning to crime to keep up their
gambling addictions, the Commonwealth has certainly
faced real and tangible harm from PokerStars’ years of
illegal internet gambling in the state.
The statute allows any person apart from the loser to
sue to recover three times the amount lost to illegal
gambling. How, then, could the Commonwealth of
Kentucky be excluded from suing to protect both its
citizenry and its public purse? Indeed, it is difficult—if not
outright impossible—to imagine any loser on the
PokerStars internet site who would have the money,
resources, and time to sue PokerStars, particularly when
it is located on the Isle of Man and its founder has been a
fugitive from justice under indictment from the United
States for nearly a decade.
B. PokerStars was a “Winner” in the Poker
Games.
As is apparent from the plain language of the statute,
and as our predecessor Court has held, “[u]nder the terms
of the statute, in order for appellant to recover . . . it was
incumbent upon him to show that Goodman was the
‘winner’ of the money lost by him . . . .” Tyler v. Goodman,
240 S.W.2d 582, 584 (Ky. 1951). As the Seventh Circuit
Court of Appeals has acknowledged: “They say the house
always wins.” United States v. Hill, 818 F.3d 289, 291 (7th
Cir. 2016). This is a widely recognized fact-casinos and
online poker sites like PokerStars would not exist if they
were not “winners.” While PokerStars admits it took a
percentage from the wagers in each of the poker games, it
disputes that taking a rake makes it a “winner” under
KRS 372.040. However, our predecessor Court ruled

24a
otherwise long ago—and the reasoning is as apt today as
it was one hundred thirty years ago:
It is not satisfactorily proven that either of
the appellees ever won any money from the
appellant by playing with him, but it does
satisfactorily appear from the evidence that
the appellees, as partners, owned and run
the poker-room on the corner of Sixth and
Market streets, at which the appellant
played poker with divers[e] gentlemen
assembled there for that purpose; and at
each game a certain per cent. of the winning
was taken by the appellees, out of which was
defrayed the expenses of the players for
suppers, cigars, etc., and the balance of the
per cent., sometimes amounting to as much
as $50 a night, went to the appellees, as
partners, as profits. This per cent., or “take
out,” as it is called, is a part of the loser’s
losses. So the question is, does the taking of
this per cent. make the appellees jointly
interested in the winnings as wrong-doers,
so as to make them winners of the
appellant’s money in the sense of the
statutes, supra? We do not understand that
the winner, in the sense of said statutes,
must be one of the players with cards in his
hands; but if he is to receive a per cent. of
the winnings by the actual player, he is, in
the sense of the statute, a winner.
According to an arrangement with the
players and himself, he is to receive a part
of the winnings as his profits. Why should

25a
he not be regarded as a winner in the sense
of the statute?
He certainly has a
community of interest in the stakes with
whoever wins; and this interest is the result
of an arrangement with all the players, and
this arrangement and division makes him a
joint wrong-doer with the winner, it makes
no difference which one it may be. If by an
arrangement the winning was divided
between the actual player and another,
there is no doubt that the latter would be
responsible as a joint wrong-doer for the
whole sum won as a winner. Here the
arrangement does not make him a partner
with any particular player as against the
others; but it does make him jointly
interested with the winner, in the stakes. It
is true that he may be indifferent as to which
will be the winner; but as soon as one or the
other has won, the arrangement gives him a
joint interest in the winnings with the actual
player, which makes him, in the sense of the
statute, a winner. It is not to be understood
that the actual winner cannot recover from
him said per cent. of his own stakes; but this
is so because the statute gives the remedy
against him in the sense that he is a winner,
even from the successful player; but
nevertheless he is jointly interested with the
winner in the loser’s losses, which makes
him responsible for them as a wrong-doer.
It is not the extent, but the community, of
interest
that
makes
wrong-doers
responsible for the whole wrong. If each is

26a
to receive a certain amount of the result of
the unlawful enterprise, this gives them
such a community of interest as to render
each responsible for the whole amount
received.
Triplett v. Seelbach, 14 S.W. 948, 949 (Ky. App. 1890).
Seven years later, our predecessor Court faced the
same issue in White v. Wilson’s Adm’rs, 38 S.W. 495, 49697 (Ky. 1897). There, we held: “[i]n our judgment,
appellant was a joint wrongdoer with the winners . . . , in
that he had an interest in the winnings, no matter how
small. . . . [I]f Wilson had paid his losses at the time they
were incurred to the various winners, he might have
recovered them from White.” Id.
The statute the Court interpreted in Triplett and
White is identical to that in the present case. In Triplett,
the partners took a percentage of the winnings—just as
PokerStars does. In White, it was a manager who acted in
concert with a gambler. Just as in Triplett and White, the
persons who took the percentage were sued rather than
the poker players in the game. The only discrepancy
between the cases is that, in the case at bar, the
Commonwealth is the “person” suing to recover the
amounts lost. Since we have already determined the
Commonwealth is a “person” pursuant to the statute, this
is a distinction without a difference.
PokerStars fails to cite any contradictory precedent on
this issue from this Court or its predecessor. Instead, it
cites to a federal district court in New Jersey which held
in an unpublished case, “[i]n Kentucky, only the “winner”
of money from a gambling loser is liable under the
statute.” Humphrey v. Viacom, Inc., 06 2768 DMC, 2007

27a
WL 1797648, at *10 (D.N.J. June 20, 2007) (citing Tyler v.
Goodman, 240 S.W.2d 582, 584 (Ky. 1951)). However, in
spite of this citation, our predecessor Court did not depart
from its precedent in Tyler. Rather, in that case, the
Court made it clear that only “winners” may be sued
under the statute but did not change the definition of
winner Kentucky’s courts has followed for over 100
years—the house taking a rake or percentage of the pot is
a winner. There was simply no proof the individual sued
(Goodman) was a winner. As the Court stated:
There was no attempt to show that
Goodman paid the rent on the premises
used as the handbook, or that he owned any
of the gambling paraphernalia, or exercised
any control or supervision over the
gambling operations. There is no testimony
that he was ever in the gambling quarters,
or that he accepted any of appellant’s bets,
or received any of the money lost by
appellant.
Id. at 583.
Further relying on our precedent that a party who
takes any part of a rake is a winner, we continued with our
analysis in Tyler, concluding, “in the absence of proof that
he received, either directly or indirectly, some part of
the money lost by appellant, the court was not
authorized to enter a judgment against him.” Id. at 584
(emphasis added). Whatever point the New Jersey
federal district court was making by its reliance on Tyler,
the case did not change the definition of winner followed
by Kentucky courts for over one hundred years. Based on
PokerStars’ conspiracy with the winning players to violate
the laws of the Commonwealth of Kentucky, PokerStars

28a
is a winner under the Loss Recovery Act. We do not
abandon precedent merely on the basis of its age and see
no valid reason to reverse these cases today. PokerStars
took a portion of the money lost by Kentuckians in the
illegal online real-money poker games. Therefore, they
were a “winner” under KRS 372.040.
Our Court has interpreted winners to include
individuals who take any portion of the amount lost since
at least 1890. PokerStars is charged with knowledge of
the law. Both the plain language of our statutes and the
precedent from our predecessor Court gave PokerStars
notice of the state of the law in the Commonwealth.
“There is a maxim as old as the law itself,
ignorantia
legis
neminem
excusat,
‘ignorance of the law excuses no one’, 42
C.J.S. page 380. This is a rule of necessity,
otherwise ignorance of the law would
furnish immunity from punishment for
violations of the Criminal Code and
immunity from liability for violations of
personal and property rights.
Freeman v. Louisville & Jefferson County Planning &
Zoning Com’n, 214 S.W.2d 582, 583 (Ky. 1948).
C. Amount and Calculation of Damages
PokerStars makes several claims regarding the
amount and calculation of damages awarded, including
that the award violates the excessive fines and due process
clauses of the United States and Kentucky Constitutions
and that the measure of damages violates Kentucky
precedent. We disagree. First, as PokerStars points out,
civil penalties are treated as fines for constitutional
inquiries. United States v. Bajakajian, 524 U.S. 321, 334

29a
(1998). Fines do not violate the excessive fines clause of
the Eighth Amendment of the United States Constitution
or Section Seventeen of the Kentucky Constitution unless
they are disproportionate. Id. Here, the award was
proportionate to the amount of money lost by Kentucky
gamblers in five years on the PokerStars site. In fact, it is
exactly that amount, times three, as calculated based on
PokerStars’ records. This “fine” is not excessive and is the
very definition of mathematically proportionate.
PokerStars also argues its right to due process was
violated, as the Kentucky law was not clear and presented
an “open question.” However, PokerStars’ argument is
belied by the fact that the statutes are clear that
PokerStars actions were illegal, the violated the laws of
the Commonwealth of Kentucky, and for over one
hundred years the courts had defined taking a rake or
percentage of winnings as being a winner under the Loss
Recovery Act. PokerStars ignored a 2008 order from the
Franklin Circuit Court ordering it to cease and desist
internet gambling operations as to Kentucky-based
players. Instead of obeying that court order, PokerStars
continued its criminal enterprise to the detriment of
Kentuckians until its assets were frozen by the federal
government. Furthermore, it is clear both the past and
current owners of PokerStars had full knowledge of a
potential substantial recovery in Kentucky since the
purchase contract included an indemnification clause
specifically referencing the Kentucky litigation. The fact
that PokerStars did not believe Kentuckians actually
would recover the funds to which they were statutorily
entitled does not amount to a due process violation.
PokerStars also argues the manner in which the trial
court calculated damages in this case was contrary to

30a
precedent. We disagree. Kentucky has never calculated
an operator’s “fine” in terms of its rake, as PokerStars
now insists we must. The plain language of the statute
states “any other person may sue the winner, and recover
treble the value of the money or thing lost.” That is
precisely the amount of damages, based on PokerStars’
own records, the trial court awarded.
PokerStars argues that if this Court will not base any
award on the amount of the rake, we should base it on the
amount the individual players’ losses offset by their wins.
While we would offset the parties’ losses if they were both
players, that is not the case herein. See Elias v. Gill, 18
S.W. 454 (Ky. 1892). Here, as noted above, PokerStars
was a winner who took a percentage of the wagers in any
given game. As such, it is liable for the entire amount lost.
PokerStars argues this amounts to joint and several
liability, which Kentucky has abandoned in favor of
comparative fault. While we agree that is the case in tort
claims, this is no such claim; and, as our precedent makes
clear, the award is not based on the amount of the
“winnings” claimed. It is based on the fact that
PokerStars acted in concert with the winning player.
PokerStars could have filed a claim against the winning
players for the losses it incurred as a result of this suit;
however, the statute of limitations has passed for any such
action. PokerStars refused to comply with discovery of
the identity of the players for five years, which prevented
the Commonwealth of Kentucky from suing the individual
players until the five-year period for filing a lawsuit had
passed. PokerStars’ choices required that it pay the full
amount under the Loss Recovery Act because it chose to
form an illegal internet criminal gambling syndicate,
violated court orders to stop, and hid the identity of the co-

31a
conspirators until they could no longer be sued under the
Loss Recovery Act.
PokerStars argues it is improper for the
Commonwealth to file one suit in which all the losses are
aggregated without pleading specific facts about
particular losses. However, there is no prohibition against
this in either the statute or our caselaw. The amount of
recovery was based on PokerStars’ records regarding
individual players’ losses within a twenty-four-hour
period, which is exactly what is envisioned by the statute.
We recently addressed Kentucky’s pleading standard
at length in Russell v. Johnson & Johnson, Inc., 2019-SC0118-DG, 2020 WL 6390218, at *4-5 (Ky. Oct. 29, 2020):
“Kentucky is a notice pleading
jurisdiction, where the ‘central purpose of
pleadings remains notice of claims and
defenses.’” Pete v. Anderson, 413 S.W.3d
291, 301 (Ky. 2013) (citing Hoke v. Cullinan,
914 S.W.2d 335, 339 (Ky. 1995)).
In
accordance with Kentucky Civil Rule
8.01(1), “[a] pleading which sets forth a
claim for relief . . . shall contain (a) a short
and plain statement of the claim showing
that the pleader is entitled to relief and (b) a
demand for judgment for the relief to which
he deems himself entitled.” As interpreted
by this Court, “[i]t is not necessary to state
a claim with technical precision under this
rule, as long as a complaint gives a
defendant fair notice and identifies the
claim.” Grand Aerie Fraternal Order of
Eagles v. Carneyhan, 169 S.W.3d 840, 844
(Ky. 2005) (citing Cincinnati, Newport, &

32a
Covington Transp. Co. v. Fischer, 357
S.W.2d 870, 872 (Ky. 1962)).
Importantly, “[w]e no longer approach
pleadings searching for a flaw, a technicality
upon which to strike down a claim or
defense, as was formerly the case at
common law.” Smith v. Isaacs, 777 S.W.2d
912, 915 (Ky. 1989). When reviewing a
complaint to determine whether it states a
cause of action, it “should be liberally
construed.” Morgan v. O’Neil, 652 S.W.2d
83, 85 (Ky. 1983). Our liberal pleading
standard was recently demonstrated when
we held that a complaint “couched in
general and conclusory terms, complied
with CR 8.01(1).” KentuckyOne Health,
Inc. v. Reid, 522 S.W.3d 193, 197 (Ky. 2017).
Applying Kentucky’s well-established
notice pleading principles, we hold
Appellant’s complaint alleged a sufficient
cause of action to survive a motion for
judgment on the pleadings. We refuse to
mandate a heightened pleading standard
and, therefore, reiterate Kentucky’s
requirement of bare-bones, notice pleading.
Kentucky Civil Rule (CR) 8.01(1) allows just the sort
of pleadings the Commonwealth filed below.
Any
information the Commonwealth lacked was due to
PokerStars’ withholding of information regarding the
players and their wins and losses. The Commonwealth
met our bare-bones notice pleading standards.
Finally, PokerStars argues:

33a
Adopting the Secretary’s view would raise
significant constitutional and procedural
fairness concerns, particularly in light of the
U.S. Supreme Court’s recent recognition
that government use of fines and forfeitures
as “a source of revenue” creates a
temptation to impose them “in a measure
out of accord with the penal goals of
retribution and deterrence.” Timbs v.
Indiana, 139 S. Ct. 682, 689 (2019).
We are mindful that Timbs reiterates the Supreme Court
of the United States’ stance that the Excessive Fines
Clause is applicable to the states. However, as the fine
was not disproportionate, there was no violation. Many of
our statutes call for treble damages. This is not a
disproportionate award.
The Commonwealth’s recovery in this case is certainly
not a windfall, as the Court of Appeals seems to assume;
rather, it is a recoupment of some portion of the countless
dollars the criminal syndicate has cost Kentucky
collectively and Kentuckians individually.
The
Commonwealth of Kentucky suffered financial losses
along with the tragic damage to its citizens. Mental and
physical healthcare systems that care for the citizens
harmed by the illegal gambling are supported in part by
the state. Money sent to offshore gambling accounts is
lost and the state deprived of the taxes to which it is
entitled. The cost to prosecute and incarcerate individuals
who resort to crime to support their gambling is a huge
cost on Kentucky’s strained and overextended penal
system. The Commonwealth of Kentucky has losses due
to PokerStars’ illegal internet gambling criminal
syndicate. The amount recovered in this case may not

34a
cover the actual cost suffered by the Commonwealth of
Kentucky.
III. CONCLUSION
For the foregoing reasons, we reverse the Court of
Appeals and reinstate the judgment of the trial court.
All sitting. Keller, Lambert, and Nickell, JJ., concur.
VanMeter, J., dissents by separate opinion, in which
Minton, C.J., and Hughes, J., join.
VANMETER, J., DISSENTING: I respectfully
dissent. The majority opinion sets forth compelling policy
reasons why we should reverse the Court of Appeals and
reinstate the Franklin Circuit Court judgment. While I
might agree with many of those policy reasons, the
remedy sought must be authorized in the statutes enacted
by our legislature. In Tyler v. Goodman, 240 S.W.2d 582,
584 (Ky. 1951), our predecessor court noted that
“appellant’s right to recovery depends solely on [statutory
authority]. At common law money lost at gaming could
not be recovered.” (citing Craig v. Curd, 309 Ky. 549, 218
S.W.2d 395 (1949)).
This case involves an issue of statutory construction:
whether the Commonwealth of Kentucky qualifies as a
“person” under KRS 372.010 to 372.050, 2 specifically KRS
These statutes have been referred to as Kentucky’s Loss
Recovery Act. This designation is perhaps misleading in view of their
historic origins. Statutes prohibiting gambling, or gaming, came to
Kentucky via its Virginia parentage. See 1 Morehead & Brown,
Digest of the Statute Laws of Kentucky (1834) 749 (An Act to
suppress excessive Gaming. Henning Stats. at Large, vol. X, p. 205).
The ability of the loser, or any other person, to sue to recover the
losses was statutorily authorized at least as early as 1798. 2 Littrell,
2

35a
372.040, to have standing to bring a third-party claim
against online gambling companies.
The portions of the Act upon which the Commonwealth
relied in bringing suit include KRS 372.020, which
provides a losing gambler with a first-party cause of action
to recover any losses suffered. It states:
If any person loses to another at one (1)
time, or within twenty-four (24) hours, five
dollars ($5) or more, or anything of that
value, and pays, transfers or delivers it, the
loser or any of his creditors may recover it,
or its value, from the winner, or any
transferee of the winner, having notice of
the consideration, by action brought within
five (5) years after the payment, transfer or
delivery. Recovery may be had against the
winner, although the payment, transfer or
delivery was made to the endorsee,
assignee, or transferee of the winner. If the
conveyance or transfer was of real estate, or
the right thereto, in violation of KRS
372.010, the heirs of the loser may recover it
back by action brought within two (2) years
after his death, unless it has passed to a
purchaser in good faith for valuable
consideration without notice.
KRS 372.020.
If a losing gambler fails to bring a recovery action
Statute Law of Kentucky 103 (1810). The statutes now comprising
KRS 372.010 to 372.050 are almost verbatim reenactments of
provisions contained within the legislature first codification of the
Commonwealth’s statutes. Rev. Stat. ch. 42 §§ 1-5 (Ky. 1852).

36a
under KRS 372.020 within six months, KRS 372.040
permits a third-party cause of action for “any other
person” and allows for the recovery of treble
damages. It states:
If the loser or his creditor does not, within
six (6) months after its payment or delivery
to the winner, sue for the money or thing
lost, and prosecute the suit to recovery with
due diligence, any other person may sue
the winner, and recover treble the value of
the money or thing lost, if suit is brought
within five (5) years from the delivery or
payment.
KRS 372.040 (emphasis added).
KRS 372.020 is virtually identical to the version
enacted by the legislature in 1852. See Rev. Stat. ch. 42,
§ 2 (Ky. 1852). KRS 372.040 has a similar provenance
in Rev. Stat. ch. 42 § 4 (Ky. 1852), with one notable
exception. The 1852 version provided:
If such loser or his creditor do not sue
for the money or thing lost, within six
months after its payment or delivery, and
prosecute the suit to recovery with due
diligence, any other person may sue the
winner and recover treble the amount or
value of the money or thing lost, if suit be so
brought within five years from the delivery
or payment.
One-half of what is so recovered
shall be for the person suing, and the
other half for the commonwealth. The
loser, creditor or other person first suing,

37a
after the six months, to have the
preference, if the suit be prosecuted to
recovery with due diligence.
In 1873, the legislature amended the gaming statutes
to delete from this section the recovery benefit to the
Commonwealth. Gen. Stat. ch. 47, Art. I, § 4. That same
year, it amended the gambling forfeiture statute to
mandate that all seized property be retained by the
Commonwealth, as opposed to the prior version that
allowed a private seizor to retain half of the seized
property. Compare Rev. Stat. ch. 42 § 6 (Ky. 1852) with
Act of 1873, Gen. Stat. Ch. 47, Art. 1, § 6 (Bullitt & Feland
1877). The legislative intent for both amendments would
seem to clarify the available recovery: it saw fit to provide
exclusively to the Commonwealth the certain recovery of
money or tangible items seized under the forfeiture
provision, while providing the less certain recovery,
following a lawsuit, to private persons.
Had the
legislature intended to confer on the Commonwealth
standing to sue or collect under the recovery section, it
could have easily done so. 3
This interpretation is supported by Perrit v. Crouch,
Just as the gambling recovery statutes have continued to the
present, so have the property seizure statutes. KRS 500.090(2)
provides that “[m]oney which has been obtained or conferred in
violation of any section of this code shall, upon conviction, be forfeited
for use of the state[;]” KRS 528.020 and KRS 528.030 make it illegal
to knowingly advance or promote illegal gambling; and KRS 528.100
provides that gambling devices or records used in illegal gambling be
forfeited to the Commonwealth. See also Gilley v. Commonwealth,
312 Ky. 584, 587, 229 S.W.2d 60, 63 (1950) (“Money may be subject to
seizure along with gambling devices, when the circumstances make it
clearly apparent the money formed an integral part of the illegal
gambling operation[]”).
3

38a
68 Ky. 199 (1868).
In Perrit, a father and the
Commonwealth brought a joint action under Rev. Stat. ch.
42, § 4 [KRS 372.040] to recover the son’s gambling loses.
This was before the 1873 amendment, so that the
Commonwealth was entitled to one-half of any recovery.
Apparently, the defendant challenged the joint petition, as
to which the court held: “[t]here is no misjoinder in the
petition. The relator and the Commonwealth being
equally entitled to the recovery, the joinder of both as coplaintiffs was proper[.]” 68 Ky. at 205. In other words,
after the legislature amend the statute in 1873, the
Commonwealth, no longer being entitled to any recovery,
was no longer a proper plaintiff.
KRS 446.010 provides definitions for statutes
generally, to assist in construing statutes where the words
are not otherwise defined. It states in relevant part, “[a]s
used in the statute laws of this state, unless the context
requires otherwise: . . . (33) “Person” may extend and be
applied to bodies-politic and corporate, societies,
communities, the public generally, individuals,
partnerships, joint stock companies, and limited liability
companies[.]” (emphasis added).
“May” is clearly
permissive. KRS 446.010(26); Hardin Cty. Fiscal Court
v. Hardin Cty. Bd. of Health, 899 S.W.2d 859, 861 (Ky.
App. 1995) (holding that “[i]t is elementary that ‘may’ is
permissive”). While the majority opinion states that the
legislature “plainly expressed that it meant to confer
standing on all the kinds and classes of ‘person[s] listed in
KRS 446.010(33) without exception[,]” our case law has
not recognized that broad interpretation. In Moore v.
Settle, 82 Ky. 187 (1884), a wife sued under Gen. Stat. ch.
47, art. 1, § 4 [KRS 372.040] to collect her husband’s
gambling losses. Clearly, she was a person to whom the

39a
statute should provide a remedy.
However, and
notwithstanding the broad language of “any other
person,” the court held a married woman had no right to
sue in her own name. 4
“The cardinal rule of statutory construction is that the
intention of the legislature should be ascertained and
given effect.” Cabinet for Human Res., Interim Office of
Health Planning & Certification v. Jewish Hosp.
Healthcare Servs., Inc., 932 S.W.2d 388, 390 (Ky. App.
1996). Additionally, when the language of a statute is clear
and unambiguous on its face, we are not free to construe
it otherwise even though such construction might be more
in keeping with the statute’s apparent purpose. Whittaker
v. McClure, 891 S.W.2d 80, 83 (Ky. 1995). “We presume
that the General Assembly intended for the statute to be
construed as a whole, for all of its parts to have meaning,
and for it to harmonize with related statutes.” Shawnee
Telecom Res., Inc. v. Brown, 354 S.W.3d 542, 551 (Ky.
2011). And “[w]e presume that the legislature intends to
make a change in existing law by enacting an
amendment.” Smith v. Teachers’ Ret. Sys., 515 S.W.3d
672, 678 (Ky. App. 2017).
The majority opinion largely ignores the historical
context and case law interpreting KRS 372.010 to 372.050,
which, save for the important 1873 amendment, are
virtually unchanged since the 1852 statutory codification.
Admittedly this decision was rendered when women’s property
rights were restricted, but it still demonstrates the broad
interpretation advocated by the majority opinion is erroneous. This
holding, furthermore, occurred despite the virtually identical
statutory definition of “person” as contained in KRS 446.010(33), that
permissibly “may extend and be applied to bodies-politic and
corporate, societies, communities, and the public generally, as well as
individuals.” Gen. Stat. ch. 21, § 12 (Ky. 1879).
4

40a
The historical context of the loss recovery section, KRS
372.040, demonstrates that the legislature had originally
established an illegal gambling prevention regimen to
spread benefit between private individuals and the
Commonwealth. The legislature, in the 1870s, changed
that regimen, and that structure has continued to the
present in KRS 372.010 to 372.050. Since the legislature
deleted the recovery in favor of the Commonwealth, we
are not at liberty to reinsert it under the guise of statutory
construction now. I therefore conclude that within the
context of these statutes, the word “person” only refers to
natural persons and does not include the Commonwealth
as a body-politic. 5
I would affirm the Court of Appeals decision.
COUNSEL FOR APPELLANT/CROSS-APPELLEE:
James Lee Deckard
William Cecil Hurt, Jr.
William Harvey May
Hurt, Deckard & May, PLLC
COUNSEL FOR APPELLEE/CROSS-APPELLANT:
Sheryl G. Snyder
Griffin Terry Sumner
Theresa Agnes Canaday
Jason Patrick Renzelmann
Frost Brown Todd LLC
This interpretation is further supported by the fact that no one,
not the majority, the trial court, or the Commonwealth, has cited, and
we have not found, any case from 1873 until this case was filed in 2010
in which the Commonwealth filed an action under KRS 372.040
seeking recovery.
5

41a
APPENDIX B

Commonwealth of Kentucky
Court of Appeals
NO. 2016-CA-000221-MR
STARS INTERACTIVE
HOLDINGS (IOM) LTD.,
F/K/A AMAYA GROUP
HOLDINGS (IOM) LTD.;
AND RATIONAL
ENTERTAINMENT
ENTERPRISES LTD.

v.

APPELLANTS

APPEAL FROM FRANKLIN CIRCUIT
HONORABLE THOMAS D. WINGATE,
JUDGE
ACTION NO. 10-CI-00505

COMMONWEALTH OF
KENTUCKY EX REL.
JOHN TILLEY,
SECRETARY, JUSTICE
AND PUBLIC SAFETY
CABINET

APPELLEE

OPINION
REVERSING AND REMANDING
** ** ** ** **

42a
BEFORE:
JUDGES.

ACREE,

JOHNSON, 1

AND

JONES,

JONES, JUDGE: Appellee, the Commonwealth of
Kentucky ex rel. John Tilley, Secretary, Justice and
Public Safety Cabinet (“the Commonwealth”), initiated
the underlying action in Franklin Circuit Court against
numerous entities seeking to recover treble damages
under Kentucky’s Loss Recovery Act (the “LRA”). 2 After
extensive motion practice and a multitude of discovery
issues, the Franklin Circuit Court entered an order
finding Appellants, Stars Interactive Holdings (IOM)
Limited f/k/a Amaya Group Holdings (IOM) Limited
(“Amaya”) and Rational Entertainment Enterprises
Limited (“REEL”), liable to the Commonwealth in the
amount of $870,690,233.82. Amaya and REEL now
appeal. Following review of the record, applicable law,
and oral arguments, we REVERSE and REMAND for
the reasons more fully explained below.
I. BACKGROUND
The procedural history of this case is long and
somewhat complicated. Accordingly, we recite only the
facts and procedural history relevant to the parties to this
appeal.
In March of 2010, the Commonwealth filed a complaint
against Pocket Kings, Ltd. and “Unknown Defendants”
seeking recovery for the Commonwealth under the LRA.
The provisions of the LRA relied on by the
Commonwealth state as follows:
Judge Robert G. Johnson dissented in part and concurred in part in
this opinion prior to the expiration of his term of office. Release of the
opinion was delayed by administrative handling.

1

2

Kentucky Revised Statutes (“KRS”) 372.005-050.

43a
If any person loses to another at one (1)
time, or within twenty-four (24) hours, five
dollars ($5) or more, or anything of that
value, and pays, transfers, or delivers it, the
loser or any of his creditors may recover it,
or its value, from the winner, or any
transferee of the winner, having notice of
the consideration, by action brought within
five (5) years after the payment, transfer or
delivery. . . .
KRS 372.020.
If the loser or his creditor does not, within
six (6) months after its payment or delivery
to the winner, sue for the money or thing
lost, and prosecute the suit to recovery with
due diligence, any other person may sue the
winner, and recover treble the value of the
money or thing lost, if suit is brought within
five (5) years from the delivery or payment.
KRS 372.040.
Thereafter, the Commonwealth filed a number of
amended complaints, each of which added various online
poker playing forums and casinos, as well as some
individuals, as party defendants. On November 2, 2011,
the Commonwealth filed a third amended complaint
adding, among others, PYR Software Ltd. (“PYR”),
Oldford Group Ltd. (“Oldford”), and REEL (collectively
referred to as the “PokerStars Defendants”). The third
amended complaint alleged that the PokerStars
Defendants were three of several entities used to conduct
business for PokerStars, an Internet poker company that
provided real-money gambling on Internet poker games

44a
to Kentucky residents. The Commonwealth alleged that
when PokerStars hosted these online poker games, the
PokerStars Defendants took a percentage of the amount
bet, won, or lost as the “rake” or “commission” for hosting
the poker games. The Commonwealth contended that
thousands of Kentucky residents had lost five dollars or
more, either at one time or within 24 hours, while playing
on the PokerStars websites. Therefore, those residents
were considered “losers” under KRS 372.020.
Additionally, the Commonwealth contended that
receiving a “rake” from the games played qualified the
PokerStars Defendants as “winners” under the statute.
As the Commonwealth believed none of the Kentucky
“losers” had brought a claim under KRS 372.020, it
contended that it was entitled to collect trebled damages
from the PokerStars Defendants pursuant to KRS
372.040. Like the prior complaints, the Commonwealth’s
third amended complaint was generic insomuch as it did
not identify the specific transactions at issue, the names
of any affected Kentucky residents, the specific locations
the gambling took place within this Commonwealth, the
amounts bet, or any specific information of the like.
On January 11, 2013, REEL filed a motion to dismiss
the third amended complaint or in the alternative, a
In its
motion for a more definite statement. 3
memorandum accompanying the motion, REEL argued
that the Secretary, acting as relator for the
Commonwealth, lacked standing to pursue a claim against
REEL under the LRA and that the third-amended
The Commonwealth had great difficulty obtaining service on the
PokerStars Defendants as none were located or had agents within the
United States. As a result, REEL and PYR were not served with the
third amended complaint until November 27, 2012.

3

45a
complaint failed to satisfy the notice pleading
requirements of CR 4 8.01. On January 22, 2013, PYR filed
a motion to dismiss the third amended complaint or, in the
alternative, for a more definite statement. PYR’s motion
adopted and incorporated by reference the motion to
dismiss filed by REEL.
In its response to the motions to dismiss, the
Commonwealth noted that other defendants in the case
had previously asserted standing and insufficiency of
pleading arguments, which the circuit court had rejected.
Accordingly, the Commonwealth incorporated by
reference its earlier memoranda to the court. In those
memoranda, the Commonwealth maintained that the
allegations in its complaint were sufficient under CR 8.01,
as KRS Chapter 372 does not require a heightened
pleading standard, and that the Commonwealth had
standing to bring the claims as “any other person” under
KRS 372.040. Following a hearing, the circuit court
denied both motions to dismiss by order entered April 17,
2013, and ordered the parties to proceed with discovery. 5
The Commonwealth obtained service on Oldford on
March 17, 2014. Thereafter, Oldford filed a notice of
removal to federal district court. As grounds for removal,
Oldford contended that the Secretary, in his individual
capacity, was the actual real party in interest in this case,
Kentucky Rules of Civil Procedure.
The vast majority of the proceedings below dealt with noncompliance with discovery requests and orders. While Appellants
take issue with sanctions entered against them for their apparent noncompliance with discovery orders, we are ultimately able to resolve
this appeal without reaching those issues.
Accordingly, the
procedural history of this case relating solely to discovery issues has
been omitted from this opinion.
4
5

46a
not the Commonwealth. Accordingly, Oldford alleged
that diversity of citizenship existed, giving the federal
court jurisdiction under 28 U.S.C. 6 § 1332(a)(2). Once the
case had been removed to federal court, REEL filed a
motion to stay discovery, the Commonwealth filed a
motion to remand to state court and a motion to stay the
proceedings, and Oldford filed a motion to dismiss the
third-amended complaint. By opinion and order dated
March 31, 2015, the federal district court remanded the
case to state court. Commonwealth v. Pocket Kings, Ltd.,
No. 14-27-GFVT, 2015 WL 1480311 (E.D. Ky. Mar. 31,
2015). In its opinion, the federal district court noted the
question of who was the proper real party in interest was
“difficult”; however, it ultimately concluded that the
proper party was the Commonwealth, thereby divesting
the federal district court of jurisdiction. Id. The pending
motions were therefore dismissed as moot. Id. During
the pendency of the case’s removal to federal court, all
PokerStars Defendants were sold to Amaya.
On May 14, 2015, the Commonwealth moved for
partial summary judgment against REEL and Oldford.
The Commonwealth stated that in Oldford’s objections
and answers to the Commonwealth’s first request for
admissions, Oldford had admitted that, between October
12, 2006, and April 15, 2011, residents of Kentucky had
played and lost money on PokerStars’ sites and that
Oldford and REEL had received part, or all, of a “rake”
charged as a fee for hosting the games.
The
Commonwealth contended that Kentucky law on the LRA
was clear: one who receives any part of a losing bet,
including a “rake” charged in a game of poker, was liable
for the full amount of the lost bet. Accordingly, the
6

United States Code.

47a
Commonwealth stated that the only remaining issue to be
decided was the amount of damages owed, and that it was
entitled to judgment as a matter of law on the issue of
liability.
Oldford and REEL filed a joint motion in opposition to
the Commonwealth’s motion for partial summary
judgment.
Therein, they contended that the
Commonwealth’s motion had obscured the numerous
remaining genuine disputes of material fact. Specifically,
Oldford and REEL contended that: while Oldford had
admitted that there were individuals living in Kentucky
who had lost money playing on a PokerStars site, the
Commonwealth had yet to identify any specific “loser”
under the statute; there was still an issue as to whether
poker was a game of skill, as opposed to a game of chance
as used in KRS 528.010(3); and there was still a genuine
issue of fact as to whether the Secretary was legally
authorized to bring claims under the LRA. The parties
further argued that the Commonwealth could not rely on
admissions made by Oldford to prevail on summary
judgment against REEL.
REEL and Oldford
additionally disputed the Commonwealth’s contention
that Kentucky law was clear on their liability under the
LRA.
On June 22, 2015, the circuit court heard the
Commonwealth’s motion for partial summary judgment,
as well as its motion for sanctions against the PokerStars
Defendants for alleged violations of discovery orders. In
support of its motion for partial summary judgment, the
Commonwealth pointed to the admissions Oldford had
made and again stated that Kentucky law on liability
under the LRA was clear. The Commonwealth reminded
the circuit court that it had previously granted partial

48a
summary judgment against another defendant in the
action, Party Gaming, under substantially similar facts.
REEL and Oldford argued that Oldford’s admissions
could not be used to support partial summary judgment
against REEL. Further, REEL and Oldford disagreed
with the Commonwealth that the law was in the
Commonwealth’s favor.
REEL and Oldford
distinguished cases relied on by the Commonwealth,
noted that there was no precedent for the Commonwealth
bringing an action under the LRA, and contended that
there was still a factual issue of whether poker was a game
of chance or a game of skill.
On August 12, 2015, the circuit court entered an order
granting the Commonwealth’s motion for partial
summary judgment on liability, granting the
Commonwealth’s motion for sanctions in part, and
entering default judgment against the PokerStars
Defendants as a sanction. In its order granting partial
summary judgment in the Commonwealth’s favor, the
circuit court first addressed REEL and Amaya’s 7 liability
under the LRA. The circuit court found that, under
Kentucky law, any party who takes a portion of money lost
in gambling is a “winner” under the LRA; this includes
one who takes a rake from a poker game. As Amaya had
admitted that it and REEL received a “rake” from games
played on the PokerStars sites, the circuit court concluded
that they were “winners” under KRS 372.020, despite the
fact that they stood no chance of losing. The circuit court
found that the Commonwealth had the ability to bring its
claims against Amaya and REEL as “any other person”
In July of 2015, the style of the case was changed to reflect Amaya’s
acquisition of the PokerStars Defendants. Oldford’s name was
changed to Amaya. REEL’s name went unchanged.
7

49a
under KRS 372.040 and that Amaya had admitted that
Kentucky residents had played poker on the PokerStars
sites thereby making the Commonwealth’s failure to
identify any specific residents irrelevant. The circuit
court also noted that Amaya and REEL had offered no
persuasive legal authority for their contention that
playing poker could not be considered gambling because
skill predominated over chance. Accordingly, the circuit
court concluded as a matter of law that the
Commonwealth was entitled to partial summary
judgment on the issue of liability.
Thereafter, the parties litigated the issue of damages
before the circuit court. The parties disputed how
damages should be calculated, the reliability of the
Commonwealth’s damages calculation, as well as whether
treble damages should be awarded in this instance.
During this same time period, Amaya and REEL moved
the circuit to reconsider its decision on liability. On
November 20, 2015, the circuit court entered an opinion
and order denying Amaya and REEL’s motion to
reconsider, granting partial summary judgment in favor
of the Commonwealth, and awarding the Commonwealth
$290,230,077.94 in damages. The circuit court reserved
the issue of whether the Commonwealth was entitled to
receive treble damages for a later date. Following
additional motion practice and briefing, on December 23,
2015, the circuit court entered an opinion and order.
Therein, the circuit court clarified its position as to
whether damages recovered under the LRA should
reflect “net” or “gross” losses and concluded that, under
the facts of this case, the Commonwealth was not required
to “net” the losses incurred by Kentucky poker players.
The circuit court ultimately concluded that Amaya and

50a
REEL were liable for the full amount of losses incurred
by Kentucky players because they shared a “community
of interest” with the actual winners. Accordingly, the
circuit court concluded that the Commonwealth was not
required to “net” the winnings it sought to recover and
confirmed its original award of $290,230,077.94. The
circuit court then concluded that treble damages were
mandatory. The circuit court entered a judgment in favor
of the Commonwealth in the amount of $870,690,233.82,
plus post-judgment interest calculated at a rate of 12%
per annum.
Amaya and REEL filed a motion to alter, amend, or
vacate the final judgment and requested the circuit court
make detailed findings of fact. Following a hearing, the
circuit court denied the motion to alter, amend, or vacate
in substance. It did, however, amend its prior judgment
to properly reflect the names of the judgment debtors.
This appeal followed.
II. ANALYSIS
Appellants raise numerous assignments of error as
part of this appeal. The primary argument put forth by
Appellants, and the one we conclude is ultimately
dispositive, is that the circuit court erred as a matter of
law when it denied their motions to dismiss. Appellants
argue that the circuit court should have dismissed the
complaints against them because the Commonwealth/
Secretary does not have standing to sue under the LRA.
Alternatively, Appellants argue that even if the
Commonwealth has standing to sue, its complaint should
have been dismissed because it lacked sufficient detail to
state a valid cause of action against them.

51a
A. The Commonwealth’s Ability to Bring Suit
under the LRA
Much of Appellants’ reasoning as to why the
Commonwealth is not the proper party to bring a suit
under the LRA is based on the text of KRS 372.040, the
purpose of the LRA, its legislative history, and its
interplay with other statutory authority. Before delving
into those arguments, however, we must address and
dispose of Appellants’ argument that the Secretary lacks
authority to bring a claim on behalf of the Commonwealth
as a sovereign.
As grounds for the case’s removal to federal court, the
PokerStars Defendants contended that the proper real
party in interest was the Secretary in his personal
capacity—not the Commonwealth—based on the fact that
the Secretary had retained private counsel and initiated
this action without the authority of the Attorney General.
The federal district court determined that the proper real
party in interest was the Commonwealth because any sum
recovered as a result of this suit would go to
Commonwealth’s treasury, not to the Secretary. Pocket
Kings, Ltd., 2015 WL 1480311 at *7. Following remand,
Amaya and REEL argued that the Secretary cannot bring
this action on the Commonwealth’s behalf. They point out
that no statute gives the Secretary the authority to file suit
on the Commonwealth’s behalf. Instead, the Secretary
relies on an Executive Order issued by the Governor,
which Appellants maintain is insufficient.
Appellants contend that the Governor’s Executive
Order is invalid because it impermissibly expanded the
Secretary’s power. They note that KRS 15A.040 sets out
the duties of the Secretary of the Justice and Public
Safety Cabinet, and bringing suit on behalf of the

52a
Commonwealth is not one of those enumerated duties.
Appellants maintain that bringing suit on behalf of the
Commonwealth is vested exclusively in the Attorney
General.
It is, of course, true that the Attorney General “is the
chief law officer of the Commonwealth of Kentucky and
all of its departments[.]” KRS 15.020. “[N]evertheless,
the General Assembly may withdraw those powers [of the
Attorney General] and assign them to others or may
authorize the employment of other counsel for the
departments and officers of the state to perform them.”
Johnson v. Commonwealth ex rel. Meredith, 291 Ky. 829,
165 S.W.2d 820, 829 (1942). KRS 12.210 gives the
Governor, or any department with the Governor’s
approval, the authority to employ private counsel “to
render legal services for one (1) or more departments,
boards, program cabinets, offices or commissions.” KRS
12.210(2). The Governor, as the chief executive of the
Commonwealth, has the duty and authority to enforce
Kentucky’s laws. KY. CONST. § 81. As the Secretary is a
member of the executive cabinet, KRS 11.065(1), he is
authorized and required to assist the Governor in his
duties. Accordingly, the Governor has the authority to
order the Secretary to bring a suit to enforce the laws of
Kentucky and, under KRS 12.210, the Secretary has the
right to retain private counsel to assist him in so doing.
Having determined that the Secretary has the
authority to bring an action on behalf of the
Commonwealth, we now address Appellants’ claim that
the Commonwealth cannot bring suit under the LRA. The
text of KRS 372.040, the specific provision of the LRA on
which the Commonwealth relies as authority for it to
bring this action, states as follows:

53a
If the loser or his creditor does not, within
six (6) months after its payment or delivery
to the winner, sue for the money or thing
lost, and prosecute the suit to recovery with
due diligence, any other person may sue
the winner, and recover treble the value of
the money or thing lost, if suit is brought
within five (5) years from the delivery or
payment.
(Emphasis added). The Commonwealth contends that it
easily fits within the class encompassed by the phrase
“any other person.” Appellants posit that, while “any
other person” does indeed cover a broad range of “people”
with the ability to sue under the statute, it is limited to the
common meaning of the word “person” – i.e., a natural
person. 8 Of course, KRS Chapter 372 does not define
“person”; if it did, the question would be easily resolved.
“When interpreting statutes, our utmost duty is to
‘effectuate the intent of the legislature.’” Brewer v.
Commonwealth, 478 S.W.3d 363, 371 (Ky. 2015) (quoting
Commonwealth v. Plowman, 86 S.W.3d 47, 49 (Ky. 2002)).
“That intent is perhaps no better expressed than through
the actual text of the statute, so we look first to the words
chosen by the legislature . . . .” Id. When examining the
text, “a court should ‘use the plain meaning of the words
used in the statute.’” Rhodes v. Commonwealth, 417
S.W.3d 762, 765 (Ky. 2013) (quoting Monumental Life
Ins. Co. v. Dep’t of Revenue, 294 S.W.3d 10, 9 (Ky. App.
See Person, BLACK’S LAW DICTIONARY (10th ed. 2014): “1. A human
being.—Also termed natural person; Person, OXFORD LIVING
DICTIONARIES,
http://en.oxforddictionaries.com/definition/person
(last visited Mar. 3, 2018): “1. A human being regarded as an
individual.”
8

54a
2008)). “A fundamental canon of statutory construction is
that, unless otherwise defined, words will be interpreted
as taking their ordinary, contemporary, common
meaning.” Hall v. Hosp. Res., Inc., 276 S.W.3d 775, 784
(Ky. 2008) (quoting United States v. Plavcak, 411 F.3d
655, 660 (6th Cir. 2005)). Additionally, we “must consider
‘the intended purpose of the statute—the reason and
spirit of the statute—and the mischief intended to be
remedied.’” Commonwealth v. Kash, 967 S.W.2d 37, 43
(Ky. App. 1997) (quoting City of Louisville v. Helman, 253
S.W.2d 598, 600 (Ky. 1952)). “The courts should reject a
construction that is ‘unreasonable and absurd’ in
preference for one that is ‘reasonable, rational, sensible,
and intelligent.’” Id. at 44 (quoting Johnson v. Frankfort
& C.R.R., 303 Ky. 256, 197 S.W.2d 432, 434 (1946)). “The
interpretation of a statute is a matter of law.”
Commonwealth v. Garnett, 8 S.W.3d 573, 575 (Ky. App.
1999).
Accordingly, we review the circuit court’s
interpretation de novo, in that we owe no deference to it.
Id.
In finding that the phrase “any other person” as used
in KRS 372.040 includes the Commonwealth, the circuit
court relied on the Court’s application of KRS 446.010(33)
in Commonwealth ex rel. Keck v. Shouse, 245 S.W.2d 441
(Ky. 1952). KRS 446.010 gives general definitions for
words in Kentucky statutes to aid the courts in construing
statutes where the words are not otherwise defined.
Under the statute, the word “person” “may extend and be
applied to bodies-politic and corporate, societies,
communities, the public generally, individuals,
partnerships, joint stock companies, and limited liability
companies[.]” KRS 446.010(33).
In Shouse, the Commonwealth brought a civil suit

55a
against Shouse alleging that he had violated KRS 433.750
by cutting down trees located on property owned by the
Commonwealth.
The circuit court dismissed the
complaint for failure to state a cause of action. On appeal,
however, the Court found that while KRS 433.750 was a
penal statute, the Commonwealth had a cognizable claim
under Kentucky’s negligence per se statute, KRS 446.070,
which provides that “a person” who has sustained
damages because of an offender’s violation of a statute
may recover.
The Shouse court noted that KRS
446.010(33) provided that “person” may extend to bodies
politic and concluded that, therefore, the Commonwealth
had a cognizable claim.
We recognize that Shouse represents an instance
where the Commonwealth was permitted to bring a
statutory claim as a “person” and we do not disagree with
the Court’s holding in that instance. However, nothing in
Shouse indicates that it was meant to create a steadfast
rule that the Commonwealth will always be considered a
“person” in whichever statute the word may be used.
Citing to two other cases that relied on Shouse in
conjunction with KRS 446.010(33), the Commonwealth
asserts that “courts have uniformly held that the
Commonwealth – and even the U.S. Government – may
sue as a ‘person’ under Kentucky statutes.” Appellee Br.
6. As in Shouse, both cases cited by the Commonwealth
were determining whether a sovereign entity could be
considered a “person” that can maintain an action through
KRS 446.070. Neither case cited Shouse as supporting a
general proposition that the Commonwealth is always
considered a “person.” See U.S. v. Kentucky Nat. Ins. Co.,
No. 89-6246, 1990 WL 78173 (6th Cir. June 11, 1990);
Purdue Pharma L.P. v. Kentucky, 704 F.3d 208 (2d. Cir.

56a
2013). Rather, both cases cited Shouse for the limited
conclusion that a sovereign had the ability to maintain an
action through KRS 446.070, which carries the additional
requirement that a person bringing an action under it fall
“within the class of persons the [penal] statute intended to
be protected.” Hargis v. Baize, 168 S.W.3d 36, 40 (Ky.
2005) (citation omitted). In Shouse, it was not difficult to
make that determination because the Commonwealth
owned the property where the felled trees were located.
We cannot necessarily make the same conclusion with
respect to the LRA.
KRS 446.010(33) does not dictate that “bodies politic
or corporate” are always considered persons. It indicates
that “unless context requires otherwise” the word
“person” “may extend to bodies politic and
corporate . . . .” KRS 446.010(33) (emphasis added). “It is
elementary that ‘may’ is permissive . . . .” Hardin Cty.
Fiscal Court v. Hardin. Cty. Bd. of Health, 899 S.W.2d
859, 861 (Ky. App. 1995). A court has the discretion
whether to incorporate KRS 446.010’s definition of person
into the statute it is interpreting. Commonwealth v.
Illinois Cent. R. Co., 152 Ky. 320, 153 S.W. 459, 461-62
(1913).
Determining that neither the common usage of the
word “person” nor Shouse and KRS 446.010(33) dictate
that the phrase “any other person” necessarily includes
the Commonwealth, we turn to the background and
purpose of the LRA. The LRA derives from England’s
1710 Statute of Queen Anne, which “prohibited the
enforcement of gambling debts and provided for a
recovery action by the losing gambler, or any other person
on the gambler’s behalf, for gambling debts already paid.”
Joseph Kelly, Caught in the Intersection Between Public

57a
Policy and Practicality: A Survey of the Legal Treatment
of Gambling-Related Obligations in the United States, 5
CHAP. L. REV. 87, 87-88 (2002). As it is in effect today,
Kentucky’s LRA retains all three tenets found in the
Statute of Queen Anne: it declares all gambling contracts
void (KRS 372.010); it allows the loser to recover the
amount lost from the winner (KRS 372.020); and, if the
loser does not file suit within a prescribed time-period, it
allows a third-party to recover damages in the loser’s
stead (KRS 372.040).
In its present state, the LRA does not require that a
claimant under KRS 372.040 split his recovery with the
Commonwealth; however, that was not always the case.
Earlier versions of the LRA mandated that a third-party
claimant turn over half of the treble damage recovery to
the Commonwealth. See Act of 1851, Rev. Stat., Ch. 42,
§ 4 (Stanton 1860); Conner v. Ragland, 54 Ky. 634, 634
(1855) (“[W]hen another sues after six months, and treble
the amount is recovered, one-half the amount belongs to
the commonwealth.”). The LRA was amended in 1873 and
the requirement that one-half of a third-party’s recovery
be given to the Commonwealth was removed. See Act of
1873, Gen. Stat., Ch. 47, Art. 1, § 4 (Bullitt & Feland 1877).
That same year, the gambling forfeiture statute was
amended to eliminate a provision that allowed a private
seizor to retain half of the seized property. Instead, the
amended statute mandated that all seized property be
retained by the Commonwealth. Compare Act of 1799,
Vol. 1, Digest Stat. Laws of Ky., Title 87, § 1 (Morehead &
Brown 1834), 9 with Act of 1873, Gen. Stat., Ch. 47, Art. 1,
9

Providing in pertinent part as follows:
Be it enacted by the General Assembly, That all
moneys or other property, exhibited for the purpose

58a
§ 6 (Bullitt & Feland 1877). 10 One could chalk up the fact
that these amendments were made in the same year as
mere coincidence; however, the more probable theory is
that these amendments were made with intention—the
LRA was to be used to provide recovery exclusively to
private citizens, while the forfeiture statute was to provide
recovery exclusively to the Commonwealth.
We gain further confidence in this interpretation by
looking to the purpose of the LRA. Over the years,
jurisprudence dealing with the LRA has opined on the
of alluring persons to bet at any game, or horse-race,
or to make any bet whatsoever, and all moneys
actually staked or betted, shall be liable to seizure by
any magistrate or magistrates, or by any other
person or persons, under a warrant from a
magistrate, wheresoever the same may be found; and
all such moneys, so seized, shall be accounted for and
paid by the person or persons making the seizure to
the court of the county, or corporation, wherein the
seizure shall be made, and applied by the court, in aid
of the county levy, deducting thereout one half, to
be paid to the person or persons making the
seizure.
(Emphasis added).
10

Providing in pertinent part as follows:
Any such bank, table, or machine, or articles used for
carrying on [a game of chance], together with all
money or other thing staked or exhibited to allure
persons to bet, may be seized by any magistrate,
sheriff, constable, or police officer of a city or town,
with or without a warrant, and upon conviction of the
person setting up or keeping the game, such money
or other thing shall be forfeited for the use of the
Commonwealth, and such table, machine, and
articles shall be burnt or destroyed.

(Emphasis added).

59a
reasons for its existence. The LRA has a dual purpose as
a “means of suppressing an enormous public mischief, and
of restoring to an individual that of which he has been
illegally, if not fraudulently deprived . . . .” McKinney v.
Pope’s Adm’r, 42 Ky. 93, 99 (Ky. 1842). The purpose of
suppressing illegal gambling was greater affected by
allowing third parties to sue and receive treble damages.
“Without that incentive [of treble damages], few men
would encounter all the responsibilities incident to a
service so unwelcome and perilous.” Perrit v. Crouch, 68
Ky. 199, 204 (Ky. 1868). It is of relevance that the Statute
of Queen Anne and its progeny were enacted in a time
“where the absence of an organized police authority to
enforce criminal statutes made necessary the use of such
rewards for informers.” Salamon v. Taft Broad. Co., 475
N.E.2d 1292, 1298 (Ohio Ct. App. 1984) (in discussing
third-party recovery of gambling losses under Ohio’s Loss
Recovery Act11). Further, allowing recovery of treble
damages “is in the nature of punitive damages but from
which the state derives nothing except the hope that it will
deter a violation of one of its criminal laws.” Salonen v.
Farley, 82 F.Supp. 25, 27 (E.D. Ky. 1949).
In addition to the deterrence of illegal gambling, the
LRA “is meant to protect the homes of those who cannot
afford to be enticed into gambling establishments to
11

R.C. § 3763.04 states that:
If a person losing money or thing of value, as
provided in section 3763.02 of the Revised Code,
within the time therein specified, and without
collusion or deceit, does not sue, and effectively
prosecute, for such money or thing of value, any
person may sue for and recover it, with costs of suit,
against such winner, for the use of such person
prosecuting the suit.

60a
dissipate their earnings or property to the distress of their
families.” Hartlieb v. Carr, 94 F.Supp. 279, 280 (E.D. Ky.
1950). A gambler who is a “loser” under KRS 372.020
often will not wish to pursue legal action against his
winner. All too often, however, a gambler’s losses affect
not only the “loser” but also his dependents. The solution
is to allow the dependent to sue to recover those losses.
We recognize that KRS 372.040 uses the broad language
of “any other person” rather than defining a specific class
of those who may recover on the “loser’s” behalf. Broad
language, however, seems necessary to ensure that this
purpose is adequately achieved:
The makers of the statute were confronted
with the proposition to enable defendants to
recover money lost by their breadwinner at
gambling and to deter gambling by allowing
the recovery of treble damages. Under
Kentucky statutes various relationships
create a legal obligation of support and
maintenance.
By new enactment,
amendments or judicial constructions the
persons included as dependents might be
enlarged. Consequently rather than have
one of the purposes of the statute (that of
protecting dependents) defeated by
possibly omitting one later named to be a
dependent it gave the right to all persons.
For instance, there may be cases wherein a
step-father acting in loco parentis would be
held to be within the class of dependents
contemplated by statutes requiring support.
Salonen, 82 F.Supp. at 28. Other courts interpreting the
purpose of the LRA in their states have concluded

61a
similarly. See, e.g., Berkebile v. Outen, 426 S.E.2d 760, 763
(S.C. 1993) (The statute “indicates that the General
Assembly contemplated a policy which prevents a
gambler from allowing his vice to overcome his ability to
pay [and] to protect a citizen and his family from the
gambler’s uncontrollable impulses.”).
While certainly not dispositive, it is not insignificant
that the Commonwealth has never brought a claim under
the LRA. See U.S. v. Cooper Corp., 312 U.S. 600, 613-14,
61 S.Ct. 742, 748, 85 L.Ed. 1071 (1941), superseded by
statute, 15 U.S.C. § 15a. In fact, in our research, we have
failed to uncover any case in any sister jurisdiction with
similarly-worded statutes where the state has brought a
claim under its own version of LRA as a third-party. 12
Perhaps more significantly, our research shows that since
1949, there are no reported cases of a complete stranger
bringing an action under KRS 372.040 to recover losses
for himself. Craig v. Curd, 309 Ky. 549, 218 S.W.2d 395,
In U.S. v. Resnick, 594 F.3d 562 (7th Cir. 2010), the United States
sought to recover money Resnick had paid to a bookie, Poeta, to
satisfy illegal gambling debts because Resnick was insolvent. The
United States recovered this money using theories of fraudulent
transfer under the Federal Debt Collection Procedure Act and
common-law unjust enrichment. It was successful on those claims.
When discussing whether Poeta was entitled to set-off the judgment
against him by subtracting payments he had made to Resnick on
winning bets, Judge Hamilton noted that 720 Ill. Comp. Stat. 5/28-8
provided a cause of action by which anyone could sue on behalf of an
illegal gambling loser and allowed for recovery of all losses, not the
net of gambling exchanges over some extended period of time. Id. at
570-71. We read the reference to Illinois’ LRA, in dicta, as being used
as support for why Poeta was not entitled to set-off his damages, not
as stating that the United States could have successfully brought suit
against Poeta under the LRA. No cases have cited Resnick for this
proposition.
12

62a
396 (1949) (“This is an equitable action, instituted by the
appellant as an informer under KRS 372.020 and
372.040.”). Of course, the plaintiff bringing suit under
KRS 372.040 is a “stranger” to the gambling transaction,
but in all cases has some relationship to the “loser” for
whom they are bringing the action. 13
Allowing the Commonwealth to bring this claim as
“any other person” may well serve the purpose of
suppressing illegal gambling. The large judgment the
Commonwealth received in the circuit court would
certainly deter similar Internet gaming/betting services
from conducting business with residents of Kentucky.
The Commonwealth undoubtedly has an interest in the
public policy behind suppressing illegal and unregulated
gambling. Thus, there is a strong argument that reading
KRS 372.040 to embrace claims brought by the
Commonwealth would serve to better effectuate the
policy purposes behind the LRA. However, allowing the
Commonwealth to recover the losses in the stead of the
actual “losers,” or the family members and other
dependents of those “losers,” would completely
contravene the other purpose of the LRA—to allow those
“losers” to recover their losses and avoid becoming
destitute as a result of a gambling problem. The
Commonwealth is not bringing this action to collect the
See Akers v. Fuller, 312 Ky. 502, 228 S.W.2d 29 (1950) (Plaintiff
recovering husband’s losses); Kindt v. Murphy, 312 Ky. 395, 227
S.W.2d 895 (1950) (Plaintiff recovering son’s losses); Hartlieb v. Carr,
94 F.Supp. 279 (E.D. Ky. 1950) (Plaintiff recovering husband’s losses);
Scott v. Curd, 101 F.Supp. 396 (E.D. Ky. 1951) (Plaintiff recovering
husband’s losses); Veterans Serv. Club v. Sweeney, 252 S.W.2d 25 (Ky.
1952) (Plaintiff recovering wife’s losses); Tabet v. Morris, 285 S.W.2d
143 (Ky. 1955) (Plaintiff recovering son’s losses); Gumer v. Sailor, 286
S.W.2d 515 (Ky. 1956) (Plaintiff recovering son’s losses).

13

63a
money and then return losses to the “losers.” It is
bringing this action to collect treble damages for its own
benefit.
“[T]he Loss Recovery Act should not be interpreted to
yield an unjust or absurd result contrary to its purpose.”
Vinson v. Casino Queen, Inc., 123 F.3d 655, 657 (7th Cir.
1997). In common parlance, the word “person” does not
encompass the Commonwealth; without a modifier (such
as juristic or artificial), the word “person” is limited to
human beings. While KRS 446.010(33) permits the
Commonwealth, as a body-politic, to be included as a
“person” when the word is used in a statute, it does not
mandate it. Here, allowing the Commonwealth to recover
under KRS 372.040 contravenes one of the stated
purposes—ensuring that a losing gambler and his family
are not left impoverished as a result of the gambler’s
vice—by allowing the Commonwealth to take what could,
absent the Commonwealth’s suit, be recovered by a suit of
the gambler’s own representative. The purpose of
suppressing illegal gambling is not thwarted by the
Commonwealth’s inability to sue under the LRA. Other,
natural persons still have the ability to sue under the LRA
and collect treble damages from the “winner.” In so
doing, the treble damages that person collects will still
work as a deterrent against illegal gambling.
Had the General Assembly intended to confer on the
Commonwealth an ability to recover under KRS 372.040,
it knew how to do so. Earlier versions of the LRA
provided that one-half of the recovery received by a third
party went to the Commonwealth. Under those versions,
it can be assumed that the “person” suing under the
statute is someone other than the Commonwealth itself.
The provision dictating that one-half of the recovery be

64a
given to the Commonwealth was later removed by
amendment; however, no language was added indicating
that the Commonwealth could sue on its own behalf to
receive treble damages.
Moreover, it is abundantly clear that treble damages
were made available to incentivize private persons to
bring LRA actions. See Perrit, 68 Ky. at 204. A private
individual who knows of illegal gambling activity is not
under any obligation to report it to authorities. The LRA
sought to encourage private persons to bring LRA actions
by increasing the judgment available to them. The hope
was that the provision for treble damages would
incentivize private individuals to undergo the burdens
associated with enforcing the LRA. The Commonwealth,
in this case the Secretary acting on the Governor’s order,
is already under an obligation to enforce the laws of the
Commonwealth.
We cannot accept that the
Commonwealth must be incentivized with the promise of
treble damages before it can be expected to bring suit to
enforce its own laws.
In fact, no such incentive is necessary because the
General Assembly has provided the Commonwealth with
its own mechanism to deter illegal gambling. KRS
528.100 provides that gambling devices or records used in
illegal gambling shall be forfeited to the Commonwealth.
“Money may be subject to seizure along with gambling
devices, when the circumstances make it clearly apparent
the money formed an integral part of the illegal gambling
operation.” Gilley v. Commonwealth, 312 Ky. 584, 229
S.W.2d 60, 63 (1950). KRS 500.090(2) states that “[m]oney
which has been obtained or conferred in violation of any
section of this code shall, upon conviction, be forfeited for
use of the state.” KRS 528.020-.030 make it illegal to

65a
knowingly advance or promote illegal gambling.
In light of the foregoing, we conclude that the term
“person” as used in LRA does not authorize suit on behalf
of the Commonwealth. Neither the purpose nor history of
the statute support the Commonwealth’s inclusion as a
“person” authorized to bring suit and recover treble
damages under the LRA. Accordingly, we hold that the
phrase “any other person,” as it is used in KRS 372.040, is
limited to natural persons. Accordingly, the circuit court
erred in denying the PokerStars Defendants’ motions to
dismiss this action.
B. Pleading Requirements under KRS 372.040
Even if the Commonwealth were a proper person to
bring suit under the LRA, we do not believe that the
Commonwealth’s third amended complaint stated a valid
claim in this particular instance. In its third amended
complaint, the Commonwealth alleged that: during the
five years preceding the filing of the action, “thousands of
Kentucky residents” lost five dollars or more in gambling
games hosted by PokerStars; the PokerStars Defendants
received a rake of the amounts lost; and, “on information
and belief” no “loser” located in Kentucky, or any creditor,
had sued under KRS 372.020.
Appellants sought dismissal of the third amended
complaint on the basis that it contained only generalized
allegations that were too vague to support a valid cause of
action under the LRA. The circuit court denied the
motions to dismiss.
It concluded that the
Commonwealth’s third amended complaint: “satisfied[d]
the notice pleading requirements of CR 8.01 and state[d]
a valid claim for relief.” R. 2001. Appellants again raised
the fact that the Commonwealth had failed to identify any

66a
specific “loser” in their opposition to the Commonwealth’s
motion for partial summary judgment on liability. The
circuit court found that the Commonwealth’s failure to
identify a “loser” was irrelevant in light of Oldford’s
admission that Kentucky residents had lost money while
playing poker on the PokerStars platform. R. 4239.
CR 8.01 requires only that that a complaint contain a
“short and plain statement of the claim showing that the
pleader is entitled to relief . . . .” Kentucky has long
adhered to the notice pleading theory: “All that is
necessary is that a claim for relief be stated with brevity,
conciseness and clarity.” Nat. Res. and Envtl. Prot.
Cabinet v. Williams, 768 S.W.2d 47, 51 (Ky. 1989) (citation
omitted); McDonald’s Corp. v. Ogborn, 309 S.W.3d 274,
293 (Ky. App. 2009); CR 8.01(1). “The true objective of a
pleading stating a claim is to give the opposing party fair
notice of its essential nature.” Cincinnati, Newport &
Covington Transp. Co. v. Fischer, 357 S.W.2d 870, 872
(Ky. 1962).
The Commonwealth’s complaint informed Appellants
that the Commonwealth was bringing an LRA action
against them. It did not provide Appellants with even the
most basic notice of what gambling transactions were at
issue. The reason for this is that the Commonwealth
never identified any particular transactions prior to filing
its complaint. Instead, the Commonwealth sought to hold
Appellants collectively liable for thousands of different asof-yet unidentified acts of illegal gambling occurring
during the widest time frame the LRA allowed.
Specifically, the Commonwealth’s complaint alleged that
it had the right to bring suit based on the losses of
“thousands of Kentucky residents,” yet it failed to identify
even one Kentucky resident who had lost wagers on the

67a
PokerStars cite. It indicated that alleged losses had
occurred within the past five years—i.e., within the
statutory period—but failed to identify a specific date on
which these alleged losses had occurred.
The
Commonwealth believed that these losses were in
amounts of five dollars or more, but failed to even place an
approximate dollar figure on the amount of the losses.
While the LRA may not be subject to a heightened
pleading, the statute itself contemplates that the plaintiff
will be able to identify a particular (specific) act of illegal
gambling prior to receiving a judgment. A prerequisite
for bringing a claim under the statute is that the “loser”
or his creditor has not brought a claim under KRS 372.020
within six months of delivering payment to the winner.
KRS 372.040. Thus, before there can be a cause of action
in a third party, there must be a specific, definite person
who failed to bring suit. The specific “loser” is a necessary
part of the statute. The Commonwealth cannot allege that
those six months have passed, or that it has timely
brought its claim, without alleging a specific “loser” and
the date on which that “loser” lost. Without that
information the Commonwealth—and indeed, no
plaintiff—can demonstrate a valid cause of action under
KRS 372.040. See Hartlieb v. Carr, 94 F. Supp. 279, 281
(E.D. Ky. 1950) (holding that without alleging the date the
losses were sustained wife’s cause of action under KRS
372.040 was too vague and indefinite to support a cause of
action).
In Humphrey v. Viacom, Inc., No. 06 2768 DMC, 2007
WL 1797648, at *6 (D.N.J. June 20, 2007), a New Jersey
federal district court considered whether a plaintiff could
maintain a cause of action under New Jersey’s LRA
statute in light of the state’s liberal notice pleading

68a
requirement. Ultimately, the court determined that the
plaintiff could not do so. It reasoned as follows:
Plaintiff does not identify any individual
who paid an entry fee to play one of the
Defendants’ fantasy sports games; he does
not identify the nature of the “wager” or
“bet” made between such an individual and
either of the Defendants; he does not allege
when the loss occurred; and, . . . he does not
allege that such an individual lost such a
“wager” or “bet” to either of the
Defendants.
Plaintiff fails to identify even one individual
who participated in even one of the subject
leagues, much less one who allegedly lost
money to Defendants in those leagues, and
concedes that he has done neither himself.
(Compl.¶¶ 9, 71). In short, Plaintiff asks this
Court to indulge a gambling qui tam suit
seeking a “recover[y] for his own use,
unknown amount of money lost by unnamed
and unknowable persons.” Salamon, 475
N.E.2d at 1298.
New Jersey’s adoption of more modern
notice pleading rules has not changed the
strict requirement that a plaintiff seeking to
pursue a claim under the gambling lossrecovery statute “must, in his pleading,
allege all the facts necessary to bring him
within the statute.” Zabady v. Frame, 22
N.J.Super. 68, 70 (App. Div. 1952).
Id. at *4-6. The New Jersey federal court is not alone in

69a
holding that a plaintiff seeking to recover under a
gambling loss recovery statute, like Kentucky’s statute,
must allege certain foundational facts to state a prima
facie claim. See Fahrner v. Tiltware LLC, 13-0227-DRH,
2015 WL 1379347, at *6 (S.D. Ill. Mar. 24, 2015), aff’d sub
nom. Sonnenberg v. Amaya Group Holdings (IOM) Ltd.,
810 F.3d 509 (7th Cir. 2016) (“The allegations of Daniel
Fahrner’s losses are devoid of detail, failing to allege the
exact amounts he purportedly lost gambling, when he lost
the sum, to whom he lost the sum, and what type of game
he was playing. Thus, plaintiffs have failed to allege the
“who,” “what,” and “when” to sustain a cause of action,
individually and on behalf of others, under the LRA.”);
Langone v. Kaiser, 12 C 2073, 2013 WL 5567587, at *4
(N.D. Ill. Oct. 9, 2013) (“[I]n order to allege a ripe claim
under the Loss Recovery Act, Langone must allege that a
specific loser lost a certain amount and failed to bring a
claim for that amount within six months. He has failed to
do that here.”).
We agree with the rationale of the above-cited
opinions. Kentucky’s LRA contemplates that the thirdparty bringing suit to recover for another’s losses will
have some knowledge of the illegal gambling he seeks to
redress. A third-party cannot state a valid claim under
the LRA without identifying the basic facts necessary to
give rise to a statutory cause of action. In other words, a
third party must do more than assert that the defendant
fostered illegal gambling in the state that caused
unidentified Kentuckians unspecified amounts of
damages as the Commonwealth did in this case.
Allowing a complaint, like the one put forth by the
Commonwealth, to move forward would lead to an absurd,
unjust result. It would mean that any private person with

70a
knowledge of the general nature of Appellants’ electronic
gaming format could allege an LRA claim in a wholly
conclusory and generic fashion and walk away a billionaire
without ever having identified a single gaming transaction
with specificity. The LRA was never intended to be used
in this fashion. It was intended to promote natural
persons who had knowledge of specific instances of illegal
gambling to file suit to assist the Commonwealth in
enforcing its anti-gambling regulations. To that end, we
hold that even under our liberal notice requirements, a
third-party LRA complaint must set forth basic facts such
as the identity of the parties, date of the conduct, and
nature of the gambling losses at issue. This conclusion
does not eviscerate or do violence to our liberal pleading
requirements. To the contrary, it is in conformity with
their purpose of supplying the defendant with a concise
statement of the general nature of allegations at issue.
III. CONCLUSION
In light of the foregoing, we reverse the judgment of
the Franklin Circuit Court. On remand, an order shall be
entered dismissing the action.
ACREE, JUDGE, CONCURS.
JOHNSON, JUDGE, DISSENTS IN PART AS TO
LIABILITY AND CONCURS IN PART AS TO
DAMAGES, WITHOUT FILING A SEPARATE
OPINION.
BRIEFS AND ORAL
ARGUMENT
FOR APPELLANTS:

BRIEF AND ORAL
ARGUMENT
FOR APPELLEE:

Sheryl G. Snyder

William C. Hurt, Jr.

71a
Theresa A. Canaday
Griffin Terry Sumner
Jason P. Renzelmann
Louisville, Kentucky

James L. Deckard
William H. May, III
Lexington, Kentucky

72a
APPENDIX C
COMMONWEALTH OF KENTUCKY
FRANKLIN CIRCUIT COURT
DIVISION II
CIVIL ACTION No. 10-CI-00505

COMMONWEALTH OF
KENTUCKY ex rel. John Tilley,
Secretary, JUSTICE AND
PUBLIC SAFETY CABINET

PLAINTIFF

vs.
POCKET KINGS, LTD, et al.

DEFENDANTS

OPINION AND ORDER
This matter is before the Court on the Defendants’
(Amaya Group Holdings (IOM) Ltd. f/k/a The Oldford
Group Ltd., Rational Entertainment Enterprises Ltd.,
PYR Software Ltd. d/b/a Amaya Software Services,
Rational Intellectual Holdings Ltd., and Stelekram Ltd.)
Motion to Alter, Amend or Vacate Final Judgment and
Request to Make Required Findings filed on January 4,
2016.
Counsel was heard in Open Court following the Court’s
regularly scheduled civil motion hour on Monday, January
25, 2016. The Court being sufficiently advised hereby
DENIES the Defendants’ Motion except insofar as it

73a
AMENDS its Opinion and Order of December 23, 2015 to
properly identify the judgment debtors as Amaya Group
Holdings (IOM) Ltd. and Rational Entertainment
Enterprises Ltd. The Court hereby AFFIRMS its award
of damages to the Plaintiff of $870,690,233.82, plus any and
all continuing costs of collection of this judgment, plus
interest at the judicial rate of twelve percent (12%) per
annum until paid in full.
STATEMENT OF FACTS
The background of this case is well-known and
requires no further introduction. 1
The pertinent
procedural facts for the Court’s decision today are as
follows: On December 23, 2015, the Court denied the
Defendants’ two motions: (1) Motion to Vacate Award of
Damages Due to Calculation Error in the Court’s
Opinion and Order of November 20, 2015, and (2) Motion
for Partial Summary Judgment on the Plaintiff’s
Demand for Treble Damages. The Court denied both of
the Defendants’ Motions and it clarified its calculation of
damages in its November 20, 2015 Opinion and Order.
Also in its December 23, 2015 Opinion and Order, the
Court granted the Plaintiff’s Motion for Summary
Judgment on Damages thereby awarding the Plaintiff
$870,690,233.82 in damages.
The Defendants filed their Motion to Alter, Amend or
Vacate Final Judgment and Request to Make Required
Findings on January 4, 2016. The Plaintiff responded on
See, e.g., Commonwealth v. Pocket Kings Ltd., Franklin Circuit
Court, Div. II, No. 10-CI-00505, Opinion and Order, (Aug. 12, 2015),
Commonwealth v. Pocket Kings Ltd., Franklin Circuit Court, Div. II,
No. 10-CI-005050, Opinion and Order, (Nov. 20, 2015),
Commonwealth v. Pocket Kings Ltd., Franklin Circuit Court, Div. II,
No. 10-CI-00505, Opinion and Order, (Dec. 23, 2015).

1

74a
January 19, 2016. The Defendants filed a Notice of
Supplemental Authority on January 21, 2016, attached to
which was a January 15, 2016 decision from the U.S. Court
of Appeals for the Seventh Circuit in the case of
Sonnenberg v. Amaya Group Holdings (IOM) Ltd, Nos.
15-1885, 15-1887 (7th Cir. Jan. 15, 2016). Counsel was
heard in Open Court on Monday, January 25, 2016.
Following oral argument, the Defendants made three
further filings with the Court: (1) a Reply in Support of
their Motion to Alter, Amend or Vacate filed on January
25, 2016; (2) a Post-Hearing Rebuttal Regarding the Time
Period for Damages Awarded filed on January 28, 2016;
and (3) a Notice of Filing Oldford Group Limited’s
Objections and Answers to Plaintiff’s Requests for
Admission filed on January 28, 2016. The Plaintiff filed
its Post Hearing Rebuttal and Supplemental
Memorandum in Response to PokerStars’ Motion to
Alter, Amend or Vacate on February 4, 2016. The
Defendants filed their Supplemental Post-Hearing
Rebuttal Memorandum on February 11, 2016.
ANALYSIS
Kentucky Rule of Civil Procedure (CR) 59.05 provides
that “[a] motion to alter or amend a judgment, or to vacate
a judgment and enter a new one, shall be served not later
than 10 days after entry of the final judgment.” A party
may make a CR 59.05 motion in order to dispute an order
that it believes is incorrect. Gullion v. Gullion, 163 S.
W.3d 888, 891, 892 (Ky. App. Ct. 2005). A trial court has
unlimited power to amend and alter its own judgments.
Id. In construing when a court may alter, amend, or
vacate its previous judgment, the Kentucky Supreme
Court has adopted the four basic grounds from the
Federal Rules of Civil Procedure. Id at 893. They are as

75a
follows:
First the movant may demonstrate that the
motion is necessary to correct manifest
errors of law or fact upon which the
judgment is based. Second, the motion may
be granted so that the moving party may
present newly discovered or previously
unavailable evidence. Third, the motion will
be granted if necessary to prevent manifest
injustice. Serious misconduct of counsel
may justify relief under this theory. Fourth,
a Rule 59(e) motion may be justified by an
intervening change in controlling law.” Id.
Reconsideration of a judgment after its entry is
considered to be an extraordinary remedy and should be
used sparingly. Id.
DISCUSSION
The Defendants’ attack on this Court’s December 23,
2015 ruling is an attempted “death by a thousand cuts.”
However, the Defendants’ volley of arguments cannot
mask the one fact that goes unacknowledged in their
twenty-five page Memorandum in support of their
Motion: That for five years, the Defendants operated an
online business in Kentucky that was patently illegal,
facilitating hundreds of millions of illegal bets resulting in
the loss of approximately $290 million by Kentucky
players. The Defendants actions make them liable under
Chapter 372.
The Defendants make a number of arguments in their
Motion to Alter, Amend or Vacate that the Court will
attempt to address in order. The main arguments proceed
as follows:

76a
1. The Court incorrectly identified the
Defendants in its December 23, 2015
Opinion and Order;
2. The Court’s analysis permitting and
computing gross losses is without
precedent and is based on inadmissible
evidence and otherwise insufficient
evidence;
3. The Court’s finding that the Defendants
were not “winners” under Chapter 372
requires entry of judgment in their
favor;
4. The damages award was excessive,
included periods of time outside the
applicable statute of limitations, and
violated KRS 411.186;
5. The enforcement of Chapter 372 in this
case violates the Due Process Clauses of
the U.S. and Kentucky Constitutions;
6. The Commonwealth does not have
constitutional standing to pursue these
claims; and
7. The post-judgment interest rate on
statutory damages should be reduced to
the prevailing market rates, and postjudgment interest should not be
awarded on the trebled damages.
The Defendants raise many of these arguments to
preserve them for appeal. Several of the Defendants’
arguments have previously been addressed by the Court
or could have been raised at other times during the course

77a
of this litigation. Indeed, the Plaintiff has generally
objected to all of the Defendants’ arguments for not being
properly before the Court on a CR 59.05 Motion to Alter,
Amend or Vacate. The Plaintiff cites several cases for the
proposition that CR 59.05 may not be used to raise new
arguments that should been presented before the entry of
judgment. See Gullion v. Gullion, 163 S.W.3d 888, 893
(Ky. 2005); Rogers v. Integrity Healthcare Servs., 358
S.W.3d 507, 512 (Ky. Ct. App. 2012); and Hopkins v.
Ratliff, 957 S.W.2d 300, 301-02 (Ky. Ct. App. 1997). Still,
the Court has elected to address each argument on the
merits, save for the Defendants’ argument concerning the
Plaintiff’s standing to bring this suit.
A. The Court Amends its Previous Order for the
Limited Purpose of Properly Identifying the
Judgment Debtors.
The Defendants first argument consists of several
“housekeeping” matters. First, they argue that the
Court’s December 23, 2015 Opinion and Order must be
amended to identify the judgment debtors by their correct
corporate names. In that Opinion and Order, the Court
identified one of the Defendants as “Amaya Holdings
Limited.” The Defendants argue that the correct name of
that Defendant is “Amaya Group Holdings (IOM) Ltd.
f/k/a The Oldford Group Ltd.” The Plaintiff concedes the
point, acknowledging that, in this regard, the Court’s
Order contained a “minor typo.” Thus, the Court finds
that its Opinion and Order of December 23 contained an
error and corrects the record to reflect that the correct
name of one of the judgment debtors is “Amaya Group
Holdings (IOM) Ltd. f/k/a The Oldford Group Ltd.” The
Court also clarifies the record to show that Rational
Entertainment Enterprises Limited (“REEL”) is also a

78a
judgment debtor along with the aforementioned Amaya
Group Holdings (IOM) Ltd. (hereinafter, “Amaya”).
Thus, the Court hereby GRANTS the Defendants’ Motion
to AMEND its December 23, 2015 Opinion and Order to
properly identify the judgment debtors.
During oral argument and their January 28, 2016
Notice of Filing, the Defendants requested that the Court
clarify its judgment against Amaya Group Holdings
(IOM) Ltd. to find that its judgment against Amaya is a
default judgment entered as a discovery sanction, not a
judgment on the merits. In the Court’s Opinion and
Order of December 23, 2016, the Court found that the
Defendants REEL and Amaya were liable under Triplett
v. Seelbach, 14 S.W. 948, 949 (Ky. 1890) as “winners”
because they received a per cent of the winnings from the
actual players. This “per cent of the winnings” is also
known as a “rake.” The Defendants argue that The
Oldford Group Ltd. n/k/a Amaya Group Holdings (IOM)
Ltd. did not charge a rake, and as a result, it should not
found liable on the merits but only on the entry of default
judgment. At oral argument, the Plaintiff disagreed
arguing that Oldford admitted in its Answers to taking a
rake. The Defendants dispute this claim, citing to
Oldford’s Answers to the Plaintiffs Request for
Admissions in which Oldford admitted that PokerStars
charged a “rake,” but that Oldford as PokerStars’ parent
company never charged a rake.
To argue that Oldford itself, as a parent company of
PokerStars, did not charge a rake is to exalt form over
substance. The Triplett Court was not concerned with
“rakes” and who charged them; rather, it was concerned
with the individuals or entities who received “a per cent of
the winnings.” Id. at 949. Parent companies profit from

79a
the activities of their subsidiaries and holdings. To that
end, the Defendant Amaya f/k/a Oldford cannot deny that
it received “a per cent of the winnings” from the Kentucky
players, regardless of whether it or its subsidiary,
PokerStars, actually “charged” the “rake.” Thus, the
Defendant Amaya Group Holdings (IOM) Ltd. f/k/a The
Oldford Group Ltd. is liable on the merits along with the
Defendant REEL for the Kentucky players’ losses, not
simply by virtue of the Court’s entry of the sanction of
default judgment.
B. The Court’s Award of $870 Million is Based on
Admissible and Sufficient Evidence Provided by
the Defendants.
The Defendants next argue that the Court’s analysis
permitting and computing “gross losses” (or, as the
Plaintiff would characterize it, not allowing the
Defendants an “offset”) is without precedent, and is based
on inadmissible and otherwise insufficient evidence. On
review, the Court disagrees and finds that its reasoning
was soundly based on the evidence in front of it, its
reasonable interpretation of Chapter 372, the pertinent
case law, and the legislative purpose to be served by
Chapter 372.
1. Caldwell Does Not Require that Losses Be
Counted at the End of Each Game Rather than at
the End of Each Hand.
In support of their argument that the Court’s decision
to not require the Plaintiff to account for the Kentucky
players’ winnings is without precedent, the Defendants
cite the very case upon which the Court based its decision
– Caldwell v. Caldwell, 2 Bush 446 (Ky. 1867) – arguing
that it does not allow for a calculation of losses on a hand-

80a
by-hand basis. Rather, the Defendants argue that
Caldwell only permits calculation of wins and losses after
the termination of a game. The implication is that while
many hands may make up a game, it is only after the
completion of a game of hands at which point losses may
be counted. However, the Defendants’ argument misses
the forest for the trees by placing too much emphasis on
mere semantics. Chapter 372 only speaks of losses. 2 No
section of Chapter 372 defines a loss as only occurring
after the termination of a game rather than a hand. Nor
does Caldwell stand for the proposition that the Court
may only count losses after the termination of a game
rather than a hand; rather, it stands for the proposition for
which the Court cited it – that in a creditor’s action to
recover losses under Chapter 372, the creditor need not
account for the loser’s winnings. Caldwell, 2 Bush at 451,
452. 3
2. The Plaintiff is Not Required to Produce an
Economics Damage Expert.
The Defendants next argue that the Plaintiffs
calculations are “complex data queries” prohibited by
Kentucky Rule of Evidence (KRE) 701 (c) as lay testimony
on a technical matter. 4 Thus, in order to introduce
See e.g., KRS 372.020 (“If any person loses to another at one (1) time,
or within twenty-four (24) hours, five dollars ($5) or more. . . .”).

2

When read with Elias v. Gill, 18 S.W. 454 (Ky. 1892), it becomes clear
that third party suits (those brought by creditors under KRS 372.020
and “any person” under KRS 372.040) need not account for the loser’s
winnings in suits to recover the loser’s losses. See Commonwealth v.
Pocket Kings, Ltd., Franklin Circuit Court, Div. II, 10-CI-00505,
Opinion and Order, pp. 5-20 (Dec. 23, 2015).
4
KRE 701(c) provides “If the witness is not testifying as an expert,
the witness’ testimony in the form of opinions or inferences is limited
to those opinions or inferences which are: . . . Not based on scientific,
3

81a
evidence of their calculations, the Defendants argue that
the Plaintiff needs to produce an economic damages
expert and allow for appropriate discovery and disclosures
regarding the expert's opinions. The Plaintiff argues that
it does not need to produce an expert because its
calculations are in fact straightforward and based on the
Defendants’ own gaming data. The Court agrees with the
Plaintiff.
In support of its argument, the Plaintiff quotes from
the Court’s October 8, 2015 Order in which the Court
ordered the Defendants to “produce the [gaming] data in
a format that is easily analyzed by the Plaintiffs [sic].”5
(Emphasis added). The Defendants produced the gaming
data on 3,847 spreadsheet files, each of which contained
approximately 64,000 rows representing each individual
wager. 6 Each row contained the following information
about each wager:
• A unique identifying number for the wager;
• The date and time of the wager;
• The amount (in cents) that the player won or lost
on the wager;
• The rake (in cents) that PokerStars charged on the
wager; and
technical, or other specialized knowledge within the scope of Rule
702.”
5
Commonwealth v. Pocket Kings, Ltd., Franklin Circuit Court, Div.
II, 10-CI-00505, Order (Oct. 8, 2015). The Court ordered the
Defendants to produce the gaming data by October 21, 2015.
6
The Defendants submitted the gaming data to the Plaintiff on the
afternoon of October 16, 2015. The Plaintiff filed the gaming data
under seal with the Court on a zip drive attached as Exhibit A to its
October 21, 2015 Supplemental Memorandum in Support of the
Commonwealth’s Motion for Summary Judgment as to Damages.

82a
• Whether the player was registered in Kentucky at
the time the wager was made.
The Plaintiff’s calculations are anything but
“complex,” to use the Defendants’ characterization.
Indeed, all the Plaintiff did was to first strike the wagers
that were outside the scope of the five-year statute of
limitations and the recoverable losses under Chapter 372,
and then add the remaining losses. 7 Using the search
query feature available in Microsoft Access and Excel, the
Plaintiff removed this information. The Plaintiff then
added the remaining losses of five dollars or more lost at
one time or within twenty-four hours by Kentucky
players.
Search queries allowed the Plaintiff to process the
data more efficiently than it could have done by hand.
Without the benefit of the software, the Plaintiff would
have had to manually process millions of wagers on
spreadsheets, using a sharpie to cross out all of the
extraneous wagers. Handwritten work would have been
admissible under the Rules. However, the hand method
would have been time-consuming, tedious, and errorprone. Using search queries, the process is – as the
Plaintiff put it – easy, quick, and error-free.
It must not be forgotten that the Plaintiff is using the
Defendants’ own gaming data to arrive at its calculations.
The Defendants provided the Plaintiff with additional gaming data
that was either outside the five-year statute of limitations or outside
the scope of a recoverable loss under Chapter 372. Thus, the Plaintiff
needed to cull the following wagers: (1) Wagers from players not
registered in Kentucky; (2) Losses of less than five dollars at one time
or within twenty-four hours; (3) Wagers from which the Defendants
did not take a rake; and (4) Wagers that occurred prior to October 12,
2006.
7

83a
This gaming data is unlike the data that the Plaintiff
originally filed with the Court prior to the Defendants’
production of the gaming data. Indeed, before the
Defendants produced the gaming data, the Plaintiff was
prepared to proceed on its Motion for Summary
Judgment on Damages with figures generated by its
expert relying on the data provided by former defendants
to this case and other publically available sources. 8 Once
trebled, this data showed losses exceeding $1.6 billion.
Had the Plaintiff proceeded relying on its expert’s figures,
the Defendants would have been entitled to depose the
Plaintiff’s expert. However, the Plaintiff chose to rely
instead on the Defendants’ gaming data.
If the
Defendants would like to check the Plaintiff’s math, the
Defendants could use the very programs that they used to
compile the information in the first place, remove the
wagers for which recovery is not permitted under Chapter
372 as the Plaintiff explained to the Defendants (at their
request), 9 and then simply add up the remaining losses.
On August 13, 2015, the Plaintiff filed under seal its Report by
Commonwealth Economics which found that Kentucky players lost a
total of $535,951,020 from October 12, 2006 to April 15, 2011. Once
trebled, the damage figure amounted to $1,607,853,060. The Plaintiff
stipulated to withdraw the Commonwealth Economics report if the
Defendants submitted the gaming data as ordered by the Court,
which the Defendants did on October 16, 2015.
9
In an October 12, 2015 letter from the Defendants’ Counsel to
Plaintiff’s Counsel, the Defendants’ Counsel wrote: “Finally, we
request that you produce to us both the contents and the results of
any SQL [Structured Query Language] scripts or queries you run on
the ‘gaming data’ well in advance of any hearing at which you present
those results to the Court. If you do not give fair notice of your
calculations, and an opportunity for them to be tested by us in advance
of a damages hearing [held on October 26, 2015], we will be unable to
meaningfully participate in the hearing and will request a
continuance.” On October 20, 2015, six days before the damages
8

84a
Surely the Defendants have privately done this. If there
were any discrepancies in the Plaintiff’s math, the
Defendants should have brought this to the Court’s
attention. They have not done so.
In sum, since all the Plaintiff has done is to add up the
Defendants’ own data to arrive at its loss figures, the
Defendants are not entitled to discover the Plaintiff’s
math for the very simple reason that they already have it.
The Defendants could easily run their own calculations;
indeed, this is within the competency of any practicing
attorney or office staff, just as it is to use Microsoft Word,
Outlook, or any other Microsoft Office program that is
standard issue in virtually every office and school in the
United States.
3. The Plaintiff has Laid a Proper Foundation for its
Damage Total.
Second, the Defendants argue that the evidence of
damages is a summary for which a proper foundation has
not been laid pursuant to KRE 1006. The effect of not
laying a proper foundation is to deny the Defendants an
opportunity to cross-examine the creator of the
summaries. The Plaintiff disagrees, arguing that it has
complied with the notice and filing requirements of KRE
1006.
KRE 1006 provides as follows:
The contents of voluminous writings,
recordings, or photographs which cannot
hearing, Counsel for the Plaintiff emailed their calculations to the
Defendants. The email also references a letter sent earlier in the day
from Plaintiff’s Counsel to the Defendants’ Counsel in which
Plaintiff’s Counsel described issues with the gaming data such as
“zero rake hands, losses of $4.99, etc.”

85a
conveniently be examined in court may be
presented in the form of a chart, summary,
or calculation. A party intending to use such
a summary must give timely written notice
of his intention to use the summary, proof of
which shall be filed with the Court. The
originals, duplicates, shall be made available
for examination or copying, or both, by
other parties at reasonable time and place.
The court may order that they be produced
in court.
Here, the Plaintiff has clearly met the notice and filing
requirements of KRE 1006 to use a summary. The
Plaintiff gave the Defendants timely notice of its intention
to use the spreadsheets in the Plaintiff’s Supplemental
Memorandum in Support of Motion for Summary
Judgment as to Damages filed with the Court on October
21, 2015. Indeed, the Plaintiff delivered to the Defendants
the data, the queries, and the resulting spreadsheets six
days before the October 26, 2015 damages hearing, and all
of the foregoing information was filed with the Court.
4. The Court’s Construction of Chapter 372 Accords
with KRS 446.080.
The Defendants argue that the Court intentionally
and impermissibly interpreted Chapter 372 liberally in
order to create a penalty in favor of the Plaintiff that does
not appear in the plain language of the statute. The
Defendants further argue that the punishment afforded
in Chapter 372 is penal, and as such, the pertinent sections
of Chapter 372 must be construed strictly. In support of
their position, the Defendants cite the 1903 case of Jacob
v. Clark in which the Court found that “[t]he action here
allowed is in the nature of a penalty for the violation of the

86a
law . . . . All gaming statutes are necessarily penal . . . . It
is therefore to be strictly construed.” Jacob v. Clark, 72
S.W. 1095, 1096 (Ky. Ct. App. 1903).
During oral argument, the Plaintiff objected, arguing
that KRS 446.080 provides that “(1) All statutes of this
state shall be liberally construed with a view to promote
their objects and carry out the intent of the legislature . . .
(2) There shall be no difference in the construction of civil,
penal and criminal statutes.” KRS 446.080 became law in
1942, nearly forty years after Jacob v. Clark. Thus, to the
extent that the Court of Appeals in Jacob v. Clark held
that Chapter 372 must be read strictly, the Court finds
that KRS 446.080 overrules that particular holding.
Furthermore, the Court has not expanded the
meaning or enlarged the scope of Chapter 372. The
Plaintiff has proven all of the essential elements for a
claim brought under Chapter 372:
(1) The Commonwealth has standing under KRS
372.040 as “any Person”; 10
(2) The Defendants are “winners” because they took a
rake, i.e., “a per cent of the winnings” Triplett v.
Seelbach, 14 S.W. 948,949 (Ky. 1890); 11
(3) The Defendants engaged in illegal gambling in
violation of KRS 372.010; and
See Commonwealth v. Pocket Kings Ltd., Franklin Circuit Court,
Div. II, No. 10-CI-00505, Order (Nov. 2, 2011); Commonwealth v.
Pocket Kings Ltd., Franklin Circuit Court, Div. II, No. 10-CI-00505,
Opinion and Order, pp. 11-13 (Nov. 20, 2015).

10

See Commonwealth v. Pocket Kings Ltd., Franklin Circuit Court,
Div. II, No. 10-CI-00505, Opinion and Order, pp. 15-17 (Dec. 23,
2015).
11

87a
(4) The Plaintiff proved “losses” as defined by the
statute with support from the case law. 12
Nothing that the Court has decided exceeds the scope of
Chapter 372 and the pertinent case law interpreting it.
Still, the Defendants argue that recent Kentucky case
law requires the Court to strictly construe Chapter 372.
The Defendants cite Ky. Registry of Election Finance v.
Blevins for the proposition that “laws penal in nature are
to be strictly construed.” Ky. Registry of Election
Finance v. Blevins, 57 S.W.3d 289 The Kentucky
Supreme Court cited this statement to Justice Stephens’
concurring opinion in Caudill v. Judicial Ethics
Committee, 986 S.W.2d 435, 438 (1999). In his concurring
opinion in Caudill, Justice Stephens wrote “Since antinepotism laws are penal in character, they are to be
strictly construed.” Id. at 438. For authority for this
proposition, Justice Stephens cited an opinion from the
District Court of Appeal of Florida, Baillie v. Town of
Medley, 262 So.2d 693, 695 (Fla. App. Dist. 3d. 1972)
(“First that [anti-nepotism] statute has been viewed as
penal in character and therefore to be strictly construed.
In State ex rel Robinson v. Keefe, [ citation omitted] the
court held the predecessor Florida antinepotism [sic] law
as penal in character, and therefore further held it to be
strictly construed.”) Since the precedent cited by the
Defendants in the case at bar is rooted in an
interpretation of Florida law that conflicts with existing
Kentucky statutory law, the Defendants argument is not
well grounded.
Finally, the Defendants cite Woods v. Commonwealth,
See Commonwealth v. Pocket Kings Ltd., Franklin Circuit Court,
Div. II, No. 10-CI-00505, Opinion and Order, pp. 5-20 (Dec. 23, 2015).
12

88a
793 S.W.2d 809, 814 (Ky. 1990) for the proposition that
“penal statutes are not to be extended by construction,
but must be limited to cases clearly within the language
used.” Woods, at 814. However, the case at bar is clearly
within the ambit of Chapter 372. The Plaintiff has
standing to sue on behalf of the Kentucky players because
the Commonwealth is a person; the Kentucky players
have suffered losses of five dollars or more at one time or
within twenty-four hours; the Kentucky players’ losses
occurred playing illegal games online; and finally the
Defendants made their games available in Kentucky in
violation of its laws. In sum, these Defendants are the
precise target of Chapter 372. They operate the modem
version of the “faro-banks” and pool balls of the
Nineteenth Century with which the framers of Chapter
372 were well-acquainted. The only difference is that the
operations of these Defendants’ exist exclusively online
and their offices are located in far-flung offshore tax
havens. However, their online presence and off-shore
base does not make them any less of a target of Chapter
372. Chapter 372 targets illegal gambling; for five years,
these Defendants peddled illegal gambling in Kentucky.
There is nothing expansive about this Court’s
interpretation of Chapter 372 in that regard.
C. The Defendants are Winners Under Chapter 372
Because They Took a Percent of the Winnings.
The Defendants next argue that the Court should
enter judgment in their favor because the Court found
that they were not “winners” under the statute. They
argue that Chapter 372 only allows the “loser” to recover
from the “winner.” Indeed, both KRS 372.020 and KRS
372.040 target the “winner” of the money lost by the
“loser.” The Court found the Defendants liable for the full

89a
extent of the Kentucky players’ losses because they
shared in the winnings with the actual winners, and
pursuant to Triplett, the Defendants were jointly liable
with the winners for the entire amount of the losses. 13 The
Defendants make three points in support of their
argument that they are not liable as “winners” under
Triplett: (1) The section upon which the Triplett Court
based its decision has since been repealed; (2) Even if
Triplett were still good law, that case and the sincerepealed statute upon which it relied only permitted firstparty claims by gambling losers themselves, and did not
permit trebling of damages; and (3) The principles of joint
and several liability permitting recovery of the entire
amount of the loss from the operator have also since been
rejected.
1. Triplett is Still Good Law for the Proposition for
which it was Cited by this Court.
The Court in Triplett was construing the meaning of
the definition of “winner” as used in KRS 372.020, not the
former “ninth section” which has since been repealed. 14
The selection below is taken from the Triplett opinion that
immediately precedes the section quoted and discussed
See Commonwealth v. Pocket Kings Ltd., Franklin Circuit Court,
Div. II, No. 10-CI-00505, Opinion and Order, pp. 15-17 (Dec. 23,
2015).
13

The since-repealed Section 9 reads (as quoted by the Triplett
Court), as follows: “Whoever shall invite, persuade, or otherwise
induce another to visit any place where gaming is carried on, shall be
fined from fifty to five hundred dollars; and moreover, be responsible
to such other and his creditors for whatever he may lose in gaming at
such place.” Under a previous organization of the Kentucky Statutes,
Chapter 372 had a different assignment. Under that assignment, the
section known today as KRS 372.020 was the “second section,” for
example.

14

90a
by the Court on page sixteen (16) of its December 23, 2015
Opinion and Order:
So the question is, does the taking of this per
cent. [sic] make the appellees jointly
interested in the winnings as wrongdoers,
so as to make them winners of the
appellant’s money in the sense of the
statutes, supra? 15 We do not understand
that the winner, in the sense of said statutes,
must be one of the players with cards in his
hands; but if he is to receive a per cent. [sic]
of the winnings by the actual player, he is, in
the sense of the statute, a winner.
Triplett v. Seelbach, 14 S.W. 948, 949 (Ky. 1890).
[Footnote added]. Clearly, the Triplett Court was
construing the meaning of “winner” which appears in both
KRS 372.020 and KRS 372.040 and is not otherwise
defined in the Chapter. The Court thoroughly reviewed
the Triplett Court’s reasoning in its previous December
23 Opinion and Order. 16
The Defendants argue that the statute upon which the
Triplett Court permitted recovery has since been
repealed. However, the Court finds that the Triplett
Court clearly quoted the “ninth section” at the beginning
of the analysis of a legal issue entirely separate from the
preceding legal issue concerning the definition of a
winner. Thus, the Triplett Court’s interpretation of the
The statute referenced by the supra is the statute now found in KRS
372.020.

15

See Commonwealth v. Pocket Kings Ltd., Franklin Circuit Court,
Div. II, No. 10-CI-00505, Opinion and Order, pp. 15-17 (Dec. 23,
2015).
16

91a
ninth section did not inform its analysis of its definition of
a “winner.”
2. Triplett Applies Equally to Third Party Claims.
The Defendants also argue that even if Triplett were
still good law (which, they maintain that it is not), its
holding is nevertheless inapplicable in this case because
the ninth section only permitted “first party” claims, or,
in other words, claims brought by the loser, and not third
party claims such as those brought by “any person” as
allowed for in KRS 372.040. The Court disagrees with this
reasoning for the reason stated above: The proposition
for which this Court cited Triplett in its December 23,
2015 Opinion and Order is not based on the Triplett
Court’s interpretation of the former ninth section; rather,
the proposition for which this Court cited Triplett is based
on the Triplett Court’s reasonable definition of “winner”
found in both KRS 372.020 and KRS 372.040. Since this
Court cited the Triplett Court’s holding interpreting the
definition of “winner,” a term that appears in both KRS
372.020 and KRS 372.040, the Triplett Court’s holding
applies equally to both first party and third party claims.
3. The Principles of Joint and Several Liability Are
Not at Issue in this Case.
The Defendants next argue that the Triplett Court’s
interpretation of “winner” in Chapter 372 amounts to a
finding of joint and several liability which has been
abolished in Kentucky. The Defendants cite Hilen v.
Hays, 673 S.W.2d 713, 718 (Ky. 1984) for the proposition
that Kentucky courts have soundly rejected the concept
that one tortfeasor should be responsible for the entire
amount of losses. Rather, Kentucky law, as codified in
KRS 411.182 now requires the apportionment of damages

92a
based on the relative fault of each defendant.
The Court disagrees with this argument for two
reasons. First, the case at bar does not sound in tort;
rather, the present action is based on the violation of a
statute that prohibits unlawful gambling contracts. KRS
372.010. 17 Thus, to the extent that Triplett relies on a
theory of joint and several liability, the Triplett Court’s
holding interpreting “winner” is not abrogated by KRS
411.182 or Hilen v. Hays, 673 S.W.2d 713, 718 (Ky. 1984).
Second, as the Plaintiff stated during oral argument, KRS
411.182(1) only applies in an action “involving fault of
more than one (1) party to the action.” Here, even though
the Plaintiff has sued multiple parties, all of the
Defendants share the same fault for the same violation.
This is not a tort case in which the separate actions (or
inaction) of two defendants contributes to a plaintiff’s
harm.
Proving that the Defendants are “winners” under
Chapter 372 is an essential element in the Plaintiff’s case.
Indeed, two weeks after the Plaintiff’s filed their Motion
to Alter, Amend, or Vacate, they filed a Notice of
Supplemental Authority to which the Defendants
attached a copy of Sonnenberg v. Amaya, a recent opinion
from the United States Court of Appeals for the Seventh
Circuit written by Judge Posner. In Sonnenberg v.

The statute reads as follows: “Every contract, conveyance, transfer
or assurance for the consideration, in whole or in part, of money
property or other thing won, lost or bet in any game, sport, pastime
or wager, or for the consideration of money, property or other thing
lent or advanced for the purpose of gaming, or lent or advanced at the
time of any betting, gaming, or wagering to a person then actually
engaged in betting, gaming, or wagering, is void.”

17

93a
Amaya, Judge Posner interpreted two Illinois statutes 18
that track KRS 372.020 and KRS 372.040. In the opinion,
Judge Posner wrote,
[The plaintiffs’] problem . . . is that the
defendants are not the winners of any game
that any of the plaintiffs (or their sons)
played. The defendants are the gambling
sites, not the persons who won from [the
plaintiffs’ sons] in a game hosted by the
site . . . . A winner would be a person whom
a player had played with and lost to. It’s
true that the sites rake off some of the
money in the pot, and it is this that causes
the plaintiffs to call the sites “winners.” But
charging a fee for engaging in gambling is
not the same as winning a gamble . . . . The
host takes a share of the pot to defray the
expense of maintaining the gambling site
but has no stake in the outcome of the games
played on the site.
The Defendants in the case at bar urge the Court to
follow the Seventh Circuit’s lead. The Court declines to
do so. First, a ruling from the Seventh Circuit is not
binding authority on this Court. Second, while the
The statutes read as follows: “Any person who by gambling shall
lose to any other person, any sum of money or thing of value,
amounting to the sum of $50 or more and shall pay or deliver the same
or any part thereof, may sue for and recover the money or other thing
of value, so lost and paid or delivered, in a civil action against the
winner . . . .” 720 ILCS 5/28-8(a). “If within 6 months, such person
who under the terms of Subsection 28-8(a) is entitled to initiate action
to recover his losses does not in fact pursue his remedy, any person
may initiate a civil action against the winner.” 720 ILCS 5/28-8(b).
18

94a
statutes of Kentucky and Illinois may appear to be
similar, it appears that Kentucky and Illinois have
developed different case law interpreting those same
statutes. In fact, the precise difference in case law
between Kentucky and Illinois was the subject of the
preceding discussion: Triplett v. Seelbach, in which the
Court held that “winner” also includes the person or
entity that takes a percent of the winnings, in other words,
a rake. Triplett v. Seelbach, 14 S. W. 948, 949 (Ky. 1890).
A case similar to Triplett may not exist in Illinois;
nevertheless, it is within the legal tradition of this
Commonwealth and the Court is bound by it.
D. The Damages Awarded by The Court Are Not
Excessive, Are Within the Statute of Limitations,
and Do Not Violate KRS 411.186.
The Defendants next make three arguments attacking
the damage award. First, they argue that the damages
are excessive because they exceed the Defendants’ rake
by $850 million. Second, the Defendants argue that the
treble damages cannot be awarded absent a showing of
oppression or fraud. And finally, the Defendants argue
that some of the losses relied on by the Court in its
damage assessment exceed the statute of limitations for
these Defendants.
1. The Defendants’ Rake is Not the Extent of the
Loss Recoverable by the Plaintiff.
The Defendants first argue that the damage award is
excessive because it grossly exceeds the amount of the
rake (which they have stated is “in the range of $20
million”), or the percent of winnings that the Defendants
actually received. However, as the Court has found
before, the Defendants’ rake is not the extent of the loss

95a
measured by Chapter 372; rather, the loss described in
Chapter 372 is measured by the losses of the Kentucky
players, so long as each loss is greater than five dollars,
lost at either one time or within twenty-four hours. 19
2. The Damages Authorized Under Chapter 372 Are
Not Purely Punitive and Thus Do Not Require a
Showing of Fraud and Oppression.
Second, the Defendants argue that the Court cannot
award punitive damages without first showing
“oppression” and “fraud” as called for in KRS 411.184 and
making the requisite findings of fact called for in KRS
411.186(2). However, the Court is unconvinced that the
damages are purely punitive and thus subject to the
requirements of Chapter 411. See Salonen v. Farley, 82
F.Supp. 25, 28 (E.D. Ky. Jan. 18, 1949). Instead, the
treble damages authorized by KRS 372.040 are an
automatic function of the statute to be awarded to “any
person.” The reasons for awarding treble damages are
mixed and varied, and were thoroughly discussed by
Judge Swinford in Salonen v. Farley. 20
3. The Statute of Limitations Requires that the
See Commonwealth v. Pocket Kings Ltd., Franklin Circuit Court,
Div. II, No. 10-CI-00505, Opinion and Order, pp. 7, 8 (Dec. 23, 2015).
19

In their Motion, the Defendants imply that the Court has based its
ruling in part on an alleged statement made by an out-of-state
attorney representing an internet gambling domain in
Commonwealth v. 140 Internet Domain Names, Franklin Circuit
Court, Div. II, No. 08-CI-1409. As Plaintiff’s counsel recalled for the
Court, the out-of-state attorney told the Court “everyone knows this
is illegal, but there is nothing you can do about it.” The Defendants
argue that the record does not show that any such statement was ever
made. To be clear, this Court has not based any of its decisions in this
case on the alleged statement of the out-of-state attorney.
20

96a
Plaintiff Look Back Five Years from the Time the
Motion to Amend the Complaint is Filed, not when
the Complaint is Served.
Finally, the Defendants argue that the damages
period utilized by the Court includes losses from more
than five years before the summonses were either served
upon, or good faith efforts at service were made on the
Defendants REEL and The Oldford Group Ltd n/k/a
Amaya Group Holdings (IOM) Ltd. The Defendants
argue that the damage assessment should only “look
back” five years from the time at which each Defendant
was served with summons pursuant to CRs 3 and 4.01(1). 21
REEL was not served with summons until November 11,
2012 and The Oldford Group Ltd. was not served until
March 19, 2014. Thus, the Defendants maintain that
damages should not be assessed for any time earlier than
five years prior to the date on which the Defendants were
served, that is, November 11, 2007 for REEL and March
19, 2009 for the Oldford Group Ltd n/k/a Amaya Group
Holdings (IOM) Ltd. The Court and the Parties have long
since used the date of October 12, 2006 as the starting
point at which the Plaintiff can recover damages.
The Plaintiff argues that the Defendants have
mistakenly applied the incorrect rule of civil procedure.
Rather than following CRs 3 or 4.01 which describes when
an action is commenced, the correct rule for amending a
complaint once an action has already commenced is CR

CR 3 provides, “A civil action is commenced by the filing of a
complaint with the court and the issuance of a summons or warning
order thereon in good faith.” CR 4.01(1) provides, “Upon the filing of
the complaint (or other initiating document) the clerk shall forthwith
issue the required summons . . . .”

21

97a
15.01, which provides in pertinent part:
A party may amend his pleading once as a
matter of course at any time before a
responsive pleading is served or, if the
pleading is one to which no responsive
pleading is permitted and the action has not
been placed upon the trial calendar, he may
so amend it at any time within 20 days after
it is served. Otherwise, a party may amend
his pleading only by leave of the court or by
written consent of the adverse party; and
leave shall be freely given when justice so
requires.
In the case at bar, the Plaintiff served PokerStars’
attorney, Jeff Ifrah, with its Motion for Leave to Amend
its Complaint with the Plaintiff’s Third Amended
Complaint attached on October 12, 2011. The Court also
finds that the Plaintiff made good faith efforts at
attempting to find the Defendants’ service agents.
Indeed, the various agents who receive service for these
Defendants are not easy to locate. Their registered
addresses are all outside of the United States. Moreover,
their service agents are not in obvious, easy-to-find
locations. Rather, their offices are found in discreet
territories and dependencies that also double as offshore
tax havens such as Gibraltar, Malta, Aruba, the Isle of
Man, and the British Virgin Islands. The agents for both
the Defendants REEL and The Oldford Group Ltd.
maintain their offices in the Isle of Man, a small selfgoverning dependency of the United Kingdom located on
an island in the Irish Sea between Great Britain and
Ireland.
The Plaintiff cites Hill v. State Farm Ins. Co., 390

98a
S.W.3d 153 (Ky. Ct. App. 2012) to support its proposition
that the statute of limitations looks back from the time the
motion to amend the complaint is filed. In Hill, an injured
driver sued the tortfeasor; however, when the driver’s
medical expenses exceeded the tortfeasor’s insurance
policy, the driver sought to recover from her own
insurance company through its underinsured motorist
policy. Id. at 155. When the driver and her insurer could
not agree, she moved to amend her complaint to add the
insurer four days before the statute of limitations period
ended. Id. Her complaint was not filed until after the
statute of limitations period had run. Id. The Court of
Appeals held that her action “commenced” as to her
insurer when she moved for leave to file her complaint, not
when the court granted her motion. Id. at 156. The Court
also found that “the linchpin in determining when a party
would be prejudiced if required to defend a case on its
merits is notice, which [the insurer] received before the
period expired. The record indicates that counsel for [the
insurer] was served by mail with [the driver’s] motion for
leave to amend her complaint . . . .” Id.
Similarly, in the case at bar, the Plaintiff served its
Motion for Leave to Amend Complaint on Counsel for
The Oldford Group Ltd. and REEL on October 12, 2011.
Thus, the “look-back” period is five years from that date
until April 15, 2011. The Court also finds that the Plaintiff
worked as diligently as it could to find the addresses for
the service agents for all of the defendants that it added
to its Third Amended Complaint. While the Plaintiff could
easily find the illegal gambling websites, it could not as
easily discover the owners of the websites, much less the
location of their service agents. After all, a business
chooses to locate its offices in the Isle of Man or Gibraltar

99a
precisely so as to not be easily found by the authorities of
the more visible, industrialized countries in which they
often make their profits.
E. The Commonwealth’s Enforcement of Chapter 372
Does Not Violate the Due Process Clauses of the
Kentucky and U.S. Constitutions.
The Defendants next argue that the Plaintiff’s
enforcement of Chapter 372 violates the Due Process
Clauses of the Kentucky and the U.S. Constitutions
because the Defendants had no notice that the state
purported to have a right to impose aggregated civil
penalties upon them. Essentially, the Defendants argue
that they did not know they would be liable for losses
under Chapter 372. This cannot be.
The Defendants primarily rely on BMW of N. Am.,
Inc. v. Gore, 517 U.S. 559 (1996) to support their due
process violation claim without discussing the facts of
BMW of N. Am. Instead, the Defendants selectively
quote various passages from the case without providing
the proper context in which the decision was made. But
the facts of BMW of N. Am. tell a tale very different from
the case at bar. In BMW of N. Am., the plaintiff sued
BMW for $4,000 in actual damages because BMW sold
him a new car that had been repainted pursuant to BMW’s
damage policy. Id. at 564. The plaintiff was not told that
the car had been repainted pursuant to BMW’s
nondisclosure policy. Id. The plaintiff also sued BMW for
$500,000 for punitive damages in the complaint; however,
during the pendency of the litigation, the plaintiff sought
punitive damages of $4,000,000 in order to deter deceptive
trade practices. Id. at 564, 565. The punitive damage
figure of $4,000,000 represented the number of
refurbished vehicles sold by BMW in the United States

100a
for the preceding seven years (approximately 1,000)
multiplied by the loss of value for each car for the
repainting job ($4,000). The jury agreed with the plaintiff
and awarded $4,000,000 in punitive damages. Id. at 564.
The jury’s verdict was affirmed at the Alabama Supreme
Court, however, it reduced the damage award to
$2,000,000. Id. at 567.
The U.S. Supreme Court reviewed the case in order to
“illuminate the character of the standard that will identify
unconstitutionally excessive awards.” Id. at 568. The
Court began its review by acknowledging that
“elementary notions of fairness enshrined in our
constitutional jurisprudence dictate that a person receive
fair notice not only of the conduct that will subject him to
punishment, but also the severity of the penalty that a
state may impose.” Id. at 575. The Court then listed three
“guideposts” that it would use to determine whether
adequate notice of the severity of the sanction existed:
(1) the degree of reprehensibility of the defendant’s
conduct; (2) the ratio of the punitive damage award to the
actual harm inflicted on the plaintiff; and (3) the sanctions
for similar misconduct. Id.
The Supreme Court ultimately determined that
BMW’s conduct was not “sufficiently egregious to justify
a punitive sanction that is tantamount to a severe criminal
penalty.” Id. at 585. First, the Court found that BMW’s
conduct was not so reprehensible to justify the damage
award because its conduct was not illegal, nor did it make
any deliberate false statements, conceal evidence, or
engage in any other affirmative misconduct. Id. 579.
Second, the ratio of the punitive damage award to the
actual harm was an astonishing 500 to 1. Id. at 583.
Finally, the Court found that penalties for similar types of

101a
alleged misconduct would be $2,000, or one thousand
times less than the damage award assessed by the
Alabama Supreme Court. Id. 584.
The alleged misconduct at issue in BMW of N Am.
pales in comparison to the actual misconduct at issue in
the case at bar. In fact, the Supreme Court distinguished
BMW of N. Am. from a hypothetical case similar to the
case now before this Court. It wrote,
Certainly, evidence that a defendant has
repeatedly engaged in prohibited conduct
while knowing or suspecting that it was
unlawful would provide relevant support for
an argument that strong medicine is
required to cure the defendant's disrespect
for the law. Our holdings that a recidivist
may be punished more severely than a first
offender
recognize
that
repeated
misconduct is more reprehensible than an
individual instance of malfeasance.
Id. at 576, 577. (Citations omitted). BMW’s policy of
nondisclosure of minor repainting of new cars had not
violated any law in Alabama or any other jurisdiction in
the United States. Id. at 577. By contrast, the
Defendants’ entire enterprise in Kentucky was illegal,
and they knew it. Indeed, KRS 372.010 voids “every
contract, conveyance, transfer or assurance for the
consideration, in whole or in part, of money, property or
other thing won, lost or bet in any game . . . to a person
then actually engaged in betting . . . .”
The
Commonwealth has only authorized gambling in the
limited circumstances described in Chapters 154A (state
lottery), 230 (horse racing), and 238 (charitable gaming)
of the Kentucky Revised Statutes. Internet gambling is

102a
not authorized by any of the Revised Statutes. The
Defendants are presumed to know the laws of Kentucky.
They cannot claim ignorance of law. See Walker v.
Commonwealth, 127 S.W.3d 596, 607 (Ky. 2004). Where
BMW had not violated any law or engaged in any other
type of affirmative misconduct, the Defendants here
facilitated hundreds of millions of illegal gambling
transactions for approximately five years resulting in the
loss of$290 million by Kentucky players. The Defendants’
systematic and deliberate violation of Kentucky’s law is
precisely the type of reprehensible conduct that justifies
the damages awarded by this Court.
The Defendants in the case at bar had plenty of notice
that they could be liable for a significant amount of money.
This notice could be found in Chapter 372 and the case law
developed by the Courts of Kentucky interpreting it. This
Court has done nothing more than read the law. See
Marbury v. Madison, 1 Cranch 137, 178 (1803) (“It is
emphatically the province and duty of the judicial
department to say what the law is. Those who apply the
rule to particular cases, must of necessity expound and
interpret that rule.”). As the Court wrote previously in its
December 23 Opinion and Order, the Defendants could
have obtained local counsel prior to reaching into
Kentucky to understand the extent of the liability they
would be exposing themselves to by operating in
Kentucky. Moreover, the Defendants are not entitled to
notice of the legal strategy to be used against them should
they choose to violate the law. For instance, it is entirely
possible that had the Commonwealth not sued the
Defendants, “any person” could have sued on behalf of
one or all of the Kentucky players. The Defendants are
not being exposed to any greater liability by virtue of

103a
being sued by the Commonwealth than they would be had
any other private individual brought suit on behalf of all
of the Kentucky players.
F. The Commonwealth Has Standing to Pursue This
Claim.
The Defendants continue to experiment with new
arguments challenging the Plaintiff’s standing to bring
this claim. This time the Defendants assert that the
Commonwealth does not have Article III Constitutional
standing. However, the Court is not inclined to revisit this
matter since it is not properly before the Court on a CR
59.05 Motion. A CR 59.05 Motion is not the proper vehicle
with which to raise new arguments on issues that have
already been litigated, especially when those new
arguments do not contain newly discovered evidence,
address a manifest error of law or fact, or assert
misconduct on the part of opposing counsel. Gullion v.
Gullion, 163 S. W.3d 888, 893 (Ky. 2005) (“A party cannot
invoke CR 59.05 to raise arguments and to introduce
evidence that should have been presented during the
proceedings before the entry of judgment.”); see also
Rogers v. Integrity Healthcare Servs., 358 S.W.3d 507,
512 (Ky. Ct. App. 2012). The Court has already ruled on
the issue of the Plaintiff’s standing in at least two previous
Opinions, the most recent coming on November 20,
2015. 22 At that time, the Defendants’ current Counsel had
entered an appearance and raised the issue of the
Plaintiffs standing in its Motion for Reconsideration filed
on October 22, 2015.
The other Opinion and Order was Commonwealth v. Pocket Kings
Ltd., Franklin Circuit Court, Div. II, No. 10-CI-00505, Order (Nov. 2,
2011);
22

104a
G. The Court Declines to Reduce the Interest Rate on
the Judgment.
The Court declines the Defendants’ invitation to
reduce the twelve percent (12%) rate on the judgment to
the federal court rate of 0.11%. KRS 360.040 provides
that “A judgment shall bear twelve percent (12%) interest
compounded annually from its date.” The Defendants cite
Young v. Young, 479 S.W.2d 20, 22 (Ky. 1972) for the
proposition that “If there are factors making it
inequitable to require payment of interest it may be
disallowed.” The Defendants argue chiefly that twelve
percent (12%) interest on an $870 million judgment would
be “an unwarranted windfall and would impermissibly
chill Defendants’ constitutional right to appeal.” The
Court disagrees. Whether the post-judgment interest is
a windfall does not make it inequitable. The Defendants
offer no proof that paying the interest would harm their
“constitutional right to appeal.” Rather, the Court finds
that the Defendant, Amaya Group Holdings (IOM) Ltd.,
is well-positioned to tender the post-judgment interest.
Amaya is the world’s largest online poker company with
over 70% market share and annual revenue topping one
billion dollars in 2014 alone. 23 Indeed, in August 2014,
Amaya paid $4.9 billion to acquire REEL and The Oldford
Group Ltd. from Mark and Isai Scheinberg. Thus, the
Court refuses to reduce the post-judgment interest rate
below twelve percent.
CONCLUSION
The Defendants cannot escape the fact that they broke
the law. It is beyond dispute that the Defendants’
Amaya Investor Presentation http://www.amaya.com/pdfl20151118
_aya-presentation_for-website.pdf, p.8 (Nov. 18, 2015).
23

105a
business model, at least as it applied to Kentucky, was
predicated on violating Kentucky’s laws. It is equally
beyond dispute that the precise activity that the
Defendants were engaged in was and remains illegal in
Kentucky. Furthermore, it is also beyond dispute that the
illegal activity engaged in by the Defendants was the
precise activity that the framers of Chapter 372 intended
to stop – namely, illegal gambling. The Defendants’
“death by a thousand cuts” argument fails because they
cannot escape the fundamental fact that they profited
from the violation of Kentucky’s laws. Archaic or not,
Chapter 372 is the law of Kentucky. As the Court wrote
in its December 23 Opinion and Order, if the Defendants
would like to have avoided such as harsh result, they
would have been better served to have made themselves
aware of Kentucky’s law prior to reaching into Kentucky
via their online gaming sites. They either made no effort
to acquaint themselves with Kentucky’s law, or, knowing
the law, simply ignored it in the pursuit of profit believing
that it would never be enforced.
WHEREFORE the Defendants’ Motion to Alter,
Amend, or Vacate and Request to Make Required
Findings of Fact is DENIED except insofar as the
Court’s December 23, 2015 Opinion and Order is
AMENDED to correctly identify the judgment debtors as
Amaya Group Holdings (IOM) Ltd. and Rational
Entertainment Enterprises Ltd.
SO ORDERED, this 11th day of February, 2016. This
Order is final and appealable and there is no just cause for
delay.
Thomas D. Wingate
THOMAS D. WINGATE
Judge, Franklin Circuit Court

106a
APPENDIX D
COMMONWEALTH OF KENTUCKY
FRANKLIN CIRCUIT COURT
DIVISION II
CIVIL ACTION No. 10-CI-00505

COMMONWEALTH OF
KENTUCKY ex rel. J. Michael
Brown, Secretary, JUSTICE AND
PUBLIC SAFETY CABINET

PLAINTIFF

vs.
POCKET KINGS, LTD, et al.

DEFENDANTS

OPINION AND ORDER
This matter is before the Court on the following three
Motions: (1) the Defendants’ Motion to Vacate Award of
Damages Due to Calculation Error and/or a CR 30.02(6)
Deposition as to Plaintiff’s Calculation of Damages filed
November 23, 2015; (2) the Defendants’ Motion for
Partial Summary Judgment on Plaintiff’s Demand for
Treble Damages filed on November 12, 2015; (3) and the
Plaintiff’s Motion for Summary Judgment on Damages
filed on August 14, 2015. Counsel was heard in open court
during the Court's regularly scheduled Motion Hours on
Monday, October 26, 2015, Monday, November 23, 2015,
and with brief argument on Wednesday, December 16,
2013. The Court being sufficiently advised, hereby

107a
DENIES the Defendants’ Motion to Vacate, however, the
Court clarifies its interpretation of KRS 372.020 as
described in its previous Opinion and Order entered
November 20, 2015. The Court also DENIES the
Defendants’ Motion for Partial Summary Judgment and
GRANTS the Plaintiff’s Motion for Summary Judgment
on Damages and hereby AWARDS the Plaintiff treble
damages for a total amount of $870,690,233.82, plus any
and all continuing costs of collection of this judgment, plus
interest at the judicial rate of twelve percent (12%) per
annum until paid in full.
STATEMENT OF FACTS
The facts in this case are well known and have been
adequately stated in the Court’s two most recent
Opinions and Orders entered on August 12, 2015 and
November 20, 2015. However, for the sake of convenience,
the Court will recite certain pertinent facts. The
Defendants, Amaya Holdings Limited and Rational
Entertainment Enterprises Limited (REEL), are the
current owners and operators of the PokerStars website.
From October 12, 2006 until April 15, 2011, more than
34,000 Kentucky players lost five dollars or more at one
time or within twenty-four hours playing poker on the
PokerStars website. The Kentucky players placed over
246,000,000 bets on the PokerStars website during that
time. The former owners and operators of PokerStars
operated their website in violation of the laws of Kentucky.
The Commonwealth brought this suit in 2010 seeking to
recover the losses incurred by Kentucky players on the
PokerStars website. On August 12, 2015, the Court
granted the Commonwealth’s Motion for Partial
Summary Judgment and entered Default Judgment
against the Defendants for failure to participate in

108a
discovery.
ANALYSIS
A. Standard of Review for a Motion to Reconsider an
Interlocutory Order.
While the Defendants styled their Motion as a CR
59.05 “Motion to alter, amend or vacate a judgment,” the
Court finds instead that the Defendants’ Motion is more
properly reviewed under the CR 54.02(1) standard for
“Judgment upon multiple claims or involving multiple
parties.” CR 54.02(1) provides in pertinent part:
In the absence of [a recital that the
judgment is final], any order or other form
of decision, however designated, which
adjudicates less than all the claims or the
rights and liabilities of less than all the
parties shall not terminate the action as to
any of the claims or parties, and the order
or other form of decision is interlocutory
and subject to revision at any time before
the entry of judgment adjudicating all the
claims and the rights and liabilities of all the
parties.
The Court’s November 20, 2015 Opinion and Order was
not marked as final and appealable; rather, it was
interlocutory, and thus subject to revision at any time
prior to the entry of the Court’s final judgment. Thus,
pursuant to CR 60.02, either party may move the Court to
revise an interlocutory order as follows:
On motion a court may, upon such terms as
are just, relieve a party or his legal
representative from its final judgment,

109a
order, or proceeding upon the following
grounds: (a) mistake, inadvertence, surprise
or excusable neglect . . . . The motion shall
be made within a reasonable time, and on
grounds (a), (b), and (c) not more than one
year after the judgment, order, or
proceeding was entered or taken. A motion
under this rule does not affect the finality of
a judgment or suspend its operation.
Here, the Defendants have moved the Court to reconsider
its November 20 Opinion and Order due to an inadvertent
factual error which fits squarely within the text of CR
60.02.
B. Summary Judgment Standard of Review.
Summary judgment “shall be rendered forthwith if the
pleadings, depositions, answers to interrogatories,
stipulations, and admissions on file, together with the
affidavits, if any, show that there is no genuine issue as to
any material fact and that the moving party is entitled to
judgment as a matter of law.” CR 56.03. Summary
judgment is appropriate when the court concludes that
there is no genuine issue of material fact for which the law
provides relief. Id. Summary judgment may be rendered
on the issue of liability alone although there is a genuine
issue as to the amount of damages. Id.
The moving party bears the initial burden of showing
the non-existence of a genuine issue of material fact, and
the burden then shifts to the opposing party to show
affirmatively that there is a genuine issue of material fact
for trial. Jones v. Abner, 335 S.W.2d 471, 475 (Ky. Ct. App.
2011). The movant should not succeed unless it has shown
“with such clarity that there is no room left for

110a
controversy.” Steelvest, Inc. v. Scansteel Service Ctr., 807
S.W.2d 476, 482 (Ky. 1991). “The inquiry should be
whether, from the evidence on record, facts exist which
would make it possible for the nonmoving party to prevail.
In the analysis, the focus should be on what is of record
rather than what might be presented at trial.” Welch v.
Am. Publ’g Co. of Kentucky, 3 S.W.3d 724, 730 (Ky. 1999).
In reviewing Motions for Summary Judgment, the Court
views all facts in the light most favorable to the nonmoving party and resolves all doubts in its favor, and
summary judgment should only be granted when the facts
indicate that the non-moving party cannot produce
evidence at trial that would render a favorable judgment.
Steelvest, 807 S.W.2d at 480.
The Court recognizes that summary judgment is a
device that should be used with caution and is not a
substitute for trial. “[T]he proper function of summary
judgment is to terminate litigation when, as a matter of
law, it appears that it would be impossible for the
respondent to produce evidence at the trial warranting a
judgment in his favor.” Jones, 335 S.W.3d at 480. Thus,
this Court finds that summary judgment will be proper
when it is shown with clarity from the evidence on record
that the adverse party cannot prevail, as a matter of law,
under any circumstances.
DISCUSSION
A. The Court Denies the Defendants’ Motion to Vacate its
November 20, 2015 Order Awarding Plaintiff
$290,230,077.94 in Damages
The Plaintiff is entitled to recover the entire amount of
the Kentucky players’ losses of five dollars or more,
whether at one time or within twenty-four hours, incurred

111a
while playing games on the PokerStars website from
October 12, 2006, until April 15, 2011. After careful
reconsideration and review of the parties’ arguments, the
pertinent case law, and the legislative purpose of Chapter
372, the Court finds that the Plaintiff is not required to
offset the Kentucky players’ losses with their winnings
because the Plaintiff is not a “loser” within the meaning of
KRS 372.020, but rather is suing as “any other person”
under KRS 372.040. Since the Plaintiff is not a “loser”
under KRS 372.020, the statute must be read in this case
to give the fullest effect possible to the most significant
purpose to be served by the statute, that is, the deterrence
of illegal gaming. Thus, the Court hereby AWARDS the
Plaintiff $290,230,077.94.
On November 20, 2015, the Court entered an Opinion
and Order granting the Plaintiff’s Motion for Summary
Judgment on Damages in the amount of $290,230,077.94.
On November 23, 2015, the Defendants filed their Motion
to Vacate arguing that the amount of the Court’s award
did not follow from its reasoning, which the Defendants
argue reflected their characterization of the only
recoverable losses as “net” losses. The Defendants
attached to their Motion as Exhibit 1 a spreadsheet
provided to them by the Plaintiff (but never entered into
the record in the form that it now appears) which listed
four possible calculations for the damage award (before
trebling):
1. $290,230,077.94 representing the Kentucky players
losses of $5 or more within 24 hours;
2. $248,689,108.56 representing the Kentucky players
losses of $5 or more at one time;
3. $68,099,816.27 representing the Kentucky players’

112a
net losses of $5 or more within 24 hours; and
4. $26,195,308.20 representing the net losses of all
players who lost more than they won. 1
According to the Court’s reasoning in its November 20
Opinion and Order, the Defendants argue, the Court
should have awarded the Plaintiff the figure representing
the net losses of all players who lost more than they won,
or $26,195,308.20.
At the time of the entry of the Court’s Opinion and
Order, the Court understood the damage award to be a
relatively straightforward choice between the only two
figures advanced by the Plaintiff: (1) $290,230,077.94,
representing the “losses of $5 or more at one time,” and
(2) $248,689,108.56, representing “losses of $5 or more
within 24 hours.” And at that time, the Court did not
understand the amount of $290,230,077.94 to be anything
other than the “net” loss argued for by the Defendants.
The Court’s reasoning did not reflect the complexity of
the parties’ arguments because the Court did not at the
time fully understand all of the possible calculations to
determine the Plaintiff’s losses. This was due, in part, to
the language used by the parties to frame the issue of how
to calculate the Plaintiff’s losses. The Defendants frame
the issue as whether the Plaintiff may recover “net
When the Plaintiff filed its initial Motion for Summary Judgment
on Damages, the Plaintiff alleged that the damage figure was
$535,951,020.00, that, when trebled, amounted to $1,607,853,060.00.
The figure was generated by its expert witness relying on data from
a previous defendant, PartyGaming, and other sources in lieu of not
having received any data from the Defendants. The Plaintiff
stipulated to withdraw its expert figure if the Defendants disclosed
the gaming data, which they did on October 16, 2015. The Plaintiff
filed the data under seal with the Court on October 21, 2015.

1

113a
losses,” which requires the Plaintiff to account for his
winnings, or whether the Plaintiff may recover “gross
losses,” which does not require the Plaintiff to account for
his winnings. The Defendants’ characterization of losses
as either “gross” or “net” derives from its analysis of the
1892 case of Elias v. Gill, 18 S.W. 454 (Ky. 1892) which the
Court discussed in its previous Opinion and Order.
However, the Plaintiff does not frame the issue of its
recovery as a choice between “gross” and “net” losses.
Rather, the Plaintiff frames the issue as whether the
Defendants are entitled to an offset, which, the Plaintiff
argues the Defendants are not entitled to. The Plaintiff
finds support for its argument from its reading of KRS
372.020, Elias v. Gill, and, importantly, Caldwell v.
Caldwell, 2 Bush 446 (Ky. 1867) a case that the Court did
not address in its previous Opinion and Order.
The Court’s analysis must begin with KRS 372.040, the
statute under which the Plaintiff is suing; which gives
standing to “any other person” to “sue for the money or
thing lost” if neither the loser nor the loser’s creditor sues
for the “money or thing lost” within six months.
If the loser or his creditor does not, within
six (6) months after its payment or delivery
to the winner, sue for the money or thing
lost, and prosecute the suit to recovery with
due diligence, any other person may sue the
winner, and recover treble the value of the
money or thing lost, if suit is brought within
five (5) years from the delivery or payment.
To determine what is meant by the “money or thing lost,”
it is necessary to refer to KRS 372.020. There, the statute
begins,

114a
If any person loses to another at one time,
or within twenty-four (24) hours, five dollars
($5) or more, or anything of that value, and
pays, transfers or delivers it, the loser or
any of his creditors may recover it, or its
value, from the winner, or any transferee of
the winner. . . .
The Court understands KRS 372.020 to mean that a “loss”
includes either or both of the following: (1) losses of five
dollars or more at one time, and (2) losses of five dollars or
more within twenty-four hours. To illustrate, if on
Monday a gambler places a single wager and loses ten
dollars on that wager, then that gambler has lost ten
dollars “at one time.” If on Tuesday, that same gambler
places five separate wagers, and loses two dollars on each
wager, then that gambler has lost a total of ten dollars
“within twenty-four hours.” Were the gambler inclined to
sue under KRS 372.020 to recover his losses for both
Monday and Tuesday, he would be entitled to recover a
total of twenty dollars, which represents his total losses
for both Monday and Tuesday. The Court understands
“within twenty-four hours” to be the General Assembly’s
attempt to permit recovery to those individuals who have
lost less than five dollars at one time, but whose total
losses within twenty-four hours may nevertheless exceed
five dollars. This hypothetical situation serves only to
illustrate the Court’s understanding of the words “loses to
another at one (1) time, or within twenty-four (24) hours,
five dollars ($5) or more.”
The foregoing example is quite simple because there is
no indication that the gambler ever won a single wager on
either of the two days. However, this example in no way
represents the complexity of the case now before the

115a
Court, which includes tens of thousands of Kentucky
players who won money on some wagers while losing
money on other wagers. Indeed, KRS 372.020 is
completely silent about “netting” or “offsetting” or any
other language regarding how to account for the loser’s
winnings. A strict reading of the statute may even lead
one to believe that the framers of Chapter 372 were not
concerned with the loser’s winnings, and instead intended
to hold the “winner” strictly liable for any of the loser’s
losses notwithstanding any winnings that could offset his
losses. Thus, a complete understanding of the losses
recoverable under Chapter 372 cannot be had without
referring to the case law.
While Chapter 372 has its roots in the waning years of
the Eighteenth Century, its immediate predecessor is the
Act of 1833. See McKinney v. Pope’s Adm’r, 3 B. Mon. 93
(Ky. 1842). Prior to the Act of 1833, neither courts of law
nor courts of equity heard cases relating to losses at
gaming insofar as a statute did not confer upon the loser a
right to sue. Such rights, until 1833, were conferred only
in very limited circumstances. The reason for not giving
losers a right to sue in all circumstances of unlawful
gambling was explained best by the Court in Downs v.
Quarles:
It is a general principle, applicable both in
chancery and at law, that when two unite in
making an illegal and immoral contract,
neither shall have remedy to enforce it, and
if either fulfill, the other shall not recover
back the money paid on such a base and
illegal consideration, according to the
maxim, in pari delicto potior est conditio
defendens. It is indubitably politic and wise,

116a
to give the statutes against gaming that
construction which would best suppress the
mischief. But the distresses of a ruined
gamester, standing as a monument of his
folly, may do as much to restrain the
practice, as the vexation of his co-partner in
guilt could, arising from his being compelled
to disgorge his ill-gotten wealth. The
former, by his success, might be encouraged
to renew his excesses, while the latter would
not be certainly reformed, by being
compelled to restore what he had gotten
without consideration.
Where two,
therefore, in equal guilt, have agreed to
game, as the plaintiff and defendant appear
to have done, the chancellor or court of
common law, ought not to interfere between
them, further than to allow the possessor of
the iniquitious gains, to retain what he
holds, and to inflict the appropriate
penalties for violating the laws of society,
provided by the statutes themselves.
Downs v. Quarles, 1 Litt. Sel. Cas. 489, 491 (Ky. 1821).
The Downs Court thought the best way to combat illegal
gaming, at least in this instance, was to leave the players
as it found them – the loser with his losses and the winner
with his ill-gotten gains. The Court did not believe that
the loser would be “reformed” if the Courts were to simply
return to him what he had lost, nor did it believe that the
“winner” would be anymore deterred by merely being
required to disgorge his winnings.
While statutes existed prior to 1833 under which a
loser could sue to recover his losses, the particular

117a
circumstances under which a suit could be brought were
limited and the “[r]ecovery was allowed . . . on the ground
of a forfeiture than of any recognized right in the loser, or
from any favor to him.” McKinney, 3 B.Mon. at 97.
However, the Act of 1833 changed this arrangement. The
McKinney Court distinguished the Act of 1833 from the
preexisting statutes in this way:
In none of [the statutes prior to 1833] does
the Legislature seem decidedly to interpose
in behalf of the loser, as one who, from the
circumstance of being the loser, is presumed
to have been oppressed, defrauded, or
imposed on. In none of them is the policy of
restoring to the loser his money decidedly
asserted as a means of suppressing the
mischief of gambling; and in these respects
we think the act of 1833 has introduced new
principles which have at once changed the
attitude and rights of the parties, and
determined in favor of the propriety of
restoring the lost money to the loser.
Id. The Act of 1833 changed the previous order by vesting
the loser with a right in the property that he had lost in
illegal gaming. The McKinney Court explained the
purpose of the right in this way:
And the individual right being thus
established by law as a means of
suppressing an enormous public mischief,
and of restoring to an individual that of
which he has been illegally, if not
fraudulently deprived, we feel bound, in
construing the statute so as best to suppress
the mischief, to construe it so as best to

118a
support the right which it has established as
a means of suppressing the mischief.
Whatever then may have been the case
prior to the statute of 1833, we are of opinion
that since that act, the prohibition against
gaming itself, and the laws for its
suppression, are to be understood as having
for their object in part, the protection of the
person who may lose; that the act of 1833
especially intends to protect and relieve the
loser, upon the presumption generally true,
in fact, and which is established by the
statute, that he has been defrauded,
oppressed, or imposed on; that it intends to
relieve him by enabling him to reclaim that
of which he has been illegally deprived, and
that it looks to this right of reclamation, to
the assertion of which he may be impelled
by much stronger motives than any which
might operate on the public at large, as a
powerful means of suppressing a mischief
necessarily ruinous to many individuals, and
deeply injurious to the body of society. The
statute then, has not only removed all the
objections to the granting of relief, by
restoring the loser to his money, which are
stated by this Court in the case of Downs vs
Quarles, &c., and by Lord Talbot in
Bosanquen vs Dashwood, but has placed
the claim of restitution on the ground of
relief from fraud and oppression, and on the
still broader ground that the public itself is
to be relieved from a great evil through the

119a
relief to be granted to the party.
Id. at 99, 100. Here, the McKinney Court viewed the
purpose of the Act of 1833 as twofold: first, to return to
the loser what is rightfully his, and second, “[to suppress]
a mischief necessarily ruinous to many individuals, and
deeply injurious to the body of society.” Id. at 99.
Following the Act of 1833, the question remained open,
however, of how to count the losses? An answer came in
two subsequent cases: Caldwell v. Caldwell, 2 Bush 446
(Ky. 1867) in 1867 and then Elias v. Gill, 18 S.W. 454 (Ky.
1892) in 1892. In Caldwell, the creditor of a card player,
one J.F. Caldwell, sued Mr. Waddell and others [the
defendants] to recover Caldwell’s losses. Caldwell v.
Caldwell, 2 Bush 446, 447 (Ky. 1867). The defendants
argued that Caldwell actually “quit the winner” of the
games, that is, they alleged that Caldwell had won more
than he had lost. Id. at 451. Indeed, the Court found as
follows:
Caldwell played at games of chance for
money in which [Waddell] was interested,
and that Caldwell at some times lost and at
other times won; but the amounts won and
lost at each or either time [Waddell] could
not state positively; yet [Waddell] states
that upon the termination of the games
Caldwell quit winner, and since then
[Waddell] had never been winner of him—
which evidently means, that the games were
played by the parties at various times, with
intervals between, and with varied success;
and upon a general summing up the
different amounts won and lost by each up
to and including the result of the last

120a
playing, Caldwell had won more than he
lost, and they undertook to plead their
losings with Caldwell at one time as an offset against their winnings at a different time
from him.
Id. Thus, where Caldwell’s creditor sought to recover
Caldwell’s losses, the defendants argued that they were
entitled to recover their own losses suffered to Caldwell –
after all, Caldwell had “quit the winner” of the games.
However, the Court found that the Defendants were
not entitled to a setoff. It construed the statute that is now
KRS 372.020 to confer unto the creditor a “contingent
vested right” in the value of the property lost “as could not
be divested by the loser winning at a game played at a
subsequent and different time.” Indeed, it wrote:
The reasonable and legitimate construction
of [KRS 372.020] is, that whenever five
dollars or more in money or property shall
have been won and lost at unlawful gaming
within twenty-four hours, and the game or
play at which the money or property was
won and lost has terminated, and the parties
shall have ceased to play, any creditor of the
loser, who may choose to assert it in the
mode prescribed, will have acquired such a
contingent vested right to the sum or value
of the property lost, in virtue of [KRS
372.020], as could not be divested by the
loser winning at a game played at a
subsequent and different time, from the
winner at the previous game, any amount;
and the money lost at a subsequent game
cannot be set-off against what was

121a
previously won, in an action brought by a
creditor of the one who first was loser.
Whether it would be a good set-off in an
action brought by the first loser himself, we
need not decide in this case.
Id. at 451, 452. The Caldwell Court found that creditors
were not required to offset Caldwell’s losses with his
winnings, and furthermore, that this case did not decide
whether an offset would be appropriate if the loser himself
had brought suit.
The issue of an offset for the loser was resolved
twenty-five years later in the 1892 case of Elias v. Gill.
There, the loser, Elias, brought suit against the owners of
a pool hall (which included professional gamblers) with
whom Elias had bet on horse races. Elias v. Gill, 18 S.W.
454, 455 (Ky. 1892). Elias alleged losses of $1,863 to the
defendants. Id. The defendants counterclaimed, arguing
that they had lost $1,800 to Elias and that they were
entitled to recover their losses from Elias. Id. The Court
began its analysis by rejecting the defendants
counterclaim, finding that
[a] person who sets up or is interested in
setting up a farobank cannot, under the
statute in question, recover back money lost
to one betting against the bank; the rule
being there applied, that ‘a case within the
letter but not within the spirit of a remedial
statute is not embraced by it.’ And looking
to the evil of gaming, suppression of which
was the object of the statute, it is obvious
that persons who engage in gaming by
means of selling pools on horse-races are no
more within protection of that statute than

122a
those who set up or keep faro-banks; for in
each case gaming is carried on, and made a
business. Indeed, the contrivance known as
“French pool,” which is used to make
wagers on horseraces, and not essentially
different in its use or effects from the
contrivance alleged to be used by the
appellants, has been distinctly held gaming,
in the meaning of the statute, and
consequently not protected, but rather
denounced, by it.
Id. at 455, 456 (citations omitted). The Elias Court
maintained the same focus as the Caldwell Court on each
parties’ obligation under Chapter 372 as it related to the
amount of the recoverable loss. In Elias, the Court found
that the defendant poolroom operators were not entitled
to offset their own losses because their counterclaim was
not “embraced” by the “spirit of the remedial statute.”
The statute was meant in part to suppress the evil of
gaming after all, and this could not be achieved (as the
Downs Court had found seventy years earlier) if the
winners or the operators of an illegal gambling
establishment simply had to disgorge their winnings.
After the Court completed its analysis of whether the
defendants could recover their losses, it then discussed
what the “loser” Elias was entitled to recover. The Court
found that the loser could not recover his losses without
first accounting for his winnings. Indeed, the Court wrote:
But while it is true [the defendants] could
not, by an original action, have recovered
any part of the amount lost in their own
pool-rooms to appellee, nor are entitled to
judgment over on their counter-claim, still,

123a
whatever amount or amounts they lost to
him on account of wagers between them on
horse-races at the dates or within the period
mentioned in the petition should be set off
against, or deducted from, what he may be
entitled to recover in this action; for
certainly it was not the intention of the
legislature to afford to a party voluntarily
buying pools on horse-races, or betting at a
faro-bank, the undue advantage of
recovering back what he may have lost to
the seller or dealer, without disgorging and
accounting for what he won from him. The
purpose of this statute was to afford to such
party remedy to the extent of his actual loss,
not to enable to recover back what he lost,
while keeping and profiting by what he won
from the defendants. It therefore seems to
us clear that the criterion of the amount
appellee is entitled to recover, if any at all,
is the excess of what he lost to appellants
above what he won from them during the
period mentioned; and at the trial the
burden should be on him to show the
amount of his losses to appellants, subject to
reduction or set-off by the amount he won
from them.
Id. at 456. While the defendants could not assert a claim
to recover their losses, the loser must account for what he
has won from the defendants in order to avoid receiving a
windfall. After all, not accounting for the loser’s winnings
would simply give the loser an incentive to use the law to
eliminate the risk from an already illegal activity in order

124a
to make a profit. Such a perversion of the law could not be
tolerated.
At first blush, Caldwell and Elias appear to be in
tension with one another because each Court extracts a
separate calculation from the same words in KRS 372.020.
Under Caldwell, the Court did not require the creditor to
offset Caldwell’s losses with his winnings, while the Elias
Court did require the loser to offset his losses with his
winnings. Elias did not overrule Caldwell, and neither
case has since been overruled by any other case.
Therefore, it must be that KRS 372.020 countenances two
separate calculations of a loss. The calculation to be used
in a particular case turns on the presence of the following
three factors: (1) the identity of the parties, (2) the
relationship of the parties to the illegal gaming, and (3) the
purpose or purposes to be served by the statute. After
careful consideration of the parties’ arguments, the
pertinent case law, and the legislative purpose to be
served by Chapter 372, the Court finds that the Plaintiff’s
stature in this case is more akin to that of the creditor in
Caldwell than it is to that of the loser in Elias, and thus,
the Plaintiff is entitled to recover the Kentucky players’
losses without accounting for any of the Kentucky players’
winnings.
The identity of the parties and their relationship to the
actual gambling at issue helps determine the calculation of
the loss. In the case at bar, the parties include the
Commonwealth of Kentucky for the Plaintiff and, for the
Defendants, Amaya Holdings Limited and REEL, the
owners and operators of the PokerStars website. None of
the parties have actually bet on poker games on the
PokerStars website themselves, and thus, neither party
can be said to have actually “won” or “lost” money betting

125a
on poker games. Rather, the loss at issue in this case was
incurred by the Kentucky players in whose place the
Commonwealth has brought suit pursuant to KRS 372.040
which gives “any other person” standing to sue for the
money or thing lost. Nor can it be said that the
Defendants “won” money from the Kentucky players,
much less from the Commonwealth.
Instead, the
“winners” of the Kentucky players were other players,
some of whom may have been in Kentucky, with many
others in locations across the country and even around the
world. The Defendants, however, are nevertheless liable
under Chapter 372 for the extent of the Kentucky players’
losses because they took a rake, that is, a certain
percentage of the money at stake in each poker game
played by the Kentucky players. As the Court in Triplett
v. Seelbach found, the “winner” provided for in Chapter
372 does not need to “be one of the players with cards in
his hands; but if he is to receive a percent of the winnings
by the actual player, he is, in the sense of the statute, a
winner.” Triplett v. Seelbach, 14 S.W. 948, 949 (Ky. 1890).
The Triplett Court continued, stating
[the defendant] is jointly interested with the
winner in the loser’s losses, which makes
him responsible for them as a wrong-doer.
It is not the extent, but the community, of
interest
that
makes
wrong-doers
responsible for the whole wrong. If each is
to receive a certain amount of the result of
the unlawful enterprise, this gives them
such a community of interest as to render
each responsible for the whole amount
received.
Id. at 949. The Defendants in the case at bar need not have

126a
won a single dollar from the Kentucky players playing
poker games on their website in order to be liable under
Chapter 372 as “winners.” Rather, it is the Defendants’
“community of interest” with the actual winners of the
Kentucky players that makes them jointly liable with the
winners for the entire amount of the Kentucky players’
losses.
Just as the Defendants have not “won” money playing
against the Kentucky players in poker games on its
website, the Plaintiff has not “lost” any money playing in
those same games. Where a plaintiff other than the loser
sues under Chapter 372, whether it is the creditor or “any
other person,” that plaintiff need not account for the
loser’s winnings. Only where the loser himself sues under
KRS 372.020 is the plaintiff required to account for his
winnings. Were the loser suing under KRS 372.020 not
required to account for his winnings, the loser would be
able to use the statute and the courts to eliminate the risk
from gambling, receive a windfall, and thereby never have
an incentive to quit gambling in unlawful establishments
or on illegal websites. Indeed, were the loser able to
recover his losses without accounting for his winnings, the
statute may have the effect of promoting or even
encouraging illegal gambling, thereby subverting one of
its intended purposes. Such a misuse of Chapter 372 is not
a concern when either the creditor or “any other person”
sues to recover the losses.
To read and apply Chapter 372 then is to weigh
competing policies. On one hand, the General Assembly
intended Chapter 372 to suppress the evil of illegal
gaming. Chapter 372 deters illegal gaming by holding the
operators liable for the loser’s losses. On the other hand,
the General Assembly also intended to return to the loser

127a
his losses from illegal gambling, but without doing so in a
way that would encourage the loser to continue gambling,
and by doing so, subvert one of the intended purposes of
the Chapter. This requires the loser to account for his
winnings in a suit to reclaim his losses. However, it is not
the language of Chapter 372 itself, but the case law that
instructs that when the “loser” sues under KRS 372.020,
he may only recover his losses after accounting for his
winnings. Elias, 18 S.W. 455, 456. Similarly, it is the case
law but not the text of the statute that instructs that when
the creditor sues, it does not have to account for the loser’s
winnings. Caldwell, 2 Bush 451, 452. But what may “any
other person” suing under KRS 372.040 recover?
The answer lies in the policy to be served in the case,
which in turn depends on the relationship of the Plaintiff
to the gambling at issue. The deterrent effect of Chapter
372 must necessarily be restrained when the loser, as
plaintiff, sues to recover his losses, and thus the deterrent
effect of Chapter 372 cannot be meted out against the
illegal gaming operator to its fullest measure. The reason
is to avoid granting the “loser” an incentive to continue
doing the very thing that the General Assembly intended
for Chapter 372 to suppress: illegal gaming. After all, one
who holds himself out as the receiver of unlawful bets
must have bettors. Therefore, the “loser” described in
KRS 372.020 is a participant in an unlawful enterprise;
nevertheless, the framers of Chapter 372 decided that
illegal gaming operators, or those receiving the unlawful
bets, were more culpable considering their position as an
unregulated entity to “defraud” and “oppress” many
players and to potentially do so many times over.
McKinney, 3 B. Mon. 99.
A plaintiff suing under Chapter 372, whether it is a

128a
creditor or “any other person,” is unlikely to be a gambler,
or, at least is unlikely to have participated in the illegal
gaming at issue. When the plaintiff suing has not
participated in the illegal gaming, the risk of giving the
deterrent effect of Chapter 372 its fullest effect is not
present because it is not the loser himself suing. Thus, the
deterrent effect of Chapter 372 need not be so restrained
when the creditor or “any other person” sues, and the
creditor or “any other person” need not account for the
loser’s winnings when calculating the “loss” described in
KRS 372.020. This is the only logical explanation for the
different outcomes in Elias and Caldwell.
As Kentucky Courts have acknowledged, the language
of Chapter 372 is broad and should be construed liberally
in order to suppress the evil of unlawful gaming. See
McKinney, 3 B. Mon. 99 (“we feel bound, in construing the
statute so as best to suppress the mischief, to construe it
so as best to support the right which it has established as
a means of suppressing the mischief.”). Where the
encouragement of strategic behavior by individual
gamblers is not a risk, Chapter 372 should be read to give
effect as much as possible to the deterrence of unlawful
gaming. As the Downs Court recognized almost two
hundred years ago, simply unwinding the unlawful
transaction would not be sufficient to deter illegal
gambling operators. Downs, 1 Litt. Sel. Cas., 490. They
would simply return to business after the suit and wait for
the next “poor sucker” to enter. Rather, the illegal
gambling operators must know that they could be liable
for all of a loser’s losses notwithstanding any winnings
should a creditor or “any other person” bring suit.
While the antecedents of Chapter 372 are almost as
ancient as the Commonwealth itself, its primary purpose

129a
survives the changing times. The media through which
illegal gambling operators lure their clients may change,
but the intent of the statute, that is, to deter illegal
gambling, does not. The Plaintiff is entitled to recover the
entire amount of the Kentucky players’ losses of five
dollars or more, whether at one time or within twenty-four
hours, incurred while playing games on the PokerStars
website from October 12, 2006, until April 15, 2011. The
Plaintiff is not required to offset the Kentucky players’
losses with their winnings during that time period because
the Plaintiff is not a “loser” within the meaning of KRS
372.020, but rather is suing as “any other person” under
KRS 372.040 to recover the Kentucky players’ losses.
Since the Plaintiff is not a “loser” under KRS 372.020,
Chapter 372 must be read to give the fullest effect possible
to the most significant purpose to be served by the chapter
in this case, that is, the deterrence of illegal gaming. Thus,
the Court hereby AWARDS the Plaintiff $290,230,077.94.
B. The Defendants’ Motion for Summary Judgment on
the Plaintiff’s Demand for Treble Damages is Denied,
the Plaintiff’s Motion is Granted, and the Plaintiff is
Awarded $870,690,233.82.
The Defendants’ Motion for Summary Judgment on
the Plaintiff's Demand for Treble Damages is DENIED,
while the Plaintiff’s Motion for Summary Judgment is
GRANTED, and thus the Plaintiff is AWARDED
$870,690,233.82. Three requirements must be met in
order for the Plaintiff to receive treble damages under
KRS 372.040: (1) standing as “any other person”;
(2) timing, meaning that the plaintiff must bring suit no
sooner than six months after the loss occurred (but no
later than five years), and only if the loser or the loser’s
creditor has not already brought suit; and (3) there must

130a
have been some “money or thing lost” within the meaning
of KRS 372.020. Here, the Plaintiff has met all three
requirements and is entitled to receive treble damages as
a matter of right under KRS 372.040.
The Plaintiff filed its Motion for Summary Judgment
on Damages on August 14, 2015, immediately after the
Court granted its Motion for Partial Summary
Judgment and entered Default Judgment in its favor. The
Court spilt the Plaintiffs Motion into two parts. First, the
Court heard argument on extent of the Kentucky players’
loss and withheld judgment on the treble damage award
pending further briefing and argument. Then, on
November 20, 2015, the Court entered the Opinion and
Order on the extent of the loss.
The second part of the Plaintiff’s Motion for Summary
Judgment on Damages concerns whether the loss should
be trebled under KRS 372.040. On November 12, 2015,
the Defendants’ filed their Motion for Partial Summary
Judgment on the Plaintiff’s Demand for Treble Damages
arguing that an award of treble damages is discretionary
and that such an award would be “improperly punitive.”
The Plaintiff responded the same day, arguing that treble
damages are not discretionary per the language of the
statute, and that even if they were, the Plaintiff argues,
the Court ought to award treble damages due to the
Defendants’ refusal to stop operating in Kentucky. The
Defendants responded on November 17 and again on
November 23 disputing the Plaintiff’s claims. Finally on
November 30, the Defendants filed one last brief arguing
that trebling would violate the Excessive Fines Clause of
the U.S. Constitution, and that if the Court were to award
treble damages, then it ought to make findings of fact in
order to support its award.

131a
The treble damage award is a feature of KRS 372.040,
the statute under which the Plaintiff has brought suit. The
statute provides:
If the loser or his creditor does not, within
six (6) months after its payment or delivery
to the winner, sue for the money or thing
lost, and prosecute the suit to recovery with
due diligence, any other person may sue the
winner, and recover treble the value of the
money or thing lost, if suit is brought within
five (5) years from the delivery of payment.
Thus, by the terms of the statute, all that is required for
the Plaintiff to receive treble damages are the following:
(1) standing as “any other person; (2) timing, meaning that
neither the loser nor the loser’s creditor has already
brought suit to recover the losses and that the Plaintiff has
brought suit no sooner than six months after the losses
were incurred and no later than five years; and (3) the loss
of money or thing within the meaning of KRS 372.020.
Here, all three conditions have been met. The Court has
long ago ruled that the Plaintiff has standing as any other
person; the Plaintiff has timely brought this suit; and the
Plaintiff has established that money was lost within the
meaning of KRS 372.020.
The Defendants argue that there is more to the statute
than meets the eye, and they accordingly raise several
objections. The Defendants argue first that treble
damages are discretionary by the terms of the statute. To
the Defendants, the General Assembly’s decision to use
“may” rather than “shall” shows that the General
Assembly intended for treble damages to be
discretionary. However, the Court finds that the use of
the word “may” does not refer to the award of treble

132a
damages, but rather to the ability of “any other person” to
sue to recover the losses. Indeed, the General Assembly’s
intent would be disconcerting if it had elected to write,
“any other person [shall] sue the winner. . . . ” While
grammatically possible, the semantic construction of the
sentence would be cause for worry. Such a provision
would mean that some unknown person other than the
loser or the loser’s creditor would be statutorily obligated
to sue to recover the loser’s losses in the event neither the
loser nor the loser’s creditor brings suit. This is not
logical. The General Assembly’s use of the word “may”
adequately expresses the idea that the decision to sue
belongs entirely to “any other person.” Unquestionably
then, the presence of “may” in that part of the sentence
does not refer to the award of treble damages.
Next the Defendants argue, somewhat more
persuasively, that a 1950 case from the U.S. District Court
for the Eastern District of Kentucky holds that treble
damages are discretionary. Indeed, in Hartlieb v. Carr,
Judge Swinford wrote in a short opinion that “treble
damages are not compulsory, but left solely to the
discretion of the court or jury.” Hartlieb v. Carr, 94
F.Supp. 279, 280 (E.D. Ky. Jan. 13, 1950). The Plaintiff
responds, arguing that Judge Swinford’s statement is
merely dictum. The Defendants maintain that, far from
being dictum, it is in fact the holding of the case.
While at first blush Judge Swinford’s statement
appears to carry the weight of a holding, a closer
inspection reveals that it is not. The issue in Hartlieb was
whether the authorization of treble damages in KRS
372.040 made it a penal statute. Id. at 280. The defendants
in Hartlieb argued that the treble damage feature was
penal in nature. Id. Therefore, if KRS 372.040 was penal,

133a
went the defendants’ argument, then the Federal Court
lacked jurisdiction to hear the case because of the
principle that “one sovereign will not enforce the penal
laws of another. 2 Id. However, Judge Swinford found that
the statute serves a dual purpose, that it is both remedial
and only incidentally penal. Id; see also Salonen v. Farley,
82 F.Supp. 25, 28 (D.Ky. Jan. 18, 1949). The actual holding
of Hartlieb is the following statement: “The statute in
question in the instant case is similarly both remedial and
penal and therefore enforceable.” Hartlieb, 94 F.Supp.
280. Nowhere else in the opinion does Judge Swinford
explain his statement that treble damages are
discretionary, nor is it quite clear how the statement
supports his conclusion. Thus, this Court finds that Judge
Swinford’s statement that treble damages are
discretionary is dictum, and as such, is not binding on this
Court.
Next, the Defendants argue that the treble damage
award as authorized by the statute would violate the
Excessive Fines and Due Process Clauses of the federal
and state constitutions. However, the Court finds that
such an award would only violate the Excessive Fines
clause insofar as it is “grossly disproportionate to the
gravity of the Defendant’s offense.” United States v.
Bajakajian, 524 U.S. 321, 337 (1998). Considering the
numerous violations of law for operating an illegal
gambling website, the damage award is not grossly
disproportionate to the gravity of the offense.
The issue of whether the statute is penal or remedial is more fully
addressed in another opinion by Judge Swinford from a year earlier
in Salonen v. Farley, 82 F.Supp. 25 (D.Ky. Jan. 18, 1949). Judge
Swinford’s opinion in Hartlieb adopted in full his opinion Salonen.
Hartlieb, 94 F.Supp. 281.

2

134a
Here, the Defendants reached into Kentucky in willful
violation of its laws, and for over four and a half years,
invited over 34,000 Kentucky players to place over
246,000,000 bets, at least ten million of which resulted in
losses of five dollars or more. In part due to the profit
earned during that four and a half year period, PokerStars
grew to the point that by 2014, it could be sold to Amaya
for $4.9 billion dollars. While part of the Defendants’
profits came at the expense of Kentucky players’
calculable losses incurred while playing the Defendants
illegal online games, another part of their profits came at
the incalculable expense of the violation of Kentucky’s
laws. For even when Kentucky players won, the
Defendants still took a rake. And with the money that the
Defendants took from Kentucky’s players, it was able to
invest and expand its illicit operations making themselves
all the more profitable. Without a doubt, the Defendants
made a business calculation that took into account the
violation of Kentucky’s laws. However, the law is more
than some ordinary itemized expense on a balance sheet,
and its value is not as easily accounted for as the
Defendants may have thought as they executed their illicit
business plan. The treble damage award goes some length
toward repairing not just the damage inflicted on the
integrity of the rule of law, but also the harm caused to the
families and communities across Kentucky by the harmful
behaviors and financial despair associated with illegal
online gambling.
Finally, the Defendants request that the Court make
detailed findings of fact in support of a treble damage
award. Finding no authority requiring it to do so, the
Court declines the Defendants’ invitation to make any
further findings of fact beyond those that the Court has

135a
recited in the foregoing paragraph.
Three requirements must be met in order for the
Plaintiff to receive treble damages under KRS 372.040:
(1) standing as “any other person”; (2) timing, meaning
the plaintiff must bring suit no sooner than six months
after the loss occurred, and only if neither the loser nor
the loser’s creditor has already brought suit; and (3) there
must be “money or thing lost” within the meaning of KRS
372.020.
Here, the Plaintiff has met all three
requirements and is entitled to receive treble damages as
a matter of right under KRS 372.040. Thus, the final
amount to be awarded to the Plaintiff is $870,690,233.82.
CONCLUSION
The Defendants may find the final damage award to be
harsh medicine. Such is the consequence for violating the
laws of Kentucky. As far back as two centuries ago, the
General Assembly recognized that illegal gaming was an
evil so great that it endowed virtually any person in the
Commonwealth with a right of action to be accompanied
by an extraordinary remedy in order to promote its
suppression. These laws are not new, nor are they novel,
as the Defendants have pointed out. But what is new and
novel is the scale of the violation of Kentucky’s gambling
laws by the Defendants. While the framers of Chapter 372
may never have envisaged the size of the award entered
today, they also could not have envisaged the scale of
illegal gambling enabled by online platforms with the
power to take millions of illegal bets from offshore sites
worth hundreds of millions of dollars while state
authorities sat helpless to suppress the evil.
The Defendants had at least several opportunities to
avoid today’s harsh medicine. First, they could have

136a
retained counsel in order to better understand the scope
of liability to which they were exposing themselves by
operating in Kentucky. After all, those who conduct
business in the Commonwealth are expected to be aware
of its laws. Second, litigation concerning this matter
actually began as far back as 2008. Even though this
Court’s cease and desist Order issued in 2008 was stayed
by the Court of Appeals, the Defendants were put on alert
at that time that their continued operation may be
exposing them to further liability.
However, the
Defendants chose to continue their illicit operations in
Kentucky. In spite of these options, the Defendants made
a calculation that breaking the law was good for business.
Today’s decision affirms the integrity of the rule of law
and goes some distance toward repairing the damage
inflicted by the Defendants upon the families and
communities of the Commonwealth that have been banned
by illegal online gaming.
WHEREFORE the Defendants’ Motion to Vacate
and Motion for Partial Summary Judgment as to the
Plaintiff’s Demand for Treble Damages are DENIED
and the Plaintiff’s Motion for Summary Judgment on
Damages is GRANTED.
The Plaintiff is hereby
AWARDED $870,690,233.82, plus any and all continuing
costs of collection of this judgment, plus interest at the
judicial rate of twelve percent (12%) per annum until paid
in full.
SO ORDERED, this 23 day of December, 2015. This
Order is final and appealable and there is no just cause for
delay.
Thomas D. Wingate
THOMAS D. WINGATE
Judge, Franklin Circuit Court

137a
APPENDIX E
COMMONWEALTH OF KENTUCKY
FRANKLIN CIRCUIT COURT
DIVISION II
CIVIL ACTION No. 10-CI-00505

COMMONWEALTH OF
KENTUCKY ex rel. J. Michael
Brown, Secretary, JUSTICE AND
PUBLIC SAFETY CABINET

PLAINTIFF

vs.
POCKET KINGS, LTD, et al.

DEFENDANTS

OPINION AND ORDER
This matter is before the Court on the
Commonwealth’s Motion for Summary Judgment on
Damages as to Amaya Group Holdings limited filed
August 14, 2015 and Amaya and REEL’s Motion for
Reconsideration of Order Granting Sanction of Default
Judgment filed October 19, 2015 and Amaya and REEL’s
Motion for Reconsideration of Interlocutory Order
Granting Partial Summary Judgment filed October 21,
2015. Counsel was heard in open court on October 26,
2015. The Court being sufficiently advised, hereby
DENIES both of Amaya and REEL’s Motions and
GRANTS partial summary judgment in favor of the
Commonwealth and AWARDS the Commonwealth

138a
$290,230,077.94 in damages.
INTRODUCTION
The Court must address two main issues. First, the
Defendants, Amaya and REEL, ask this Court to revisit
and reconsider two decisions: one, the Commonwealth’s
standing and two, its grant of default judgment against
Oldford (now Amaya) and REEL for failure to comply
with its discovery orders. The second issue follows
directly from its grant of partial summary judgment in
favor of the Commonwealth, and requires this Court to
determine the amount of damages.
STATEMENT OF FACTS
This case has a lengthy history and while a detailed
description of the parties 1 and an exhaustive recitation of
past filings, hearings, and orders is unnecessary, some
detail is nonetheless required in the Court’s review of the
relevant procedural history. The present matter began in
2010, though its roots extend as far back as 2006 when
President Bush signed the Unlawful Internet Gambling
Enforcement Act into law. Late in 2010, the Defendants,
PartyGaming PLC and Pocket Kings Ltd., filed Motions
to Dismiss citing a number of grounds, including that the
Secretary lacked standing to bring this suit.
On
November 2, 2011, the Court found that the Secretary did
in fact have standing because the language of KRS 372.040
The Court’s Opinion and Order entered August 12, 2015 contains a
thorough description of the parties. What is important to note here is
that all of the companies mentioned – PYR, REEL, RIHL, and
Oldford – are interrelated and, until their sale to Amaya in August
2014, were under the direct or indirect control of Mark Scheinberg
and Pinhas Schapira. Indeed, these companies have been represented
for the duration of this litigation by Mr. Ifrah from Washington, D.C.
1

139a
was sufficiently broad to allow for the Secretary to sue on
behalf of the Commonwealth to recover losses incurred by
Kentucky players betting via illegal internet gambling
websites operated by Oldford and REEL. 2
On March 10 2014, the Court ordered PYR 3 to respond
completely to the Commonwealth’s discovery request
within thirty days. Included in the discovery request from
the Commonwealth was a request that PYR produce
Messrs. Scheinberg and Schapira for deposition. In the
same Order, the Court also referred to an agreement
between the parties to produce Messrs. Scheinberg and
Schapira before April 30, 2014.
However, on April 10, the date that written discovery
from PYR was due, 4 the Defendant Oldford, 5 freshly
served with an amended complaint, removed the case to
federal court. No further action was taken in this matter
KRS 372.040 reads “If the loser or his creditor does not, within six
(6) months after its payment or delivery to the winner, sue for the
money or thing lost, and prosecute the suit to recovery with due
diligence, any other person may sue the winner, and recover treble
the value of the money or thing lost, if suit is brought within five (5)
years from the delivery or payment.” (Emphasis added). In its
November 2, 2011 Opinion and Order, the Court wrote “While this
statute is generally used to protect a gambler’s family from becoming
destitute, the broad language of KRS 372.040 fails to strictly limit
recovery to such persons. Because the legislative intent is unclear and
no definition of ‘person’ is provided in the statute, the Commonwealth
could prove a set of facts under which it could recover.”
3
PYR is the software company behind websites such as PokerStars
and was founded by the Scheinberg.
2

The Court note that PYR did provide answers on April 9, but the
Commonwealth objected claiming that the answers were incomplete
and evasive.
5
Oldford was the holding company who owned PokerStars, among
other Defendants, and was purchased by Amaya in August 2014.
4

140a
until the federal court rejected Oldford’s arguments for
removal and remanded the case to the Franklin Circuit
Court on March 31, 2015. In August 2014, while the
matter was still pending in federal court, Amaya
completed its purchase of Oldford, REEL, and PYR.6
This sale, Amaya and REEL now argue, effectively
severed Messrs. Scheinberg and Schapira’s interest in the
suit, and thus Amaya and REEL’s ability to require them
to appear for depositions.
On April 15, 2015 the Court ordered the Defendant
REEL to respond to the Commonwealth’s discovery
requests by May 31. Then, on May 22, this Court ordered
REEL to produce Messrs. Scheinberg and Schapira by
May 31, and that if they failed to do so, the Commonwealth
was to move the Court for default judgment. We also
found in the same Order that the Court’s March 10, 2014
Order did in fact require PYR to produce Messrs.
Scheinberg and Schapira. The Court continued in the
May 22 Order, finding that REEL’s argument that they
could not produce Messrs. Scheinberg and Schapira due
to the buyout to be nothing more than a delay tactic.
While REEL was unable to secure Mr. Scheinberg for
deposition prior to the May 31 deadline, 7 it did obtain leave
from the Court to depose him remotely from London on
June 3. However, Mr. Scheinberg did not appear.
On August 12, 2015, the Court granted partial
While various orders refer sometimes to PYR, or REEL, or Oldford,
it should be noted that Messrs. Scheinberg and Schapira were the sole
directors of all the PokerStars entities, and that they were the
principle shareholders of the Defendant Oldford, the holding company
that owned all of the PokerStars entities.
7
Mr. Schapira was not able to be deposed within this timeframe due
to an alleged illness.
6

141a
summary judgment in favor of the Commonwealth on the
issue of Oldford and REEL’s liability under KRS Chapter
372. We also granted default judgment as a sanction for
failure of Oldford and REEL to comply with discovery
orders.
The Commonwealth then submitted a Motion for
Partial Summary Judgment in which it estimated
damages to be $535,951,020 (before trebling) based on
information it had obtained from a previous litigant,
PartyGaming, and also from publically available data. On
October 8, the Court again ordered Amaya and REEL to
produce, within two weeks, the requested gaming data
from PokerStars. Amaya and REEL produced the data
and the Commonwealth revised its damage assessment to
$290,230,077.94 to account for the actual losses incurred
by Kentucky players of five dollars ($5.00) or more over
the course of each twenty-four hour period from October
12, 2006 to April 15, 2011. The revised figure represents
the combined losses of Kentucky players participating in
both PokerStars’ cash/ring games ($225,186,134.93) and
its tournament games ($65,043,943.01). Around the time
Amaya and REEL produced the gaming data, they also
filed Motions to Reconsider both the Court’s grant of
default judgment and partial summary judgment as to
Chapter 372 liability. For the reasons stated below, the
Court DENIES Amaya and REEL’s Motions to
Reconsider and it GRANTS the Commonwealth’s Motion
for Partial Summary Judgment as to Damages in the
amount of $290,230,077.94.

142a
ANALYSIS
A. Standard of Review for Reconsideration of an
Interlocutory Order.
A trial court has plenary power to reconsider any
interlocutory order while it retains jurisdiction over the
case.
JPMorgan Chase Bank, N.A. v. Bluegrass
Powerboats, 424 S.W.3d 902, 909 (Ky. 2014) (“Until a final
judgment is entered, all rulings by a court are
interlocutory, and subject to revision.”).
Indeed,
Kentucky Rules of Civil Procedure 54.02(1) provides that
“any order or other form of decision, however designated,
which adjudicates less than all the claims or the rights and
liabilities of less than all the parties shall not terminate the
action as to any of the claims or parties, and the order or
other form of decision is interlocutory and subject to
revision at any time before the entry of judgment
adjudicating all the claims and the rights and liabilities of
all the parties.”
B. Standard of Review for Summary Judgment.
Summary judgment “shall be rendered forthwith if the
pleadings, depositions, answers to interrogatories,
stipulations, and admissions on file, together with the
affidavits, if any, show that there is no genuine issue as to
any material fact and that the moving party is entitled to
judgment as a matter of law.” CR 56.03. Summary
judgment is appropriate when the court concludes that
there is no genuine issue of material fact for which the law
provides relief. Id. Summary judgment may be rendered
on the issue of liability alone although there is a genuine
issue as to the amount of damages. Id.
The moving party bears the initial burden of showing
the non-existence of a genuine issue of material fact, and

143a
the burden then shifts to the opposing party to show
affirmatively that there is a genuine issue of material fact
for trial. Jones v. Abner, 335 S.W.2d 471, 475 (Ky. Ct. App.
2011). The movant should not succeed unless it has shown
“with such clarity that there is no room left for
controversy.” Steelvest Inc. v. Scansteel Service Ctr., 807
S.W.2d 476,482 (Ky. 1991). “The inquiry should be
whether, from the evidence on record, facts exist which
would make it possible for the nonmoving party to prevail.
In the analysis, the focus should be on what is of record
rather than what might be presented at trial.” Welch v.
Am. Publ’g Co. of Kentucky, 3 S.W.3d 724, 730 (Ky. 1999).
In reviewing Motions for Summary Judgment, the Court
views all facts in the light most favorable to the nonmoving party and resolves all doubts in its favor, and
summary judgment should only be granted when the facts
indicate that the non-moving party cannot produce
evidence at trial that would render a favorable judgment.
Steelvest, 807 S.W.2d at 480.
The Court recognizes that summary judgment is a
device that should be used with caution and is not a
substitute for trial. “[T]he proper function of summary
judgment is to terminate litigation when, as a matter of
law, it appears that it would be impossible for the
respondent to produce evidence at the trial warranting a
judgment in his favor: Jones, 335 S.W.3d at 480. Thus,
this Court finds that summary judgment will be proper
when it is shown with clarity from the evidence on record
that the adverse party cannot prevail, as a matter of law,
under any circumstances.
C. Amaya and REEL’s Motions for Reconsideration
Are Denied.
1. Amaya and REEL’s Motion for Reconsideration

144a
Concerning Default Judgment.
A review of the record in its entirety shows that the
Defendants have engaged in what can only be
characterized as a pattern of delay and obfuscation
throughout the course of this litigation. The rules of civil
procedure and judicial discretion are not tools ripe for the
manipulation of the fair and efficient administration of
justice. First the Defendants refused to satisfactorily
comply with discovery orders despite the Court’s
continued patience. Then, the Defendants attempted to
remove the case to federal court, during the pendency of
which they completed the sale of their respective
companies to Amaya.
For the reasons stated above, it is difficult to separate
Amaya and REEL’s arguments in support of
reconsideration from the context or the Defendants past
behavior; however, the Court will attempt to do so. Amaya
and REEL make two arguments challenging the Court’s
sanction of default judgment. First, they argue that the
process by which the Court granted default judgment was
disjointed. Specifically, Amaya and REEL argue that the
Court never issued a Vanderbilt warning to REEL when
REEL had the power to produce Messrs. Scheinberg and
Schapira early in 2014; and that by the time the Court did
issue a Vanderbilt warning to REEL in May 2015,
REEL’s new owner, Amaya, no longer had the power to
produce the witnesses. Second, Amaya and REEL argue
that default judgment was inappropriate because the
Court did not permit them an opportunity to produce the
gaming data after it overruled their objections since the
grant of default judgment appeared in the same August
12, 2015 Opinion and Order.
Amaya and REEL cite R.T. Vanderbilt Co. Inc., v.

145a
Franklin in support of their argument that the Court did
not properly warn them in advance of granting the
sanction or default judgment. In Vanderbilt, a woman
who contracted mesothelioma from exposure to asbestosladen talc sued the supplier. Vanderbilt Co. Inc., v.
Franklin, 290 S.W.3d 654, 657 (Ky. Ct. App. 2009). The
woman moved the trial court on four different occasions to
compel the talc supplier to produce certain documents and
admissions, and each time the trial court granted her
motions, but the talc supplier never produced the
requested documents and admissions. Id. at 660. With
only three weeks remaining before trial, the court struck
the talc supplier’s defenses related to the documents it
refused to produce as a sanction; however, it declined to
grant default judgment against the talc supplier. Id. On
appeal, the talc supplier argued that the trial court
improperly sanctioned it for its failure to comply with
discovery orders. Id. The Court of Appeals disagreed
with the talc supplier and affirmed the trial court’s
sanction pursuant to CR 37.02. Id. at 663.
The Court of Appeals applied a five-factor test to for
determine the severity or the sanction to be imposed
pursuant to CR 37.02. The factors are:
(1) Whether the non-compliance was willful or in bad
faith;
(2) Whether the party seeking discovery was
prejudiced by the failure to comply with the
discovery orders;
(3) Whether the Court issued a warning that failure to
cooperate could lead to dismissal;
(4) Whether less drastic sanctions were imposed or
considered;

146a
(5) Whether the sanction imposed bears some
reasonable relationship to the seriousness of the
non-compliance. Vanderbilt, at 662.
The Court notes briefly that it has already (and it believes
satisfactorily) applied the factors to the facts of this
matter in its Opinion and Order pages 10-14 entered
August 12, 2015. However, the Court will address several
of the arguments that Amaya and REEL raise in their
Motion for Reconsideration.
Amaya and REEL first argue that default judgment is
an extreme sanction and that the Appellate Court in
Vanderbilt only authorizes the sanction of default
judgment upon a showing of five factors. Moreover,
Amaya and REEL argue that the facts of this case can
readily be distinguished with the facts of Vanderbilt. For
instance, they argue that the Court of Appeals found that
the talc supplier failed to comply with four discovery
orders, not just one. Additionally, Amaya and REEL
argue that the Vanderbilt plaintiff suffered a high degree
of prejudice since the trial date was soon approaching.
Finally, even considering the number of discovery order
violations and the high degree of prejudice, the trial court
in Vanderbilt still did not grant a sanction as severe as
default judgment, but instead, it merely struck the
number of defenses available to the talc supplier during
the trial.
What Amaya and REEL miss though, is that that the
Court of Appeals applied a factor test – which, by its very
nature is a fact-intensive inquiry. While it is true that the
case at bar has different facts from Vanderbilt, it is also
true that our facts are still every bit as outrageous as those
in Vanderbilt, but in their own peculiar way. For instance,
while the Commonwealth does not have a looming trial

147a
date by which to be prejudiced, it has had over five years
of litigation containing almost every type of delay
imaginable. Truly, it can be said that the Defendants have
pulled out every possible stop for the last several years –
failure to reply to discovery requests, non-compliance with
discovery orders, last-minute and arguably frivolous
objections, and even a year-long federal court removal.
The delay generated from these types of actions
prejudices litigants by increasing costs and making it
more likely that important evidence may disappear. 8
Next, Amaya and REEL argue that this case does not
have nearly as many violations of discovery orders as
Vanderbilt which saw four violations. However, this
Court finds that a violation of a discovery order, even just
one, is just that – a violation of a discovery order, and a
single violation is enough to trigger a possible CR 37.02(c)
sanction. Indeed, the Court of Appeals in Vanderbilt
found that the trial court exhibited “inordinate patience”
with the talc supplier. Vanderbilt, at 663. The Court does
not believe that the Court of Appeals’ decision requires it,
or any other trial court in the Commonwealth, to exhibit
similar patience with such uncooperative litigants. To do
so would be to make a mockery of the authority of this
Court’s orders. This Court agrees with the Court of
Appeals when it wrote,
[o]ur discovery rules are designed to
promote efficiency, order, and expediency
within the judicial system, and the sanction
for their violation is within the discretion of
Here, for instance, the federal court removal action bought the
Defendants time to complete the sale of their respective companies to
Amaya, which in turn allowed Messrs. Scheinberg and Schapira to,
among other things, escape appearing for deposition.

8

148a
the trial court subject to the restriction that
CR 37.02 envisions willfulness or bad faith
on behalf of the party to be sanctioned. The
basis for the rule is that a party who
intentionally seeks to delay or thwart the
judicial process should not benefit from
the defiant conduct.
Vanderbilt, at 661, 662.
added).

(Citations omitted, emphasis

The Defendants in this case have willfully engaged in
a clear and obvious pattern of delay, and they should not
be able to benefit from it. Indeed, Amaya and REEL did
eventually produce the gaming data last month, within two
weeks of being ordered to do so, but only after the Court
granted default judgment and after the Commonwealth
moved to assess damages against Amaya and REEL in
excess of $1.6 billion. Much litigation and expense of time,
money, and judicial resources could have been avoided
had the Defendants complied with the Commonwealth’s
discovery requests earlier in this litigation. Indeed, there
is nothing in the record to indicate that they could not have
produced the requested gaming data in early 2014 as
readily as they did in October 2015.
Finally, Amaya and REEL argue that they did not
have the opportunity to produce the documents because
the Court had not first ruled on their objections prior to
granting default judgment. Rather, they argue, the Court
overruled their objections and granted default judgment
in the same August 12, 2015 Opinion and Order thereby
denying them the opportunity to produce the data. The
Court will briefly make three findings before dispensing
with this argument. First, the Commonwealth made its
request for discovery on REEL almost two years ago.

149a
Oldford and REEL had ample opportunity to object or
produce the data, notwithstanding the lime the case spent
removed to federal court. However, REEL did not object
until May 2015. Second, as the Court found in its August
12, 2015 Opinion and Order, it did not direct Oldford and
REEL in its previous Orders to simply respond, and
thereby, interpose objections; rather, the Court
instructed Oldford and REEL to produce documents and
answers. Moreover, at the May 20 hearing in which
Oldford and REEL indicated that they may object to
written discovery, the Court stated that it would have to
look at their objections once submitted and determine
“whether they’re legitimate or not.” This leads to the
Court’s third and final finding that Oldford and REEL’s
objection to written discovery – specifically, that the
privilege against self incrimination should be extended to
corporations – can barely be characterized as legitimate.
Indeed, the Court wrote in its August 12 Opinion and
Order:
Oldford and REEL concede that there is no
authority
holding
that
the
Fifth
Amendment’s self-incrimination protection
applies to companies or company
documents.
Instead, they offer two
persuasive cases interpreting Illinois state
law. Unable to support their objection with
precedential legal authority, Oldford and
REEL invite this Court to extend the Fifth
Amendment right against self-incrimination
to corporations. Oldford and REEL offer
no authority that such an “extension” would
be proper or even permissible, so this Court
declines their invitation. The Court finds

150a
that REEL and Oldford have failed to
satisfy their burden of proving that their
claimed right against self-incrimination
applies. (Citations omitted).
The Court declines to entertain the motion to reconsider
further and accordingly DENIES the motion.
2. Amaya and REEL’s Motion for Reconsideration
Concerning Standing.
Amaya and REEL’s next Motion for Reconsideration
consists of a rehash of several arguments that attack the
Commonwealth’s standing to bring this suit and its ability
to do so in the manner that it has chosen. First, Amaya
and REEL argue that the Secretary of the Justice and
Public Safety Cabinet cannot act as a relator in order to
sue on behalf of the Commonwealth. Second, Amaya and
REEL argue that the statute under which the
Commonwealth has sued Amaya and REEL, KRS
372.040, must be brought as a criminal forfeiture action,
not a civil action. 9
First, it is beyond cavil that the Governor, acting
through his appointees, can sue individuals and entities in
order to ensure that the laws of the Commonwealth are
faithfully executed. KY. CONST. § 81. Here, the Secretary
of the Justice and Public Safety Cabinet, appointed by the
Governor, and acting through counsel lawfully retained, is
suing on behalf of the Commonwealth to guarantee the
Amaya and REEL’s third argument is one that the Court has
already addressed in previous Opinions and Orders entered
February 21, 2013 and August 12, 2015. The argument is that Amaya
and REEL cannot be considered “winners” under KRS 372.040 under
a theory of joint liability with the other poker players because poker
players no longer have liability to begin with.

9

151a
safety of our citizens, from whom PokerStars has fleeced
hundreds of millions of dollars, all the while flaunting both
the laws of the Commonwealth and the United States. See
KRS 12.210; KRS 12.220. Moreover, KRS 372.040
authorizes a third person to bring the suit on behalf of the
loser. The Commonwealth, as a body politic, is a person
for purposes of this statute. See e.g., Commonwealth ex
rel. Keck, Commissioner of Highways v. Shouse, 245
S.W.2d 441 (Ky. 1952). This issue has also been
thoroughly litigated, and the Court finds as it has found
before, that the Secretary has properly brought this suit
in the name of the Commonwealth.
Next, Amaya and REEL argue that KRS 372.040 is a
penal statute and that as a result, the Commonwealth is
required to bring a criminal forfeiture action in order to
recover damages. However, KRS 372.040 is not penal.
See Hartlieb v. Carr, 94 F.Supp. 279, 281 (E.D. Ky. 1950).
That punitive damages are present in a civil action does
not make the statute penal in nature. Here, the statute
allows for treble damages in part to deter illegal gambling.
Moreover, the General Assembly intended for Chapter
372 to be broadly construed in order to achieve this
purpose. Gilley v. Commonwealth, 229 S.W.2d 60 (Ky.
1950); Meader v. Commonwealth, 363 S.W.2d 219 (Ky.
1963). The Court finds that the Secretary has properly
brought this suit for the purpose intended by the General
Assembly.
D. The Commonwealth is Awarded Damages in the
Amount of $290,235,077.94.
The Court shifts now from Amaya and REEL’s
Motions for Reconsideration to consider the
Commonwealth’s Motion for Partial Summary
Judgment on Damages. In its initial Motion, filed

152a
immediately after the Court entered its August 12
Opinion and Order, the Commonwealth argued that
Amaya and REEL ought to be assessed damages in the
The
amount of $535,951,020 before trebling. 10
Commonwealth based its figure on data provided by a
former Defendant, PartyGaming, and other publically
available data compiled by its expert analyst. The
Commonwealth agreed to withdraw this figure if Amaya
and REEL produced the requested gaming data from
which the Commonwealth could draw a more accurate
damage assessment. On October 16, Amaya and REEL
produced the gaming data. Based on the gaming data
provided by Amaya and REEL, the Commonwealth
generated a revised figure of $290,230,077.94.
The only issue remaining is whether the formula by
which the Commonwealth arrived at its revised figure
satisfies the requirements of KRS 372.020. The Court
finds that for the reasons stated below, it does. Amaya and
REEL, citing Elias v. Gill, argue that the Commonwealth
is only entitled to recover the “actual loss” rather than the
“gross loss,” the latter of which is how Amaya and REEL
characterize the Commonwealth’s $290 million figure.
The actual loss would presumably result in a lower
figure. 11
The Commonwealth disputes Amaya and
REEL’s argument, claiming that by arguing for an
Trebling would generate the $ 1.6 billion dollar figure
($1,607,853.060 to be precise) that the Court referred to earlier. This
Opinion and Order does not address the appropriateness of trebling
the Commonwealth’s damages. That issue is reserved for future
ruling after the Court hears oral argument on pending motions.
11
Amaya and REEL have not provided this Court with an alternative
figure, except that, during the October 26 hearing, counsel for Amaya
and REEL indicated that the figure is probably “in the range of
twenty million dollars.”
10

153a
“actual loss” figure, Amaya and REEL are essentially
requesting an impermissible set off of the gambling losses.
The Court in Elias sought to determine the
appropriate assessment of damages for a plaintiff seeking
to recover under the Loss Recovery Act. In Elias, the
appellee had wagered on horse races with the appellants.
The appellee sued to recover his losses.
Before
determining the amount the appellee could recover, the
Court wrote,
whatever amount or amounts they lost to
him on account of wagers between them on
horse-races at the dates or within the period
mentioned in the petition should be set off
against, or deducted from, what he may be
entitled to recover in this action; for
certainly it was not the intention of the
legislature to afford to a party voluntarily
buying pools on horse-races, or betting at a
faro-bank, the undue advantage of
recovering back what he may have lost to
the seller or dealer, without disgorging and
accounting for what he won from him. The
purpose of this statute was to afford to such
party remedy to the extent of his actual loss,
not to enable to recover back what he lost.
while keeping and profiting by what he won
from the defendants. It therefore seems to
us clear that the criterion of the amount
appellee is entitled to recover, if any at all,
is the excess of what he lost to appellants
above what he won from them during the
period mentioned . . . .
Elias v. Gill, 18 S.W. 454, 456 (Ky. 1892). Quite simply,

154a
the Elias Court was trying to avoid generating a windfall
to the loser. If the player placed multiple bets over the
course of a twenty-four hour period, the player’s losses
should be offset by his winnings. To allow for the player
to recover for each hand lost without offsetting it by his
winnings would be to allow the player to receive a windfall.
While the Elias Court’s reasoning is sound, it is
inapplicable to the case at bar for the simple reason that
the figure provided by the Commonwealth is already the
actual loss figure demanded by Amaya and REEL.
Indeed, the statute already accounts for the Elias
calculation by its express language: “If any person loses
to another . . . within twenty-four (24) hours, five dollars
($5) or more . . . the loser or any of his creditors may
recover it . . . .” KRS 372.020. Moreover, this is the
calculation that the Commonwealth has followed in
generating its revised figure (“Losses of $5 or more
incurred within twenty-four (24) hours”). 12 The Court
understands both this statute and the Commonwealth’s
calculations to mean, that if a player ended the day five
dollars or more poorer than he was when he began the
day, then the recoverable amount is the difference
between the amount the player started with and the
amount he ended with. So, for example, if the player
played five hands of poker within a twenty-four hour
In addition to providing the Court with this figure, the
Commonwealth also provided the Court with another set of figures
which it described as “instances where a Kentucky player lost $5 or
more on a single hand – at one time – playing PokerStars’ real-money
‘ring/cash’ poker games.” The Commonwealth also provided the
Court with a similarly calculated figure for the tournament games.
The Court understands that these figures, taken together, represent
the “gross losses” that Amaya and REEL argue against and the
windfall that the Elias Court sought to avoid.
12

155a
period, and won five dollars on each of the first two hands
(for a total gain of ten dollars ($10.00)), but lost five dollars
on each of the last three hands (for a total loss of fifteen
dollars ($15.00)), then the player’s recoverable amount, or
actual loss under KRS 372.020, would be a net of five
dollars ($5.00), not fifteen dollars ($15.00). The Court
agrees that fifteen dollar ($15.00) amount would be the
player’s gross loss, the precise windfall that the Elias
Court sought to avoid. This Court does not believe that
the revised figure advanced by the Commonwealth
represents the gross loss; rather, the Commonwealth’s
revised figure corresponds with the calculation called for
in KRS 372.020 and already accurately represents the
actual or net loss of Kentucky players with losses of five
dollars ($5.00) or more during a twenty-four hour period.
CONCLUSION
The Defendants violated state and federal laws by
operating illegal gambling websites in Kentucky for
approximately five years, over which time Kentucky
players lost hundreds of millions of dollars. Their
disregard for the order of law continued into this litigation
by delaying and obfuscating the legal proceedings.
Amaya and REEL have failed to introduce a single new
argument in either of their Motions that would cause the
Court to reconsider either its grant of default judgment or
the ability of the Commonwealth to bring this suit and to
do so in the manner that it has chosen. Thus, the Court is
left but to assess damages and it finds that the
Commonwealth’s figure of $290,230,077.94 accurately
represents the amount of the actual losses of Kentucky
players who lost five dollars or more over the course of
each twenty-four hour period from October 12, 2006 until
April 15, 2011, and that this amount satisfies the

156a
requirements of KRS 372.020.
This is not a final judgment. It is an interlocutory
partial summary judgment only on the issue of damages.
The only issue remaining for the Court regarding Amaya
and REEL is whether the Court should award the
Commonwealth treble damages. A hearing on the issue is
scheduled for Monday, November 23, 2015 during the
Court’s regularly scheduled Motion Hour. The Court will
enter a final and appealable judgment thereafter.
WHEREFORE Amaya and REEL’s Motions for
Reconsideration are DENIED, the Commonwealth’s
Motion for Partial Summary Judgment is GRANTED,
and the Commonwealth is hereby AWARDED
$290,230,077.94 in damages.
SO ORDERED, this 20th day of November, 2015.
Thomas D. Wingate
THOMAS D. WINGATE
Judge, Franklin Circuit Court

157a
APPENDIX F
COMMONWEALTH OF KENTUCKY
FRANKLIN CIRCUIT COURT
DIVISION II
CIVIL ACTION No. 10-CI-00505

COMMONWEALTH OF
KENTUCKY Ex rel. J. Michael
Brown, Secretary, Justice and
Public Safety Cabinet

PLAINTIFF

vs.
POCKET KINGS, LTD., et al.

DEFENDANTS

OPINION AND ORDER
This matter is before the Court upon Plaintiff’s Motion
for Partial Summary Judgment against Defendants
Oldford Group Ltd (hereinafter “Oldford”) and Rational
Entertainment
Enterprise
Limited
(hereinafter
“REEL”) and Plaintiffs Motion for Sanctions against
REEL and Oldford, as well as PYR Software Ltd
(hereinafter “PYR”), Rational Intellectual Holdings Ltd.
(hereinafter “RIHL”), and Stelekram Ltd (hereinafter
“Stelekram”), collectively PokerStars or the PokerStars
Defendants.
The case was called before the Court during its regular
civil motion hour on Monday, June 22, 2015. Both parties
were represented by counsel, and Defendants objected to

158a
both of Plaintiffs Motions. Upon review of the parties’
briefs and papers, and after being sufficiently advised, the
Court hereby GRANTS Plaintiffs Motion for Partial
Summary Judgment. Further, the Court GRANTS
Plaintiffs Motion for Sanctions in part and ENTERS a
Default Judgment against the PokerStars Defendants as
sought by Plaintiff for Defendants’ failure to participate in
discovery in this case throughout the pendency of the
matter.
STATEMENT OF FACTS
Plaintiff, Commonwealth of Kentucky ex rel J. Michael
Brown, Secretary, Justice and Public Safety Cabinet
(hereinafter “Commonwealth”), brought this action to
recover money that players located in Kentucky lost to
other players playing real-money poker on PokerStars,
between October 12, 2006 and April 15, 2011.
PokerStars is the world’s largest online poker site.
Mark Scheinberg and his father, Isai Scheinberg, founded
PYR in 2000 to develop an internet poker software
platform, and eventually the two set up their own online
poker operator, PokerStars, in 2001. PokerStars does not
participate as a player in the real-money poker games
played on PokerStars, instead it charges a “rake”
comprised of a portion of the amounts wagered during the
poker game whether the players win or lose. Between
October 12, 2006 and April 15, 2011, Plaintiff posits that
individuals located in Kentucky lost money to other
players playing real-money poker on PokerStars.
Plaintiff maintains that PokerStars charged a rake on
some, or all, of those hands and that Oldford and REEL
received part, or all, of the rake. PokerStars did not have
a license from the Commonwealth to operate its online
poker business in Kentucky.

159a
Oldford was incorporated in 2001 under the laws of the
Territory of the British Virgin Islands. It is the holding
company that owns PokerStars and the group of
subsidiaries that perform various roles in the PokerStars
business. In 2013, Oldford continued under the laws of the
Isle of Man, and in 2014, Oldford changed its name to
Amaya Group Holdings (IOM) Limited. REEL was
incorporated in 2004 under the laws of the Isle of Man and
is wholly owned by Oldford. REEL operates PokerStars.
Until August 2014, Oldford was principally owned by
Mark Scheinberg and Pinhas Schapira. Collectively, they
owned approximately 90% of Oldford’s outstanding
shares, and were its directors and managing agents, with
Mark Scheinberg serving as CEO. They were also
director and managing agents for REEL. In August 2014,
Mark Scheinberg and Pinhas Schapira, along with the
other shareholders, sold Oldford to Amaya Gaming Group
Inc. (Amaya) for a purchase price of $4.9 billion dollars.
Throughout this litigation, PokerStars has refused to
participate in discovery, and is in violation of Orders of
this Court requiring it to answer interrogatories, produce
documents, and to produce individuals for deposition that
would provide the Plaintiff the necessary information to
bring this matter to conclusion.
ANALYSIS
I. Standards of Review
a. Summary Judgment
Summary judgment “shall be rendered forthwith if the
pleadings, depositions, answers to interrogatories,
stipulations, and admissions on file, together with the
affidavits, if any, show that there is no genuine issue as to
any material fact and that the moving party is entitled to

160a
judgment as a matter of law.” CR 56.03. Summary
judgment is appropriate when the court concludes that
there is no genuine issue of material fact for which the law
provides relief. Id. Summary judgment may be rendered
on the issue of liability alone although there is a genuine
issue as to the amount of damages. Id.
The moving party bears the initial burden of showing
the non-existence of a genuine issue of material fact, and
the burden then shifts to the opposing party to show
affirmatively that there is a genuine issue of material fact
for trial. Jones v. Abner, 335 S.W.2d 471, 475 (Ky. Ct. App.
2011). The movant should not succeed unless it has shown
“with such clarity that there is no room left for
controversy.” Steelvest, Inc. v. Scansteel Service Ctr., 807
S.W.2d 476, 482 (Ky. 1991). “The inquiry should be
whether, from the evidence on record, facts exist which
would make it possible for the non-moving party to
prevail. In the analysis, the focus should be on what is of
record rather than what might be presented at trial.”
Welch v. Am. Publ’g Co. of Kentucky, 3 S.W.3d 724, 730
(Ky. 1999). In reviewing Motions for Summary Judgment,
the Court views all facts in the light most favorable to the
non-moving party and resolves all doubts in its favor, and
summary judgment should only be granted when the facts
indicate that the non-moving party cannot produce
evidence at trial that would render a favorable judgment.
Steelvest, 807 S.W.2d at 480.
The Court recognizes that summary judgment is a
device that should be used with caution and is not a
substitute for trial. “[T]he proper function of summary
judgment is to terminate litigation when, as a matter of
law, it appears that it would be impossible for the
respondent to produce evidence at the trial warranting a

161a
judgment in his favor.” Jones, 335 S.W.3d at 480. Thus,
this Court finds that summary judgment will be proper
when it is shown with clarity from the evidence on record
that the adverse party cannot prevail, as a matter of law,
under any circumstances.
b. Sanctions
Furthermore, CR 37 authorizes this Court to sanction
parties for failure to abide by its Orders. The rule
authorizes this Court to “make such orders . . . as are
just” and provides a non-exclusive list of possible
sanctions. See CR 37.02(2); 37.04(l)(b). A party’s failure
to participate in the discovery process, and refusal to
comply with the court’s discovery orders, can result in
default judgment.
See National Resources &
Environmental Protection Cabinet v. Williams, 768
S.W.2d 47 (Ky. 1989). In determining discovery sanctions,
the trial court is to consider:
1) whether the
noncompliance was willful or in bad faith; 2) was the other
party prejudiced by the noncompliance; 3) was the noncompliant party warned that failure to cooperate could
lead to sanctions including default judgment; 4) were less
drastic sanctions considered before the non-compliant
party was precluded from presenting its defenses and
evidence; and 5) do the sanctions bear a reasonable
relationship to the seriousness of the non-compliance. See
R.T. Vanderbilt Co. v. Franklin, 290 S.W.3d 654,662 (Ky.
Ct. App. 2009).
II. Argument
a. Introduction
KRS 372.010 1 voids all gambling contracts and
1

KRS 372.010 provides that:

162a
transactions not otherwise licensed, authorized or
permitted. 2 KRS 372.020 3 provides the losing gambler
with a first-party cause of action to recover any losses
suffered. KRS 372.040 4 provides for a third-party cause
Every contract, conveyance, transfer or assurance
for the consideration, in whole or in part, of money,
property or other thing won, lost or bet in any game,
sport, pastime or wager, or for the consideration of
money, property or other things lent or advanced for
the purpose of gaming, or lent or advanced at the
time of any betting, gaming, or wagering to a person
then actually engaged in betting, gaming, or
wagering, is void.
2
KRS 372.005 provides that “[t]he terms and provisions of this
chapter do not apply to betting, gaming, or wagering that has been
authorized, permitted, or legalized, including, but not limited to, all
activities and transactions permitted under KRS Chapters 154A.230,
and 238.”
KRS 372.020 states that:
If any person loses to another at one (1) time, or
within twenty-four (24) hours, five dollars ($5) or
more, or anything of that value, and pays, transfers
or delivers it, the loser or any of his creditors may
recover it, or its value, from the winner, or any
transferee of the winner, having notice of the
consideration, by action brought within five (5) years
after the payment, transfer or delivery. Recovery
may be had against the winner, although the
payment, transfer or delivery was made to the
endorsee, assignee, or transferee of the winner. If
the conveyance or transfer was of real estate, or the
right thereto, in violation of KRS 372.010, the heirs
of the loser may recover it back by action brought
within two (2) years after his death, unless it has
passed to a purchaser in good faith for valuable
consideration without notice.
4
KRS 372.040 provides that “[i]f the loser or his creditor does not,
within six (6) months after its payment or delivery to the winner, sue
3

163a
of action to any person if the losing gambler fails to bring
a recovery action under KRS 372.020 within six months.
Pursuant to KRS 372.040, the Commonwealth brought
this third-party action against PokerStars to recover
money that players located in Kentucky lost to other
players playing real-money poker on PokerStars between
October 12, 2006 and April 15, 2011. In order to establish
liability, the Commonwealth must show that PokerStars is
a “winner” within the meaning of KRS 372.020, that there
are “losers” who have lost five (5) or more dollars within a
twenty-four hour period of time and that the losers did not
sue within six months to recover the lost bets. Moreover,
any recoverable losses must be gambling losses that
resulted from gaming and payment transactions which
occurred within the Commonwealth.
b. Liability under KRS Chapter 372
Based on Olford’s Responses to the Plaintiff’s First
Request for Admissions, Plaintiff insists that Oldford
admits the following: individuals located in Kentucky lost
$5 or more to other players at one time playing real-money
poker on PokerStars; individuals located in Kentucky lost
five dollars ($5) within twenty-four (24) hours to other
players playing real-money poker on PokerStars;
PokerStars charged a “rake” on some or all of these poker
hands; Oldford and REEL received part or all of the rake;
and, none of the Kentucky players who lost sued within six
months to recover their lost bets. Oldford also admits that
all statements contained in the documents Amaya filed in
the System for Electronic Document Analysis and
for the money or thing lost, and prosecute the suit to recovery with
due diligence, any other person may sue the winner, and recover
treble the value of the money or thing lost, if suit is brought within
five (5) years from the delivery or payment.”

164a
Retrieval (“SEDAR”) system bearing bates stamp
numbers OLDFORD 000001-001836 are true. Id. REEL
has offered no affidavit or other evidence tending to show
that Oldford’s admissions are false.
Oldford responds that there are numerous issues of
material fact as to which there are genuine disputes. In
particular, Oldford argues that Plaintiff has failed to
identify a singular or specific “loser” as contemplated
under the statute. Additionally, Oldford disputes the
degree to which the outcome of the poker games at issue
were based upon an element of chance as that phrase is
used in the statute. Also, Defendants argue that, even if
Plaintiff is entitled to judgment against Oldford, that
Oldford’s admissions cannot be used to obtain partial
summary judgment against REEL. Lastly, Oldford
contests Plaintiff’s authority to bring the instant suit. For
these reasons, Oldford urges the Court to deny Plaintiff’s
Motion for Partial Summary Judgment.
With these positions in mind, the Court concludes as a
matter of law that Plaintiff is entitled to summary
judgment on the issue of the PokerStars Defendants’
liability under KRS Chapter 372. Under KRS Chapter
372, any party who takes a portion of money lost in
gambling is a “winner” within the meaning of the Chapter.
Kentucky’s highest court has held that one who takes rake
from a poker game is liable under KRS Chapter 372. See
Triplett v. Seelbach, 14 S.W. 948, 949 (Ky. 1890); White v.
Wilson’s Adm’rs, 38 S.W. 495, 496-97 (Ky. 1897);
Cartwright v. McElwain, 16 S.W. 297, 299 (Ky. 1909).
These undisputed facts are sufficient to establish that
Oldford and REEL are “winners” as contemplated by
KRS 372.020. It is not relevant that PokerStars did not
stand any chance of losing.

165a
PokerStars complains that the Commonwealth has not
offered an affidavit from an individual Kentucky player
who lost money as it did in support of the motion for
partial summary judgment on liability against
Partygaming. Oldford’s admissions are on file and are
sufficient to establish its liability. REEL has offered no
affidavit or other evidence tending to show that Oldford
admissions are false, so REEL has not sustained its
burden to show affirmatively that there is a genuine issue
of material fact for trial. Jones v. Abner, 335 S.W.2d 471,
475 (Ky. Ct. App. 2011). These undisputed facts are
sufficient to establish the existence of losing gamblers in
Kentucky at the requisite wager increments between
October 12, 2006 and April 15, 2011.
Next, it is undisputed that none of the Kentucky
players sued PokerStars to recover the money lost playing
online poker offered by PokerStars. PokerStars also
contends that the Commonwealth is not a proper party to
bring this claim under KRS 372.040. This issue has been
contested several times in this action, so the record is
substantial. The Court finds that the Commonwealth is a
proper party to bring this claim.
Therefore, the
Commonwealth is entitled to seek recovery on behalf of
PokerStars’ losing Kentucky gamblers pursuant to KRS
372.040.
Oldford and REEL contend that skill predominates
over chance in poker, so poker is not gambling for
purposes of KRS 372.040, yet they offer no persuasive
legal authority to support that position. Rather, the Court
refers to KRS 528.010 for the definition of “gambling.”
KRS 528.010(3)(a) defines gambling as “staking or risking
something of value upon the outcome of a contest, game,
gaming scheme, or gaming device which is based upon an

166a
element of chance, in accord with an agreement or
understanding that someone will receive something of
value in the event of a certain outcome.” The Kentucky
Court of Appeals in Fall v. Commonwealth, 245 S.W.3d
812 (Ky. Ct. App. 2008) held that the statutory definition
of “gambling” requires only an element of chance.
“Regardless of how much skill may precede [ ... ], it is the
chance or luck that an underdog may prevail that
encourages the betting public.” Fall, 245 S.W.3d at 814.
While PokerStars does not contest the definition or
construction of the term “gambling” in Kentucky,
PokerStars insists that the games it offered on its internet
websites were not games of chance. Rather, PokerStars
maintains that its games require a high degree of skill.
This Court is not persuaded that the degree of skill in
poker games is relevant. The singular inquiry for this
Court is whether PokerStars’ internet poker games
involved an element of chance, and Oldford and REEL do
not dispute that there is an element of chance. The
element of chance, while certainly not the only element
involved in playing PokerStars’ internet games, makes the
games fall squarely within the definition of gambling in
Kentucky regardless of the degree of skill involved.
Plaintiff has established all of the necessary elements
to obtain partial summary judgment on the issue of the
PokerStars Defendants’ KRS Chapter 372 liability.
Oldford and REEL are undeniably winners to the
gambling debts of Kentucky poker playing losers. The
evidence and admissions establish that the PokerStars
Defendants took a rake on some, or all, of the real-money
poker games on PokerStars, with Oldford and REEL
receiving part, or all, of the rake. Moreover, the evidence
establishes that individuals located in Kentucky lost $5 or

167a
more within twenty-four (24) hours to other players at one
time playing real-money poker on PokerStars. Lastly, the
evidence is clear that none of the Kentucky players who
lost sued within six months to recover their lost bets,
entitling the Commonwealth as Plaintiff to maintain this
action and collect damages. There being no material facts
in dispute, the Court hereby GRANTS Plaintiffs Motion
for Partial Summary Judgment against the PokerStars
Defendants.
c. Sanctions Pursuant to CR 37.02 and 37.04
In Plaintiff’s Motion for Sanctions, Plaintiff sets out
the ongoing violations of this Court’s Discovery Orders by
PokerStars Defendants REEL, Oldford and PYR. REEL
has refused to produce Mark Scheinberg and Pinhas
Schapira for depositions, as the Court ordered on March
10, 2014. Mr. Scheinberg and Mr. Schapira were REEL’s
directors and managing agents 5 (i) when REEL agreed to
produce them for deposition, (ii) when the Court ordered
REEL to produce them, and (iii) when REEL initially
violated the Court’s Order by refusing to produce them.
REEL has been allowed additional opportunities to cure
its violation, but the depositions have not yet occurred.
REEL claims that Mr. Scheinberg recently refused to
appear, and that Mr. Schapira is now ill and unable to
appear. Accepting REEL’s contentions as true, these
situations are both recent, occurring more than a year
after the Court ordered REEL to produce them, and more
than a year after REEL violated that Order. The Record
also shows that Mr. Scheinberg and Mr. Schapira sold
Mr. Scheinberg and Mr. Schapira were also directors and managing
agents for RIHL. Both companies were under common control and
Oldford was the shareholder of both. See, e.g., REEL and RIHL
Answer to Sixth Amended Complaint, p. 3, January 24, 2014.
5

168a
their stock in Oldford to Amaya in August 2014, and that
as part of that sale they agreed to indemnify REEL (and
Oldford) for this Action, to assist in this Action, and to
assume the defense of this Action. REEL did not seek
relief from the Order prior to the sale to Amaya, or even
notify the Court or the Commonwealth of the sale.
REEL’s refusal to produce Mr. Scheinberg and Mr.
Schapira when they were directors and managing agents
(before it was sold to Amaya, and long before they
recently became unavailable) is part of a pattern of
refusing to comply with discovery and this Court’s
discovery Orders. As directors and managing agents of
the PokerStars Defendants prior to the sale to Amaya, it
appears that Mr. Scheinberg and Mr. Schapira were
ultimately responsible for that abusive pattern of
misconduct.
Considering the Record as a whole, the Court finds
that REEL willfully refused to comply with the Court’s
Discovery Order to produce Mr. Scheinberg and Mr.
Schapira. The Court also finds that REEL’s refusal
caused substantial prejudice to the Commonwealth by
depriving it of substantial material evidence. REEL and
Oldford have refused to produce answers to several of the
Commonwealth’s
interrogatories
and
documents
responsive to its requests for production of documents,
and have simply defied this Court by not producing the
relevant gaming data, claiming that the data is
incriminatory, and that producing it would violate
REEL’s and Oldford’s claimed right against selfincrimination under the Fifth Amendment of the U.S.
Constitution.
“CR 26.02 provides that the parties may obtain
discovery of any matter not privileged which is relevant to

169a
the subject matter in the pending action. . . . The rule
exempts privileged matters as a subject of an examination.
Such privileged matters should be limited to
communications and other matters which are excluded
by the constitution, the statute or our rules.” Ewing v.
May, 705 S.W.2d 910, 912 (Ky. 1986)(emphasis added).
REEL and Oldford have the burden of proving that a
privilege applies, since they are claiming the privilege.
Sisters of Charity Health Sys. v. Raikes, 984 S.W.2d 464,
468 (Ky. 1998). REEL and Oldford cannot do this. It is
well settled that the Fifth Amendment does not provide a
right against self-incrimination to companies, such as
Oldford and REEL. Braswell v. United States, 487 U.S.
99, 110 (1988) (“it is well established that such artificial
entities are not protected by the Fifth Amendment.”).
“Since the privilege against self-incrimination is a
purely personal one, it cannot be utilized by or on behalf
of any organization, such as a corporation.” United States
v. White, 322 U.S. 694, 698 (1944); United States v.
Lockhart, 2013 U.S. Dist. LEXIS 48824 (E.D. Ky. Apr. 4,
2013). The Supreme Court of Kentucky has held that the
self-incrimination protection in Section Eleven of the
Kentucky Constitution is identical to that in the Fifth
Amendment of the U.S. Constitution; therefore, separate
analysis of the two provisions is unnecessary. Newman v.
Stinson, 489 S.W.2d 826, 829 (Ky. 1972) (“We conclude
therefore that the protection against self-incrimination
given by the Fifth Amendment to the United States
Constitution is identical with that afforded by Section
Eleven of the Kentucky Constitution”).
Likewise, the privilege against self-incrimination does
not protect company documents, such as the gaming data.
Lee v. Ryan, 2003 Ky. Unpub. LEXIS 118, *9 (Ky. 2003)

170a
(the right against self-incrimination does not extend to
records of corporate entities); Braswell v. United States,
487 U.S. 99, 115 (1988) (“There is no question but that the
contents of the subpoenaed business records are not
privileged.”); Doe v. United States, 487 U.S. 201, 206
(1988) (“There also is no question that the foreign bank
cannot invoke the Fifth Amendment in declining to
produce the documents; the privilege does not extend to
such artificial entities.”); Bellis v. United States, 417 U.S.
85, 89-90 (1974) (“No artificial organization may utilize the
personal
privilege
against
compulsory
selfincrimination.”).
Oldford and REEL concede that there is no authority
holding that the Fifth Amendment’s self-incrimination
protection applies to companies or company documents.
Instead, they offer two persuasive cases interpreting
Illinois state law. Unable to support their objection with
precedential legal authority, Oldford and REEL invite
this Court to extend the Fifth Amendment right against
self-incrimination to corporations. Oldford and REEL
offer no authority that such an “extension” would be
proper or even permissible, so this Court declines their
invitation. The Court finds that REEL and Oldford have
failed to satisfy their burden of proving that their claimed
right against self-incrimination applies. Sisters of Charity
Health Sys. v. Raikes, 984 S.W.2d 464, 468 (Ky. 1998). The
Court overrules the objection.
Oldford and REEL suggest that their objections are
sufficient responses under CR 33.01 and 34.02. Had the
Court ordered REEL and Oldford to respond to the
Commonwealth’s interrogatories and requests for
production of documents by the May 31, 2015 deadline, the
Court might agree. However, the Court ordered Oldford

171a
and REEL to produce answers and documents by May 31,
2015. Neither Oldford nor REEL objected to any of the
Commonwealth’s interrogatories or request for
production of documents in response to the
Commonwealth’s motions to compel. The Court granted
the Commonwealth’s motions to compel Oldford and
REEL based on the Record and the arguments presented,
clearly setting May 31, 2015 as the deadline to produce
answers and documents. Oldford and REEL had ample
time to seek relief from the Orders if they intended to
object instead of produce answers and documents, yet
they did not. Moving the Court for relief would have
allowed the Court to consider and rule on the objections
before the May 31, 2015 deadline, yet neither Oldford nor
REEL sought relief from the Orders. Instead, Oldford
and REEL refused to comply. The Court finds that
Oldford and REEL willfully refused to comply with the
Court’s discovery Orders by refusing to produce the
answers and documents, and thus has caused substantial
prejudice to the Commonwealth. Additionally, PYR has
provided incomplete and evasive answers to the
Commonwealth’s interrogatories, thus refusing to comply
with the Court’s discovery Order. The Court finds that
the Commonwealth’s complaints about PYR deficiencies
are well taken, and that PYR has refused to cure those
deficiencies despite the Court’s order that PYR produce
answers to the interrogatories and documents for the
request for admissions, and that its refusal has caused
substantial prejudice to the Commonwealth.
CR 37.02 authorizes the imposition of sanctions up to
and including default judgment against a defendant for
their refusal to comply with discovery orders. CR 37.04
addresses the failure of a party to attend a deposition or

172a
otherwise response to interrogatories of request for
inspection. R.T. Vanderbilt Co. v. Franklin, 290 S.W.3d
654, 662 (Ky. Ct. App. 2009) sets out five factors for the
trial court to review to consider on the imposition of
sanctions under CR 37.02. In this instance, the Court
finds specifically that: PokerStars non-compliance with
this Court’s Orders was willful or in bad faith, that the
Plaintiff is prejudiced by PokerStars’ failure to comply
with this Court’s Orders, that PokerStars was repeatedly
warned that failure to cooperate could lead to sanctions
including default judgment, less drastic sanctions than
precluding PokerStars defendants from presenting
defenses and presenting evidences were considered, and
that the sanctions of default bear a reasonable relationship
to the seriousness of the non-compliance with this Court’s
Orders.
III. Conclusion
The Commonwealth has satisfied its burden of
showing that no genuine issues of material fact exist.
Summary judgment is proper on the issue of liability.
Accordingly, this Court finds that Oldford and REEL are
liable under KRS 372.040 and enters PARTIAL
SUMMARY JUDGMENT on liability.
Because of the degree to which the REEL, Oldford
and PYR have defied and refused to obey this Court’s
discovery Orders, and having considered the factors set
out in R.T. Vanderbilt Co. v. Franklin, 290 S.W.3d 654, 662
(Ky. Ct. App. 2009), the Court GRANTS Plaintiff’s Motion
for Sanctions and enters a DEFAULT JUDGMENT
against Oldford, REEL, and PYR.
This is not a final judgment. It is an interlocutory
partial summary judgment only on the issues of liability,

173a
not the existence and extent of damages. The only issue
remaining for the Court regarding Oldford and REEL is
a determination of damages based on the amount of
money that Kentucky residents lost playing online poker
on PokerStars’ internet gambling games. The Court
ORDERS that a hearing on the issue of damages shall be
scheduled at a mutually agreeable date in the future, with
the expectation that the Court will enter a final and
appealable judgment thereafter.
WHEREFORE, the Plaintiff’s Motion for Partial
Summary Judgment is GRANTED. The Plaintiff’s
Motion for Sanctions is GRANTED and default
Judgment against the PokerStars Defendants is hereby
GRANTED.
SO ORDERED, this 11th day of August, 2015.
Thomas D. Wingate
THOMAS D. WINGATE
Judge, Franklin Circuit Court

174a
APPENDIX G

Supreme Court of Kentucky
2019-SC-0058-DG
2019-SC-0209-DG
COMMONWEALTH OF
KENTUCKY, EX REL. J.
MICHAEL BROWN,
SECRETARY OF THE
GOVERNOR’S
EXECUTIVE CABINET

V.

APPELLANT/
CROSS-APPELLEE

ON REVIEW FROM COURT OF APPEALS
NO. 2016-CA-0221
FRANKLIN CIRCUIT COURT NO. 10-CI00505

STARS INTERACTIVE
HOLDINGS (IOM) LTD.,
F/K/A AMAYA GROUP
HOLDINGS (IOM) LTD.
AND RATIONAL
ENTERTAINMENT
ENTERPRISES, LTD.

APPELLEES/CROSSAPPELLANTS

ORDER DENYING PETITION FOR REHEARING
The Petition for Rehearing, filed by the
Appellees/Cross-Appellants of the Opinion of the Court,
rendered December 17, 2020, is DENIED.

175a
All sitting. All concur.
ENTERED: March 25, 2021.
John D. Minton
CHIEF JUSTICE

